<html>
<title> - IMPROVING THE CHILD WELFARE SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                   IMPROVING THE CHILD WELFARE SYSTEM

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                   INCOME SECURITY AND FAMILY SUPPORT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2008

                               __________

                           Serial No. 110-71

                               __________

         Printed for the use of the Committee on Ways and Means



                     U.S. GOVERNMENT PRINTING OFFICE
45-993 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California       JIM MCCRERY, Louisiana
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            DAVE CAMP, Michigan
JOHN LEWIS, Georgia                  JIM RAMSTAD, Minnesota
RICHARD E. NEAL, Massachusetts       SAM JOHNSON, Texas
MICHAEL R. MCNULTY, New York         PHIL ENGLISH, Pennsylvania
JOHN S. TANNER, Tennessee            JERRY WELLER, Illinois
XAVIER BECERRA, California           KENNY HULSHOF, Missouri
LLOYD DOGGETT, Texas                 RON LEWIS, Kentucky
EARL POMEROY, North Dakota           KEVIN BRADY, Texas
STEPHANIE TUBBS JONES, Ohio          THOMAS M. REYNOLDS, New York
MIKE THOMPSON, California            PAUL RYAN, Wisconsin
JOHN B. LARSON, Connecticut          ERIC CANTOR, Virginia
RAHM EMANUEL, Illinois               JOHN LINDER, Georgia
EARL BLUMENAUER, Oregon              DEVIN NUNES, California
RON KIND, Wisconsin                  PAT TIBERI, Ohio
BILL PASCRELL JR., New Jersey        JON PORTER, Nevada
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama

             Janice Mays, Chief Counsel and Staff Director

                  Brett Loper, Minority Staff Director

                                 ______

           SUBCOMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT

                  JIM MCDERMOTT, Washington, Chairman

FORTNEY PETE STARK, California       JERRY WELLER, Illinois
ARTUR DAVIS, Alabama                 WALLY HERGER, California
JOHN LEWIS, Georgia                  DAVE CAMP, Michigan
MICHAEL R. MCNULTY, New York         JON PORTER, Nevada
SHELLEY BERKLEY, Nevada              PHIL ENGLISH, Pennsylvania
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Electronic submissions are used to prepare both printed and 
electronic versions of the hearing record, the process of converting 
between various electronic formats may introduce unintentional errors 
or omissions. Such occurrences are inherent in the current publication 
process and should diminish as the process is further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of February 20, 2008, announcing the hearing............     2

                               WITNESSES

Opening Statements:

The Honorable John Lewis.........................................     7

                                 ______
                                 
The Honorable Danny Davis, 7th Congressional District, Illinois..    14
The Honorable Chaka Fattah, 2nd Congressional District, 
  Pennsylvania...................................................     9
The Honorable Michele Bachmann, 6th Congressional District, 
  Minnesota......................................................    17

                                 ______
                                 
Gil Kerlikowske, Chief of Police, Seattle, Washington............    26
Ken Deibert, Deputy Director, Arizona Department of Economic 
  Security--Children, Youth and Family Services, Phoenix, Arizona    34
Jim Purcell, Executive Director, Council of Family and Child 
  Caring Agencies, New York City.................................    41
Terry Cross, Executive Director, National Indian Child Welfare 
  Association, Portland Oregon...................................    51
Lupe Tovar, former foster youth, Tucson, Arizona.................    58

                                 ______
                                 
Hope A. Cooper, Project Director, Kids Are Waiting Campaign, The 
  Pew Charitable Trusts..........................................    77
MaryLee Allen, Director of Child Welfare and Mental Health, The 
  Children's Defense Fund........................................    82
Khatib Waheed, Senior Fellow, Center for the Study of Social 
  Policy.........................................................    95
Pamela Davidson, Vice President, Government Relations, National 
  Council for Adoption...........................................   100

                       SUBMISSIONS FOR THE RECORD

America Federation of State, County and Municipal Employees, 
  statement......................................................   148
American Humane, statement.......................................   150
Georgia Association of Homes and Services for Children, Letter...   156
The Honorable Wally Herger, a Representative from the State of 
  California                                                        160
National Foster Care Coalition, Letter...........................   162
Thomas Atwood and Marc Zappala, statement........................   169
American Indian Affairs, statement...............................   170
Ann Harrmann, statement..........................................   172
DePelchin Children's Center, statement...........................   173
Gladys Carrion, statement........................................   175
National Council on Disablility, statement.......................   179
National Governors' Association, statement.......................   182


                   IMPROVING THE CHILD WELFARE SYSTEM

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

             U.S. House of Representatives,
                       Committee on Ways and Means,
                        Subcommittee on Income Security and
                                            Family Support,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 1100, Longworth House Office Building, Hon. Jim McDermott 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                            SUBCOMMITTEE ON

                   INCOME SECURITY AND FAMILY SUPPORT

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
February 20, 2008
ISFS-15

                  Jim McDermott Announces A Hearing on

                   Improving the Child Welfare System

    Congressman Jim McDermott (D-WA), Chairman of the Subcommittee on 
Income Security and Family Support, today announced a hearing to review 
legislative proposals designed to improve America's child welfare 
system. The hearing will take place on Wednesday, February 27, 2008, in 
the main committee hearing room, 1100 Longworth House Office Building, 
beginning at 10:00am.

    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Subcommittee and 
for inclusion in the printed record of the hearing.
      
BACKGROUND:
      
    The child welfare system, which is administered by State and local 
agencies with Federal financial participation and oversight, is 
responsible for ensuring the safety and well-being of vulnerable 
children and families under its supervision. The system faces numerous 
challenges in ensuring positive outcomes for these children. Between 
2001 and 2004, in its first round of Child and Family Service, Reviews, 
the Department of Health and Human Services found that no State 
achieved all of the Federal outcome measures for ensuring the safety, 
well-being, and permanency of children. These evaluations generally 
indicated that States were most adept at ensuring children were not 
exposed to repeated child abuse and neglect and remained in their homes 
whenever appropriate and possible, and that States faced the greatest 
difficulty in achieving permanent and stable living arrangements for 
children, enhancing the capacity of families to meet the needs of their 
children, and ensuring the provision of health care services for kids 
in care.

    Researchers, commissions, and program administrators have 
identified certain features of the child welfare system that may hamper 
efforts to promote the well-being of at-risk children. Many have 
pointed to the current Federal financing structure for child welfare 
activities, which is progressively covering fewer children in need of 
foster care, while also inadequately funding family-oriented services 
that might reduce the need for foster care. Additionally, concerns have 
been raised about the child welfare system's difficulties in: 
recruiting and retaining a qualified workforce; providing adequate 
assistance to relatives caring for children removed from their homes; 
assisting foster children beyond the age of 18; and ensuring adequate 
health care and educational oversight for children in foster care.

    In an effort to comprehensively address these problems, 
Subcommittee Chairman McDermott recently introduced the Invest in KIDS 
Act (H.R. 5466). This legislation would: (1) create a new Federal-State 
partnership to provide services aimed at reducing the need for foster 
care; (2) ensure Federal foster care assistance for every child in need 
of care; (3) support a qualified child welfare workforce; and (4) 
connect foster children to support, family, health care and school 
through such policies as allowing Federal foster care coverage to 
continue until age 21, providing Federal guardianship payments for 
relatives caring for children removed from their homes, and requiring 
improved oversight of the health care and education needs of foster 
children. Additional proposals have been suggested by other Members of 
Congress, the Administration, national commissions, and advocacy 
organizations.

    In announcing the hearing, Chairman McDermott stated, ``We have no 
greater responsibility than ensuring the well-being of America's most 
vulnerable children. I want to begin addressing how we might better 
meet that obligation, on a comprehensive basis if possible or on an 
incremental basis if needed. These children are depending on us, and 
failure cannot be an option.''
      
FOCUS OF THE HEARING:
      
    The hearing will focus on legislative proposals designed to 
strengthen the child welfare system and improve the outcomes of 
children in care.
      
DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:
      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``110th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=18). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business March 12, 
2008. Finally, please note that due to the change in House mail policy, 
the U.S. Capitol Police will refuse sealed-package deliveries to all 
House Office Buildings. For questions, or if you encounter technical 
problems, please call (202) 225-1721.
      
FORMATTING REQUIREMENTS:
      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.

    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.

    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.

    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman MCDERMOTT. The meeting will come to order. We are 
here today to discuss America's child welfare system and what 
we can do to improve it. As a society, I believe we are judged 
on how we treat the least among us. Knowing what we know about 
the shortcomings in child welfare, let's hope that the judgment 
day doesn't come too soon.
    It is not that well-meaning people haven't tried over the 
years to do some good. It is just that we have continued to 
build upon a paradigm that doesn't begin to address the real 
needs of the child welfare system in the 21st century.
    Nearly 50 years ago, the State of Louisiana expelled 23,000 
children from its welfare rolls because they were from 
``unsuitable homes,'' which mostly meant their mothers were 
unmarried. The Federal Government responded by saying 
assistance must continue unless the homes were truly unsafe, in 
which case the child would be removed. A year later, 1961, 
Congress enacted legislation to share in the cost of caring for 
children removed from their homes, and so was born the Federal 
foster care system.
    To be sure, many valuable improvements to the child welfare 
system have been made over the years, but the basic 
underpinnings of the Federal system are still based in that 
history. It is why we cover only a portion of children in 
foster care, those coming from only the very poorest families. 
It is why the system still provides much more money for out-of-
home care than for prevention or family support.
    I believe the time has come for a new vision to ensure the 
protection, permanency, and well-being of America's vulnerable 
children. Here are a list of the issues that most demand our 
attention.
    Forty percent of children who have been substantiated as 
victims or abuse or neglect currently receive no follow-up 
services whatsoever. Forty percent. Only 43 percent of the 
children removed from their homes and placed in foster care 
receive some Federal assistance in paying for that care, down 
from 54 percent a decade ago. So, actually, we are worse off 
today than we were 10 years ago.
    The average child welfare caseworker's tenure on the job is 
less than 2 years, and their caseloads are more than twice the 
recommended level. 24,000 youngsters aged out of foster care 
for the last year on record with little support and guidance. 
Finally, the health care and educational needs of foster kids 
are too often an afterthought rather than a priority.
    The bill that we have recently introduced, Invest in KIDS 
Act, H.R. 5466, to begin to address these major shortcomings is 
what we are here today to talk about. I present this bill not 
as the final word on reforming child welfare, but as a first 
step toward developing a vision and a consensus on how we can 
move forward.
    The legislation is based on a few basic principles. First, 
the Federal Government should act as a partner with our States 
to improve outcomes for vulnerable children. This partnership 
shouldn't begin and end with placing kids in out-of-home care. 
That is about what the system is today. It also should extend 
to family support and prevention services that might keep kids 
out of foster care in the first place.
    Such a commitment by the Federal Government does not mean 
simply giving States a bag of cash and telling them to spend 
it. It does mean saying to States, counties, and tribes that if 
they are willing to invest their own money to improve outcomes 
for at-risk children, the Federal Government will match that 
investment.
    This Federal match will continue only if the States' 
reforms produce positive results, as demonstrated by hard data. 
Too often we start programs, and then they go on forever and we 
never look to see whether they work. That shouldn't happen.
    Secondly, the Federal Government has an interest in every 
vulnerable child, and our financing system for foster care 
should reflect that fact. Instead, we are now providing for 
fewer and fewer foster children with Federal assistance because 
of an outdated eligibility standard.
    It is the old standard of only serving children in families 
eligible for welfare, but we froze the standard in 1996. A 
dozen years ago, it became even more restrictive, as I say, 
because we put rules in place that said, 1996 will be the date, 
and we are not going to have any increase for wages. No 
standard of living changes or inflation.
    Third, finally, we must do a much better job of promoting 
the well-being of foster kids. Too often this seems to stop at 
ensuring their immediate physical safety. Of course, that is a 
paramount interest, but it can't be our only concern.
    There needs to be a greater interest in the daily lives of 
these children, starting with health care, education, and their 
connection to other family members. It is time to turn another 
page in our efforts to ensure a better future for America's 
most vulnerable kids.
    Given the level of need and the urgency, I would prefer 
immediate comprehensive reform. If that is not possible, I hope 
to work with my colleagues on this Subcommittee and see if we 
can make meaningful but incremental change. I always like to 
put out what I really want, and then we will talk about what we 
can get.
    I look forward to working with all the Members of the 
Subcommittee, including the Ranking Member, Mr. Weller, to 
achieve this goal. I am reminded of something Dr. Martin Luther 
King said: Injustice anywhere is a threat to justice 
everywhere. There is injustice in the child welfare system 
today that does not, and cannot, fully protect innocent 
American children. It is up to us to make a difference.
    I now yield to Mr. Weller for any opening comments that he 
may have.
    Mr. WELLER. Well, thank you, Mr. Chairman, and good 
morning. Welcome to my colleagues Mr. Fattah, Mr. Davis, and 
Ms. Bachmann before our Subcommittee. Good to have you here, 
and appreciate the time you are taking as well as the witnesses 
that are going to participate in today's hearing.
    Mr. Chairman, today's hearing provides us another 
opportunity to review proposals to our Nation's child welfare 
system. As a series of hearings in this and prior Congresses 
have shown, there is a lot of work to do.
    Chairman McDermott recently introduced legislation we will 
discuss today. I first want to thank the Chairman for including 
several provisions that I myself have worked on for many years. 
One provision tracks my legislation, H.R. 2314, to harmonize 
Federal reimbursement rates for training child welfare workers.
    Mr. Purcell, on behalf of the Child Welfare League of 
America, rightly asks, ``Where private, usually not-for-profit 
agencies are caring for the public's children, why deny them 
access to the training deemed necessary for all workers?'' I 
want to thank the Child Welfare League for supporting this 
change and for recognizing my efforts on this.
    Another provision would address concerns about child 
welfare services for Native American children. Our first 
Americans should be treated as full Americans, including in 
child welfare programs. Mr. Pomeroy, a Member of this 
Committee, and I have cosponsored legislation, H.R. 4688, along 
with Mr. Camp, to provide more equitable access to foster care 
and adoption services for Indian children in tribal areas. The 
bulk of this legislation is included in the Chairman's bill as 
well.
    Finally, the Chairman's legislation builds on a resolution, 
H.Res. 733, the Chairman and I co-authored this past year. This 
resolution highlights the importance of improving the high 
school graduation rates of foster youth. Under the Chairman's 
legislation, States would be required to take action in this 
area.
    We also know that Congress needs to reauthorize the 
Adoption Incentives Program, which expires this year, and is 
widely regarded as a bipartisan success. As these provisions 
reflect, there is ground here for bipartisan cooperation this 
year, and in a way that could be fully paid for.
    Fortunately, the Chairman's bill does not stop at just 
these issues. For example, his legislation includes provisions 
that would dramatically reduce the Federal matching rate for 
foster care payments. Not surprisingly, States, according to 
the HPHSA's testimony, urged the Subcommittee to consider 
alternative funding solutions.
    The Chairman's legislation also proposes a variety of ways 
to increase spending in child welfare programs without 
proposing ways to pay for all the additional costs. We are 
still waiting to hear from the Congressional Budget Office what 
the total cost of this proposal would be, but the likely high 
costs of many of the provisions in the Chairman's legislation 
make it probably pretty difficult to move this year.
    That all suggests that we should work together. We have an 
opportunity, I believe, to work in a bipartisan way, Mr. 
Chairman, to identify provisions that not only have bipartisan 
support but also that we can get done this year. Like you, Mr. 
Chairman, I would like to get something done this year.
    I look forward to working with the Chairman and other 
Members of this Subcommittee to move that process forward. I 
think we have an opportunity to work in a bipartisan way. Thank 
you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you, Mr. Weller. I will take you 
up on that. We are going to work on this and see what we can 
get done, even in an election year. It is not easy to get 
things through the Senate this year, but we will try.

[GRAPHIC] [TIFF OMITTED] T5993A.001

[GRAPHIC] [TIFF OMITTED] T5993A.002


                                 <F-dash>

    Chairman MCDERMOTT. We welcome three of our colleagues here 
today. I think it says something about this issue that three 
Members of the House would come and spend their time to come 
before this Subcommittee and talk about child welfare. Children 
often get shortchanged in this system, and it is good to have 
all three of you here.
    We will begin with Mr. Fattah. I would say anything you 
want to put into the record, you are certainly welcome to do, 
but you have 5 minutes to tell us what is on your mind.

 STATEMENT OF HON. CHAKA FATTAH, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. FATTAH. Mr. Chairman, let me thank you and the Ranking 
Member in the Subcommittee for holding this hearing. I 
appreciate the opportunity, as I know my colleagues do, to 
testify before you.
    We have a shared interest in this matter, and there is a 
great deal of concern, and as a Member of the Appropriations 
Committee looking at the challenges that our young people face. 
I have remarks that we would like to submit for the record. I 
will just talk for a minute on this subject.
    In fiscal year 2005, we had some 890,000 children neglected 
in the country. We had some 500,000 in foster care. Your bill 
this year to deal with a comprehensive reform is critically 
important.
    I have also offered legislation to reestablish the White 
House Conference on Youth and Children. This was begun under 
President Theodore Roosevelt in 1909. There were conferences 
held by the President in 1919, 1930, and 1939, and the last one 
in 1970. We would like to reestablish it, and focus 
particularly in 2010 on the challenges in our foster care 
system.
    Of the 500,000 young people who were in foster care in 
fiscal year 2005, which is the last data that I have available 
to me, some 120,000 are awaiting adoption. There is a 
tremendous challenge, and we think that by bringing the office 
of the President into this matter--I know all of my colleagues 
are familiar with the White House Conferences on Aging because 
we all get engaged by seniors and organizations in our 
districts around participation in that conference. This would 
be an effort similar to that, and we think that it would really 
help to bring light to some of the additional changes that we 
need in our child welfare system.
    So, I am here today. There are a lot of very good ideas. I 
agree with the Ranking Member and the Chairman that there is 
nothing partisan about this. This is a focus on young people 
who do not yet have the opportunity to vote and have not bought 
into Democrat or Republican. They are really grappling with 
their life chances and we can improve them to the degree that 
we do our work here. We should do that on a bipartisan basis.
    Franklin Roosevelt once said that preeminently, the 
presidency was about moral leadership and about being alert to 
change and sensitive to the changes needed in our society. I 
think there is no change more important than what it takes for 
these young people in the shadows of our society, and neglected 
in very real terms, and put them at the very front burner of 
policy discussions around the future of child welfare services.
    So, I join with the Child Welfare League of America and 
with a host of others of my colleagues in moving the 
legislation that I have introduced, which is H.R. 5461, but 
also in support of comprehensive reform as embodied in the 
Chairman's bill.
    I thank you for your time, and I thank the Members of the 
Subcommittee.
    [The prepared statement of Mr. Chaka Fattah follows:]

    [GRAPHIC] [TIFF OMITTED] T5993A.003
    
    [GRAPHIC] [TIFF OMITTED] T5993A.004
    
    [GRAPHIC] [TIFF OMITTED] T5993A.005
    
    [GRAPHIC] [TIFF OMITTED] T5993A.006
    
    [GRAPHIC] [TIFF OMITTED] T5993A.007
    

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much.
    Mr. Davis.

STATEMENT OF HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. DAVIS. Thank you very much, Chairman McDermott, Ranking 
Member Weller, and Members of the Subcommittee. I would like to 
thank you for the opportunity to speak in support of H.R. 5466, 
the Invest in KIDS Act.
    My written testimony details how the subsidized 
guardianship and adoption incentive provisions would help my 
constituents and the nation. However, I wish to focus my oral 
testimony on the importance of extending care until 21.
    Recently, the Chapin Hall Center for Children at the 
University of Chicago released a comprehensive examination of 
youth leaving foster care. The results clearly indicate that 
youth who remain in care are more likely to attend college, to 
complete college, and to delay pregnancy compared to their 
foster care peers who exited care.
    For instance, youth remaining in care are three and a half 
times more likely to attend college, and have a 38-percent 
reduction in the risk of becoming pregnant. An impressive 
finding was that each additional year in care after age 18 was 
associated with increased earnings of about 17 percent.
    My home State of Illinois has been a leader in extending 
foster care to age 21. As the Subcommittee moves forward, I 
encourage you to consider some additions to this provision 
based on the successes of Illinois' program. To ensure that 
these youth benefit the most from extended protection, I have 
four recommendations.
    First, to help ensure program accountability, having a case 
plan that outlines the steps that the youth and child welfare 
system must take to achieve independence by 21 is essential.
    Secondly, we have learned in Illinois that our foster care 
policies need to be sufficiently flexible to accommodate the 
varying experiences of these youth. For example, we should 
support youth in transitioning to adulthood regardless of 
whether they enter higher education or the workforce.
    Similarly, youth need a broad array of housing options to 
meet their needs as they change over time. Further, youth need 
the flexibility of coming in and out of the system. This is how 
we parent our children. Our child welfare policies should be no 
different.
    Third, all youth exiting care at age 18 should be given the 
option to remain in care, and we must avoid erecting any 
barriers that make it difficult for youth to remain in care.
    Finally, I strongly encourage you to extend care through 
age 21. The Chapin Hall research is clear that fewer foster 
care youth graduate from college by age 21. Although 
approximately 28 percent of foster youth were enrolled in a 4-
year college at age 21, none of the foster youth had obtained a 
degree from a 4-year college, compared to 8.1 percent of their 
non-foster-care counterparts. If we cease care on the 21st 
birthday, we remove critical support for these young people and 
undermine them at a crucial time.
    As policymakers, we have the ability and the responsibility 
to make a difference in the lives of foster children. We must 
use that ability to make sure that the downtrodden and 
neglected of today are the achievers and leaders of tomorrow.
    Again, Mr. Chairman, I thank you and the Members of the 
Subcommittee for the opportunity to testify in favor of this 
legislation, but also to indicate the work we do on behalf of 
children was actually done on behalf of future generations. 
Songwriters said that our children are the future. Teach them 
well, and let them lead the way.
    I thank you for the opportunity to be here, and yield back 
the balance of my time.
    [The prepared statement of Hon. Danny K. Davis follows:]

            Prepared Statement of The Honorable Danny Davis
                  7th Congressional District, Illinois

    Chairman McDermott and Ranking Member Weller, I thank you and the 
Subcommittee Members for holding a hearing on the critical need to 
reform our child welfare system to better protect our most vulnerable 
citizens. I am reminded of the words of Ralph Waldo Emerson who defined 
success--not as wealth or power--but as whether we leave the world a 
bit better by improving the health of a child or by simply knowing that 
``even one life has breathed easier because you have lived.'' The 
legislative proposals we will discuss today share this goal--to provide 
children with the stable, caring homes that they deserve.
    I would like to speak in support of H.R. 5466, the Invest in KIDS 
Act. This bill would greatly improve the child welfare system by 
addressing the key deficiencies in our current system simultaneously. 
Such a comprehensive approach is necessary. I wish to direct my 
comments to three elements of the bill: subsidized guardianship, 
extending foster care to age 21, and the adoption incentives program. 
Central to my testimony is that our child welfare system must promote 
permanency, be it through reunification with a child's birth family, 
adoption, or legal guardianship.

Subsidized Guardianship
    My home State of Illinois has been a leader in pioneering child 
welfare reforms such as subsidized guardianship and extending foster 
care to age 21. With 10 years of experience under our belts, Illinois 
shows that subsidized guardianship works. Research clearly demonstrates 
that kinship foster care families are safer, more stable placements 
that are more likely to keep children connected with their siblings and 
communities than non-relative placements. Further, these placements are 
cost effective. In Illinois, cost studies found a projected savings of 
approximately $48 million over 10 years compared to a matched control 
group that did not have this option. In addition to these benefits, the 
Government Accountability Office recently recommended subsidized 
guardianship as a key policy to reduce the disproportionate number of 
African American children in foster care. The KIDS Act would work to 
redress this inequity by including subsidized guardianship as a viable 
permanency option.
    I am very pleased that the KIDS Act includes many of the key 
provisions of H.R. 2188, the Kinship Caregiver Support Act, that my 
colleague Tim Johnson from Illinois and I introduced. I am especially 
pleased to see the allowance of separate licensing for kinship care 
families. This provision recognizes that the requirements on families 
to demonstrate a safe home should differ from strangers. A grandmother 
in Chicago raising her two grandsons should not have to have a three 
bedroom apartment and attend a set number of hours of parenting classes 
annually to demonstrate her fitness to care for these young children. 
As the Subcommittee moves forward with this legislation, I would 
encourage you to consider two additional pieces of our Kinship 
Caregiver bill. First, requiring states to notify specific relatives 
when a child is placed in foster care will do much to encourage 
relative caregiving. Second, to encourage older youth to exit to 
permanency, expand eligibility for the Foster Care Independence Program 
so that education and training vouchers as well as independent living 
services are available to young people who exit foster care after age 
14 to guardianship or adoption.

Extending Foster Care to 21
    Further, I applaud Chairman McDermott for including the extension 
of Federal support for foster care to age 21. Recently, the Chapin Hall 
Center for Children at the University of Chicago released the most 
comprehensive examination of youth leaving foster care since passage of 
the Foster Care Independence Act. The study followed youth aging out of 
the foster care system over three years. The results clearly indicate 
that youth who remain in care are more likely to attend college, to 
complete college, to have increased earnings, and to delay pregnancy. 
An impressive finding was that each additional year in care after age 
18 was associated with a $924 increase in annual earnings, after 
controlling for youth characteristics that could affect later earnings. 
These are all successes that we want for our own children, and we have 
an obligation to provide the same protections to those in our care.
    As the Subcommittee moves forward, I encourage you to consider some 
additions to this provision of the KIDS Act based on the successes of 
Illinois's program to ensure that these youth benefit the most from 
extended protection. For example, to help ensure program 
accountability, all stakeholders involved--be it the youth, the 
agencies, or the courts--should have clear responsibilities. Having a 
case plan that outlines the steps that the youth and child welfare 
system must take to achieve independence by 21 is essential, and it 
should continue to include a focus on permanency. Simply because you 
are 18, 19, or 21, one still needs a permanent family. Moreover, we 
have learned in Illinois that our foster care policies need to be 
sufficiently flexible to accommodate the varying experiences of these 
youth. Youth take different paths. Some go on to higher education; some 
must work. We should support youth in transitioning to adulthood 
regardless of what path they take. Similarly, youth need a broad array 
of housing options. At times, youth may thrive in independent 
apartments; at other times, they may need more supportive housing. We 
should work with youth to ensure they can access the type of housing 
that supports them best. We also must avoid erecting any barriers that 
make it difficult for youth to remain in care until 21. It should be a 
seamless process, not one with multiple steps that dissuade youth from 
receiving support. Moreover, all youth exiting care at age 18 should be 
given the option to remain in care, and youth need the flexibility of 
coming in and out of the system. The research shows us that most youth 
will take advantage of remaining in the system, but, if they choose to 
leave, we must ensure they have a place to return. This is how we 
parent our children. Our child welfare policies should be no different.
    Finally, I strongly encourage you to extend care through age 21. 
The Chapin Hall research clearly shows that few foster care youth 
graduate from college by age 21. Specifically, at age 20 or 21, only 
27.9 percent of youth who remained in foster care were enrolled in a 
four-year college, compared to 71 percent of the general population of 
21-year-olds. Moreover, only 1.9 percent of foster youth had obtained a 
degree from a 2-year college compared to 43 percent of their non-foster 
care counterparts. None of the foster youth had obtained a degree from 
a 4-year college compared to 8.1 percent of their non-foster-care 
counterparts. It is not fair to expect foster youth to become 
independent at an earlier age than their non-foster-care peers. If we 
cease care on the twenty-first birthday, we remove critical supports 
for these youth and undermine them at a crucial time. Although this 
would not be our intention, it would be the result.

Adoption Incentives Program
    The Adoption Incentives Program is important because it encourages 
States to build the infrastructure to support children who cannot 
return to their families. The Invest in KIDS Act advances the policy of 
promoting permanency by expanding the incentive program to include 
subsidized guardianship. I hope that in the future we will be able to 
reward States for improving their rates of placing children in 
permanent homes via any of the three main paths to permanency: 
reunification with the child's birth family, adoption, or legal 
guardianship. The reauthorization of the incentives program also offers 
an opportunity to address the unintended penalty to States with good 
histories of moving children to permanency or States with large case 
loads. Currently, qualification for and calculation of incentives is 
based on the number of children moved to permanency, whereas using the 
rate of children moved to a particular type of permanency would best 
measure a State's success.
    As Forest Witcraft said, ``A hundred years from now it will not 
matter what my bank account was, the sort of house I lived in, or the 
kind of car I drove, but the world may be different because I was 
important in the life of a child. . . .'' As policymakers, we have the 
ability and responsibility to make a difference in the lives of foster 
children. We must use that ability to make sure that the downtrodden 
and neglected of today are the achievers and leaders of tomorrow.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much for your testimony.
    Ms. Bachmann.

    STATEMENT OF HON. MICHELE BACHMANN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Ms. BACHMANN. Thank you, Mr. Chairman, Mr. Weller, Members 
of the Subcommittee. Educational opportunities for foster 
children is an issue that is near and dear to my heart because 
over the years, my husband and I have welcomed 23 teenaged 
foster children into our home through the Minnesota-based 
Social Services Treatment Foster Care program.
    After practicing tax law for several years, I had just 
given birth to our fourth biological child, Caroline, and I was 
ready to be working from home. My husband Marcus and I knew a 
few families who had opened their homes to teenage foster 
children, and we felt that it would be our privilege to do the 
same.
    We noticed many educational differences for our foster care 
children. Rather than giving up on foster children, it is our 
belief that we should be reaching out to them. We should be 
working to end the self-fulfilling prophecy that foster 
children just can't make it in school, and that instead of 
perpetuating the statistical evidence stacked up against those 
children, we need to embrace the view that it doesn't have to 
be like this.
    There is strong research to show that school transfers 
cause disruptions in the learning process and lead to emotional 
disruptions, including loss of friendships and relationships 
with adults. This is a unique hardship of changing schools when 
you change homes, and it is a cycle that we have the chance to 
break.
    Every child would benefit from high-quality education, and 
foster children should not be punished because of the changes 
in their home lives, changes over which they have little or no 
control or say.
    Instead of separating foster children from their trusted 
friends and teachers, we should give them the opportunity to 
stay at a school if it is working for them, and we should allow 
families to choose the school that is best equipped to help 
that foster child.
    Last year I introduced legislation with my colleague, 
Representative Jim Cooper, to enhance the Chafee Foster Care 
Independence Program and extend its school voucher scholarship 
benefits to children of all ages. The Chafee program was 
designed to help foster children successfully navigate the 
difficult transition out of State care into independence at 
adulthood. Childhood education is the key to adult 
independence.
    It gives older foster children access to better educational 
opportunities by providing education and job training vouchers. 
Many foster children could also benefit from these 
opportunities at a younger age.
    My legislation with Mr. Cooper is H.R. 4311, the School 
Choice for Foster Children Act, which would also allow the 
States to use the school voucher section of the Chafee program 
so foster parents could receive appropriate funds to transport 
their child to their original public school or to choose a 
private school that would suit the foster child's needs.
    My bill would not only allow foster children to attend a 
school best suited to equip them, it would also give these 
children, often for the first time in their lives, the 
opportunity to belong somewhere. That is what they need, Mr. 
Chair, an opportunity to belong, regardless of the life changes 
in their home. It would provide them with much-needed 
stability.
    The longer we leave foster children without choices and 
consistency, the longer studies show that they will fail in 
school, fail in adulthood, something that won't serve them or 
our country. Giving foster children the tools they need to 
succeed in school will make our country stronger and give them 
what they deserve, the American Dream.
    I hope this Subcommittee will consider my proposal as you 
look for ways to improve educational opportunities for children 
in the foster care system. Again, I thank you, Mr. Chair, for 
your interest in the needs of foster children; for Mr. Weller, 
for Subcommittee Members, for holding this important hearing; 
and for the opportunity to share my thoughts with my colleagues 
and my experiences with you. I thank the Subcommittee for your 
time.
    [The prepared statement of Hon. Michele Bachmann follows:]

          Prepared Statement of The Honorable Michele Bachmann
                 6th Congressional District, Minnesota

    Mr. Chairman, Congressman Weller, and Members of the Subcommittee, 
thank you for inviting me to this important hearing to discuss ways we 
can improve America's child welfare system.
    Eight months ago, I was fortunate enough to speak with you about 
these important issues and I appreciate this opportunity to once again 
join you in discussing the educational disparities disadvantaged youth 
face, particularly those affecting foster children.
    As many of my colleagues may know, educational opportunities for 
foster children is an issue near and dear to my heart because over the 
years, my family welcomed twenty-three teenage girls into our home 
through the PATH Social Services' Treatment Foster Care program.
    After practicing tax law for several years, I had just had my 
fourth biological child, Caroline, and was ready to work from home. My 
husband, Marcus, and I knew a few families that had opened their homes 
to teenagers in the foster care system and we felt it was our time to 
do the same.
    All of our girls were treatment level care teenagers, meaning they 
all had psychiatric conditions involving severe emotional and 
behavioral problems. Many suffered from eating disorders like anorexia 
and bulimia and came from abusive, broken homes.
    These girls had never really known what it felt like to be loved or 
cared for, let alone received encouragement to do well in school in the 
hopes of achieving a brighter future. Still worse, they were shuffled 
from school to school when they changed from one set of foster parents 
to the next just because their new home was in a different school 
district than their previous one.
    They were uprooted from their daily routine and separated from 
their friends and from the teachers who were familiar with their needs. 
The lack of stability undermined the encouragement they received from 
foster families, caring teachers, and others truly interested in their 
well-being.
    My husband and I began to realize just how different the 
educational experiences were for our foster children versus our 
biological children.
    It seemed as if our foster children were considered destined to 
fail. Many were immediately put in remedial classes and were hardly 
given the attention our biological children received. Though I hope 
their school administrators and teachers meant well, it seemed they 
were almost dismissed as ``problem children'' who weren't going to be 
around for long, thus not worth the effort.
    While our biological children would come home with tough 
assignments and high expectations from their teachers, our foster 
children would have little to no homework each week and would tell us 
that extensive classroom time was wasted on things like watching long 
movies instead of focusing on real academics.
    Rather than giving up on these kids, we should be reaching out to 
them. We should be working to end the self-fulfilling prophecy that 
foster kids can't make it in school, instead of perpetuating the 
statistical evidence stacked up against those children.
    According to the National Conference of State Legislators, foster 
children's poor performance compared to the general population is 
reflected in ``high rates of grade retention, lower scores on 
standardized tests; and higher absenteeism, tardiness, truancy, and 
dropout rates.''
    The American School Board Journal found that ``foster children 
often repeat a grade and are twice as likely as the rest of the 
population to drop out before graduation.''
    It doesn't have to be like this.
    There is strong research to show that school transfers cause 
disruptions in the learning process and lead to emotional disruptions, 
including the loss of friendships and relationships with adults. This 
unique hardship of changing schools when changing homes is a cycle we 
must break.
    Every child deserves to receive a high-quality education and foster 
children should not be punished because of changes in their home 
lives--changes over which they have little to no control or say.
    Instead of separating foster children from trusted friends and 
teachers, we should give them the opportunity to stay at a school if it 
is fulfilling their needs. We should also allow families to choose the 
school that is best equipped to serve their foster child.
    Last year, I introduced legislation with my colleague, Rep. Jim 
Cooper, to enhance the Chafee Foster Care Independence Program and 
extend its school voucher scholarship benefits to children of all ages.
    The Chafee Foster Care Independence Act was designed to help foster 
children successfully navigate the difficult transition out of State 
care and into independence at adulthood. Childhood education is the key 
to adult independence.
    The Chafee Program gives older foster children access to better 
educational opportunities by providing education and job training 
vouchers. But many foster children could also benefit from these 
opportunities in their younger years.
    My legislation, H.R. 4311, the School Choice for Foster Kids Act, 
would allow States to use the school voucher section of the Chafee 
Program so that foster parents could receive appropriate funds to 
transport their child to their original public school or to choose a 
private school.
    My bill would not only allow foster children to attend a school 
best equipped to serve them, but it would also give these children, 
often for the first time in their lives, the opportunity to belong 
somewhere regardless of whether their home life changes. It would 
provide them much-needed stability.
    The longer we leave foster children without choices and 
consistency, the longer studies will show them failing in school and 
failing in adulthood. Giving foster children the tools they need to 
succeed in school will only make this country stronger; it will give 
these kids a real chance to achieve the American Dream.
    I hope the Subcommittee will consider my proposal as you look for 
ways to improve educational opportunities for children in the foster 
care system. And, I hope that you will feel free to draw on my personal 
experiences to help inform your consideration of legislation impacting 
foster kids.
    Thank you, again, Mr. Chairman, Congressman Weller, and 
Subcommittee Members for holding this hearing and for the opportunity 
to share my thoughts and experiences with you.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much.
    One Member on this Subcommittee would like to make a 
statement. Rather than sit down at the front desk, Ms. Berkley 
would like to make a statement.
    Ms. BERKLEY. Thank you, Mr. Chairman. I want to commend you 
for holding today's hearing to focus on ways the Federal 
Government can do a better job in helping communities respond 
to the needs of families, especially at-risk children.
    Our nation's child welfare system is supposed to protect 
children from neglect or abuse and to ensure that they grow up 
in a safe and stable home. All too often under the current 
financing system, this means that the child welfare system 
steps in when the situation has gotten so bad that it is no 
longer safe for the child to remain in the home, and removal 
into protective custody is necessary.
    This situation arises because the current system provides 
open-ended funding for children in foster care, while flexible 
funding for programs and services that allow kids to remain 
safely at home have declined as a percentage of total Federal 
child welfare support. For example, less than 15 percent of the 
funding Nevada receives from the Federal Government can be 
dedicated to helping prevent the need for foster care in the 
first place.
    The number of children in foster care in Nevada has grown 
rapidly, I am very sorry to say. Between 2004 and 2006, there 
was a 30-percent increase, and that is just in a 2-year period. 
By 2006, it has gotten dramatically worse, there were over 5200 
kids in Nevada in foster care.
    Last May this Subcommittee held a hearing on challenges 
facing our Nation's child welfare system. This hearing detailed 
some of the challenges that the Clark County Department of 
Family Services, which is in my district, struggled with in 
protecting this very vulnerable population.
    In response to that hearing and in support of ongoing 
efforts in Nevada to improve our child welfare system, I 
introduced the Partnership for Children and Families Act. I 
also want to thank Mr. Tiberi of Ohio, another Member of the 
Committee on Ways and Means not on this Subcommittee, for 
working with me on this bipartisan legislation, and my 
colleague Mr. Porter, who is here today, for holding hearings 
on this very subject in Southern Nevada.
    The Partnership for Children and Families Act has two main 
provisions, and those are in H.R. 4207. Similar to Chairman 
McDermott's Invest in KIDS Act, my bill would do away with the 
AFDC look-back and extend Federal foster care maintenance 
assistance to all children in need.
    The second provision would grant States with greater 
flexibility in how child welfare funds are spent. I think this 
is particularly important. This would be accomplished by 
providing States with the option to apply to the Secretary of 
Health and Human Services to establish a baseline of projected 
days in out-of-home care experienced by children.
    Any savings achieved by reducing the total number of days 
in care would be reinvested in family preservation, support 
services, reunification services, adoption promotion, or to 
improve training of the child welfare workforce. States would 
also be required to provide a detailed plan on how the amounts 
provided to the States would be reinvested, and to maintain 
their share of funding.
    I want to commend Chairman McDermott on his wide-reaching 
child welfare reform package, and I commend the Members who 
have testified before the Subcommittee on this panel for their 
work on this very important issue. I hope that the Members of 
the Subcommittee can work together to help promote needed 
changes to Federal child welfare programs.
    I yield back the balance of my time.
    Chairman MCDERMOTT. Thank you very much.
    Mr. Porter, you would like to make a statement, too.
    Mr. PORTER. Thank you, Mr. Chairman.
    Imagine sitting at home as a child, maybe five or 6 years 
old. You have been sitting there watching a television program, 
and have a couple strangers knock at the door. You are told 
that you have to round up all of your clothes and all of your 
belongings and you have to leave immediately to go to another 
home.
    I can't imagine the pain that that causes for a child. It 
happens time and time again as we try our best to serve those 
children that need our help the most. I can't imagine sitting 
there and having two strangers say, you have to leave now.
    I applaud all those that are in the child welfare services 
across the country. We have had serious challenges in Nevada, 
as my colleague, Congresswoman Berkley, mentioned, but not 
unlike other States, the system is broken and we need 
additional help.
    I appreciate being able to cosponsor H.R. 5461 with my 
colleague from Pennsylvania, Mr. Fattah. As we look at the 
children and youth across the country, we have a very 
successful program in Nevada that I want to take a moment and 
explain. It is probably one of the things that I am the most 
proud of in my career.
    We established a program when I was in the State 
legislature where we put a fee--not a tax, a fee--on documents 
that are being copied in Clark County, which is Las Vegas area, 
and Washoe County. It is now generating about a million dollars 
a year to help foster kids.
    It was my legislation, and what it does is it provides for 
that young person, when they age out at 18, to have health 
care, training, housing--because again, my kids are in their 
twenties and they keep coming home. They have a home to come 
back to, whereas a child at 18 is on the street in many cases 
without family or support.
    I am very, very proud of that. I would encourage some of 
our local governments to look at a similar program. Literally, 
it is a dollar a document, and it is about a million dollars a 
year helping these kids.
    As we move forward, Mr. Chairman, I would ask one thing. I 
appreciate your leadership and the steps that you are taking, 
but there is about $600 million a year being spent on child 
welfare in the United States for the Federal Government that is 
servicing between 20 and 25 million children. We are not sure 
at what stage because that census changes.
    It is about $30,000 per child, and I would ask all of you 
that are here today, and the Subcommittee as we look at ways to 
help kids, we need to find out where that $30,000 is going per 
child.
    Now, I would oversimplify by saying we should write a check 
for $30,000 and give it to every child. Of course, that is not 
feasible but somewhere out there, there are programs that are 
duplications. We want to make sure that that $30,000 per child 
being spent by the Federal Government is going to the child. 
That is part of our responsibility also. I think the White 
House conference is one area that we can look to make sure we 
can help these kids.
    So, thank you again. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you very much. Obviously, my 
colleagues, we have lots of different ideas. The more former 
State legislators we have got around here, the better off this 
thing will be.
    Are there any questions for the Members who have come to 
testify today? Mr. Weller.
    Mr. WELLER. Thank you, Mr. Chairman. Again, I want to thank 
my colleagues for joining us this morning. We are limited on 
time. So, Ms. Bachmann, I will direct my question to you.
    First I want to thank you for the leadership you have taken 
on these issues, along with your colleagues. This is, I know, 
the second time you have been before this Subcommittee, and 
much of your work is based on your own personal experience. I 
want to commend you for what you have done in opening your home 
to so many children in need of a loving home. Thank you for 
doing that.
    Also, in checking, I discovered I was not a cosponsor of 
your bill. I would ask if you would allow me to join you as a 
cosponsor of your legislation.
    I note one of the areas you and I have in common is we both 
believe that a high school diploma is a ticket to a better 
opportunity. Of course, your legislation works to address that.
    Can you, in simple terms explain how kids lose out when 
they are bounced from school district to school district, 
particularly as they work toward that goal of trying to get a 
high school diploma, from your experience and your work?
    Ms. BACHMANN. Mr. Chairman, Mr. Weller, thank you so much 
for the opportunity again to be here today. Of course we would 
welcome you and every other Member of the U.S. Congress to be a 
cosponsor on this legislation. We invite you and thank you for 
your participation.
    The way that we saw that children were disadvantaged was 
truly by a loss of relationship and by a loss of stability. 
When a child, as Mr. Porter had stated, is in the unfortunate 
situation where someone comes into their life and says, you are 
leaving the home that you have known and you are moving to 
somewhere else, sometimes that can be a relief for a child and 
sometimes that can be the beginning of a traumatization in a 
child's life.
    It isn't just the home life. It is the school life. As we 
all remember and recall from our memories of school life, it is 
really the relationships that we recall from our school 
experiences.
    Children have formed relationships with friends, with 
coaches, with teachers and when foster children are torn up out 
of that home and taken out of that school, everything they know 
about their life has changed, overnight. There is nothing that 
is the same.
    Often what will happen to children emotionally, Mr. Weller, 
is that children will just go within and they will start to 
close doors in their life. They will close emotional doors. 
They shut down. Their behavior will change.
    Then they are thrust into a brandnew school with other 
children that already have established relationships. They feel 
broken anyway because of the brokenness they have experienced 
in their family relationships. There is also a brokenness that 
they feel because their friendships aren't the same.
    We know how it is just when we change a situation in our 
own lives as adults. We have to walk into a room with a new 
group of people. We have to figure out how to make friendships. 
Think of what that is, as Mr. Porter had stated, to a 6-year-
old, or to, much worse, a 15-year-old or a 17-year-old.
    Many of the foster children who were in our home, Mr. 
Weller, were between the ages of 14 and 18. Think of how 
difficult that is, when you are at the end of your educational 
career and you have to change, and you won't be completing your 
senior year at the school you thought you would, or your junior 
year, or your tenth grade year.
    Mr. WELLER. For a typical teenager in foster care, what is 
the average number of schools they would be under in what we 
would call their high school years? Do you know that number?
    Ms. BACHMANN. I would be happy to find that for you. I 
don't have that on hand. I can tell you from our personal 
experience, we kept a foster child in our home between 2 and 3 
years. We were the last stop. Our goal was to make sure a child 
was graduated from high school and was successfully launched 
into the world, and I am happy to say we accomplished our goal. 
All 23 of our children graduated, were launched into the world.
    They came from many, many previous homes. They didn't just 
go directly from their home of origin to our home. They came 
from foster home to foster home. I will tell you what 
Minnesota's numbers are. I would imagine, as Congresswoman 
Berkley said, if they have had such an incredible increase of 
30 percent in 2 years, you can imagine that those children have 
untold instability in the years prior to that level.
    So, I am sure there is a national number, and that could be 
broken down. I would imagine the case of Ms. Berkley's State 
that it has been traumatic for a great number of children. 
Those numbers vary, but I will be happy to find that 
information out for the Subcommittee.
    Mr. WELLER. Thank you, and thank you for your work. Again, 
thank you to all my colleagues for joining us today.
    Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Mr. Herger?
    Mr. HERGER. Ms. Bachmann, again, what an awesome lady you 
are. What an example you are for those of us who just raise 
children. Now, my wife and I, mainly my wife, have nine 
children.
    All the challenges you have just with your regular 
children, and to think of bringing in these young people who 
have all the psychological problems that come with moving from 
home to home, being uprooted. The example you are setting, 
working with them, is so commendable.
    I would like to ask, if I could, how would your legislation 
strengthen those bonds and better ensure that children have a 
stable high school education and better chances of graduation?
    Ms. BACHMANN. Well, thank you, Mr. Chair and Mr. Herger. I 
appreciate that question. I have to deflect the praise. This 
would not have been done without an extraordinary man. My 
husband is an extraordinary man. How many men would be excited 
about having five biological children, let alone 23 foster 
children, into their home?
    He has been a man who just adores children. Without him and 
his love for little babies to high schoolers, this wouldn't 
have been done. So, I give him a lot of the praise.
    Also, we had remarkable foster children come into our home. 
They are incredible children. They are just waiting to be known 
and waiting to be loved. So, I just want to encourage anyone to 
consider foster care. Consider taking up this challenge because 
there are remarkable children that will give more into a 
family's life than we will ever be able to give back to them.
    You had asked the question, Mr. Herger, about stability and 
what this legislation would do to enhance stability for 
children. What it would do is try to maintain a core set of 
relationships that a child has put together, as well as an 
expectation for educational achievement.
    One thing that we know is that not all schools are equal. 
Schools even within my district aren't equal. Some schools may 
be covering the Civil War. Some schools may be covering African 
independence of nations. Some schools may be covering various 
other topics.
    If a child can stay in one educational environment, they 
can continue down the educational path that they have known. 
Their teachers also know the strengths and deficiencies that 
that child has had to encounter in their own personal 
educational struggles.
    Having that depth of knowledge from an educator, as well as 
perhaps school social workers, who know the intimate emotional 
needs of that child, they can have the stability of the adult 
care givers in their life.
    For a child, sometimes the most important relationships 
they have are their friends. Their friends are perhaps the 
people that they have truly poured their heart out to. They 
trust perhaps their friends in that school maybe more than the 
adults in their lives. They have established those core 
relationships.
    That is what I hope to see occur, Mr. Herger, is that we 
could allow for a child to maintain friend relationships that 
they would have in one particular school, as well as perhaps 
the social workers that are tied to that school, as well as the 
educational professionals who really care about those children.
    I saw extraordinary teachers, teachers who loved those 
foster children, wanted to pour into their lives. They felt the 
grief when that child would be uprooted out of that school and 
put into a new school. The charts would go along with that 
child, but not the care and the love that the adult 
professionals had in that child's life.
    That is what Mr. Cooper and that is what I am hoping to 
maintain for this child, is the level of relationships and 
stability and continuity so that a child can then go on and be 
successful, make their way in the world.
    If we just give them a chance, they will succeed. I know 
that, but we need to give them the tools that every child 
needs. Those are love, care, stability, and hope springs from 
that.
    Mr. HERGER. How would your legislation help bring that 
about?
    Ms. BACHMANN. What it would allow is that a child would 
have the chance through this Chafee legislation to not only 
have the opportunities at the college level, but from high 
school down. Whatever age that child would be, if they are in 
the public school system, they would have the ability to be 
able to stay in that school.
    Whether it would be through help with transportation or 
whether it would be if the child was, say, in a private school, 
they would be allowed to stay in that private school. Today 
that isn't allowed. I know with our foster children, they 
didn't have that privilege to do so.
    We had children that wanted to stay in a previous school. 
The children asked me if they could stay. I was prohibited from 
even paying for their private education because the system 
didn't allow that.
    Mr. HERGER. If I am not already, I would like to also be a 
cosponsor of your legislation.
    Ms. BACHMANN. Thank you very much, Mr. Chair, Mr. Herger. 
We will be delighted to add you.
    Chairman MCDERMOTT. Let me ask a question of Mr. Fattah and 
Mr. Davis. Getting kids into school and keeping them in school, 
how does the legislation that you have been talking about 
affect that?
    Mr. DAVIS. Thank you, Mr. Chairman. It just happens that my 
congressional district has more children in foster care than 
any other congressional district in the nation. It also has 
more children being raised by grandparents than any other 
district in the nation.
    What the legislation will do is it will allow children--
because some children don't move as rapidly as others--to be 
extended in care to the point where they are beyond 18. By 18, 
many foster children have not graduated from high school 
because they have, as Ms. Bachmann indicated, been moved 
around. They have fallen behind. They have had difficulty. So, 
simply extending the ability for them to remain in care to 21 
would go a long ways toward making sure that they had the 
opportunity to at least graduate from high school.
    Chairman MCDERMOTT. I would hope that you would take a look 
at Subtitle D on page 58 of our bill and give us your opinion 
about how that would affect the issue that you are both worried 
about. I think it is an issue that is covered in the bill 
because we recognize the difficulty of moving kids around and 
moving them from school to school.
    How can we make it possible for States to come up with 
comprehensive programs to do that? So, I would welcome your 
comments on the bill, and we thank you very much for coming 
before us and testifying.
    We are facing one vote on the floor. I think it might make 
sense to just go and vote and then come right back.
    [Recess.]
    Chairman MCDERMOTT. If the people in the audience will 
please take their seats, we will begin the hearing. We have got 
about an hour between now and the next vote, so we would like 
to get through this panel for sure.
    We will begin with the police chief from my home city, Gil 
Kerlikowske. We are glad to have you here, Chief. The floor is 
yours. Any statements you want to make will be put into the 
record, as with all of you. Whatever remarks you want to make 
beyond that statement is fine.

         STATEMENT OF GIL KERLIKOWSKE, CHIEF OF POLICE,
                      SEATTLE, WASHINGTON

    Chief KERLIKOWSKE. Thank you, Chairman McDermott and 
Ranking Member Weller, and the other Members of the 
Subcommittee. I appreciate the opportunity to testify on this.
    I have been in law enforcement for 35 years. I have been 
the chief of police in Seattle since 2000. I am the current 
president of the Major Cities Chiefs Association, and I am also 
the Chairman of the board of directors of Fight Crime: Invest 
in Kids. That is an organization of more than 3500 police 
chiefs, sheriffs, prosecutors, and the victims of violence who 
have come together to take a very hard-nosed look at research 
on what can keep kids from becoming criminals.
    Law enforcement leaders know from their firsthand 
experience that child abuse and neglect is often only the first 
chapter in a tragic story of violence. Abuse and neglect 
increase the likelihood that a child will engage in later 
violence.
    I commend you, Chairman, for this recent introduction of 
H.R. 5466, the Invest in KIDS Act. This legislation would 
constitute an important first step toward long-needed 
improvements in Federal child welfare policy, including 
providing greater resources for services to reduce the need for 
foster care, including prevention services, providing needed 
enhancements in Federal foster care coverage for abused and 
neglected children, strengthening the child welfare workforce, 
and expanding States' ability to serve youth who are aging out 
of foster care.
    Each year an estimated 2.7 million children in America are 
abused or neglected, including 900,000 cases that are actually 
investigated and verified by overburdened State child 
protection systems. More than 1400 children die from abuse and 
neglect each year, and over half of them were previously 
unknown to these child protective services.
    Children who survive abuse or neglect carry emotional scars 
for life. The best available research indicates that based on 
confirmed cases of abuse and neglect in just 1 year, an 
additional 35,000 violent criminals and 250 murderers will 
emerge as adults who would not have become violent criminals if 
not for the abuse or neglect they endured as kids.
    Fortunately, there are evidence-based home visiting 
programs that are proven to prevent child abuse and neglect and 
reduce later delinquency. For example, the Nurse Family 
Partnership home visiting program randomly assigned at-risk 
pregnant women to receive in-home visits by nurses, starting 
before the birth of their first child and continuing until the 
child was age 2. NFP, these Nurse Family Partnerships, cut 
child abuse and neglect in half, and they reduced kids' and 
moms' later arrests by 60 percent. That saved an average of 
five dollars for every dollar invested. Other models of home 
visiting, such as Parents as Teachers and Healthy Families of 
America, have also demonstrated reductions in injuries and 
abuse and neglect.
    Unfortunately, hundreds of thousands of at-risk families 
nationwide do not have access to quality home visiting. 
Therefore, we recommend that Congress provide funding 
specifically for the evidence-based home visiting programs for 
at-risk families through the Education Begins at Home Act 
sponsored by Representatives Danny Davis and Todd Platts.
    Conversely, proposals such as those in the fiscal year 2009 
Administration budget would, at State option, remove the long-
time Federal guarantee of foster care room and board funds for 
the protection of abused or neglected children, and it would 
jeopardize the safety of these children. Such proposals should 
be rejected by the Subcommittee.
    Currently, Title IV-E dollars cannot be used for 
prevention. We commend you, Chairman McDermott, for your 
efforts to provide IV-E resources for prevention and other 
services through a new child and family services State-planned 
component.
    We believe that to best achieve the goal of substantially 
increased resources for prevention, a minimum portion of 
States' efforts pursuant to the State plan component should be 
specifically designated for evidence-based activities to 
prevent child abuse and neglect.
    Historically the States have used multi-purpose funding for 
prevention services only after they have met needs related to 
kids who have already been abused or neglected, except where 
funding is specifically designated for prevention, such as the 
Title IV-B Promoting Safe and Stable Families.
    Let me conclude by saying that keeping the Title IV-E 
foster care room and board payments as an uncapped entitlement, 
and increasing funding for prevention would provide the money 
to break the cycle of violence caused by child abuse and 
neglect.
    I talk to a lot of my colleagues around the country. We 
have seen a lot in our many, many years of law enforcement 
services, but I don't think there is anything that has made 
more of an impression on us than the cases of child abuse and 
neglect.
    I can remember as a young detective sergeant--I can close 
my eyes and visualize today, 30 years later--being in a 
hospital emergency room looking at the body of a 2-year-old 
girl who had been killed by her mother's boyfriend. I think 
today, 30 years later, if we can prevent those kinds of things 
through these proven, evidence-based programs, we are so much 
better off. Thank you.
    [The prepared statement of Chief Gil Kerlikowske follows:]

    [GRAPHIC] [TIFF OMITTED] T5993A.008
    
    [GRAPHIC] [TIFF OMITTED] T5993A.009
    
    [GRAPHIC] [TIFF OMITTED] T5993A.010
    
    [GRAPHIC] [TIFF OMITTED] T5993A.011
    
    [GRAPHIC] [TIFF OMITTED] T5993A.012
    

                                 <F-dash>

    Chairman MCDERMOTT. Thank you, Chief.
    The next witness is Kenneth Deibert, who is the deputy 
director of the Arizona Department of Economic Security and 
Division of Children. Mr. Deibert.

 STATEMENT OF KEN DEIBERT, DEPUTY DIRECTOR, ARIZONA DEPARTMENT 
   OF ECONOMIC SECURITY--CHILDREN, YOUTH AND FAMILY SERVICES

    Mr. DEIBERT. Mr. Chairman, Ranking Member Weller, thank you 
for the opportunity to spend some time with you today. I am 
here on behalf of the American Public Human Services 
Association and the National Association of Public Child 
Welfare Administrators.
    Our Members are deeply committed to improving the practice 
of child welfare to assure vulnerable children are protected, 
and just as importantly, to assure that they have every 
opportunity to grow and develop in a supportive family 
environment.
    A longstanding concern of State and local child welfare 
administrators has been the lack of flexibility in the current 
funding structure for child welfare services. Current Federal 
funding mechanisms do not allow States the ability to 
effectively develop and support the array of services needed to 
improve outcomes for children and families.
    Nationally, there are approximately 500,000 children in 
foster care on any given day. We believe the funding system 
should reward States for reducing the number of children 
entering foster care, not punish them as the current funding 
system does.
    In Arizona, the need for realignment of resources was 
recognized a number of years ago when the number of children in 
foster care was increasing at an annual rate of 20 percent. 
With the support of Governor Napolitano and the legislature, we 
have invested in services designed to keep families together. 
Due to this commitment to families, we have seen a decrease in 
the number of children who are being placed in foster care.
    The Invest in KIDS Act represents an alternative approach 
to Federal funding that will assist States like Arizona to 
safely further reduce the number of children in foster care by 
helping families rebuild their lives.
    Today, because of the limitations placed on how Federal 
funds can be used, States struggle to find ways to provide 
comprehensive services for those families who are reported to 
the child welfare system. The provision of preventative 
services, in-home services, and post-permanency services 
ensures more children can remain in their homes when it is safe 
to do so. These services are critical components in the 
continuum of services we need to strengthen families.
    It makes fiscal sense to fund the up front parts of the 
child welfare system to prevent more children from entering 
foster care. H.R. 5466, in our view, does make significant 
strides toward resolving these current funding limitations. We 
do, however, urge the Subcommittee to reevaluate the necessity 
of the proposed FMAP reduction and the cap on administrative 
reimbursements.
    We commend the Subcommittee for recognizing the importance 
of supporting and retaining a qualified child welfare 
workforce. States' ability to improve outcomes for children and 
families are highly dependent upon their ability to hire and 
retain qualified staff that are able to work collaboratively 
with families and our communities. Just as importantly as 
having a qualified staff is the need to assure that staff has 
realistic caseloads.
    Supporting youth who have been in the foster care system up 
to age 21 is simply good policy. It is the right thing to do 
for so many reasons. We fully support the inclusion of this 
provision in the resolution to do just that.
    There have been significant shifts in the child welfare 
system over the last decade as the number of children living 
with relatives and other kinship providers increases. However, 
a lack of flexibility in the current Federal funding structure 
does not support children in kinship placements in obtaining 
permanent legal status through relative adoption or 
guardianship.
    We believe that an expanded Federal partnership with States 
for this critical component of our work will lead to increased 
permanency for children. We believe that with the additional 
support provided in this resolution for adoption and 
guardianships, States will continue to have the resources 
needed to further improve the outcomes for children through 
adoption and guardianship. We appreciate the support of the 
Subcommittee in recognizing this very important option.
    Coming from the great State of Arizona, which is home to 21 
federally recognized tribes, I can't pass up on this 
opportunity to voice our full support for the resolution's 
recommendation to allow tribes to apply directly for Title IV-E 
funding as they currently do under Title IV-B.
    I want to thank Chairman McDermott and Members of this 
Subcommittee for their thoughtful and innovative approach to 
dealing with a major overhaul of the current funding structure 
for child welfare services. We believe the implementation of 
the components of this resolution will go a long way to 
providing States and local government with the flexibility 
needed to address our common interest of protecting vulnerable 
children and supporting families.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ken Deibert follows:]

          Prepared Statement of Ken Deibert, Deputy Director,
               Arizona Department of Economic Security--
                  Children, Youth and Family Services

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to spend some time with you today. I am Ken Deibert, 
President of the National Association of Public Child Welfare 
Administrators. I am here today to testify on behalf of NAPCWA, an 
affiliate of the American Public Human Services Association, and the 
State of Arizona, where I serve as the Deputy Director of Children, 
Youth, and Families at the Department of Economic Security, the agency 
responsible for our State's child welfare programs. Our members are 
deeply committed to improving the practice of child welfare to ensure 
that vulnerable children are protected, and just as importantly that 
they have every opportunity to grow and develop in a supportive family 
environment.
    We appreciate Chairman McDermott's and the Subcommittee's 
continuing efforts to develop legislation that, in our view, will 
improve outcomes for vulnerable children by investing in families, 
improving accountability in the child welfare system, and finding safe, 
stable, and permanent homes for foster children.

Title I--Providing Services to Strengthen Families and Reduce the Need 
        for Foster Care
    A long-standing concern of State and local child welfare 
administrators has been the lack of flexibility in the current funding 
structure for child welfare services. Current funding mechanisms do not 
allow States the ability to effectively develop and support the array 
of services needed to improve outcomes for children and families.
    We recognize that this comprehensive effort to address many of the 
current shortcomings of the Federal foster care system represents 
careful compromise and consideration of maintaining sufficient Federal 
supports for our most vulnerable children and families. Currently, 
Title IV-E of the Social Security Act, the primary Federal funding 
source for foster care, imposes a perverse incentive on States to 
remove children from their families and maintain them in out-of-home 
care placements. This policy framework is not only harmful to children 
and their families, it places onerous fiscal burdens on States as they 
strive to support safe and timely permanency options for children.
    Nationally, there are approximately 500,000 children in foster care 
on any given day.
    According to nationally collected data, under the current fiscal 
structure, the number of children eligible for Federal financial 
support is projected to decline by approximately 5,000 children each 
year. We believe the funding system should reward States for reducing 
the number of children entering foster care, not punish them, as does 
the current funding system. In Arizona, the need for realignment of 
resources was recognized when the number of children in foster care 
increased by an annual rate of 20 percent. In September 2005, Arizona 
published ``Strengthening Families: A Blueprint for Realigning 
Arizona's Child Welfare System.'' One of our key strategies was the 
implementation of intensive in-home services to enable more children to 
remain at home when safe to do so. With the support of Governor 
Napolitano and our legislature, we have been able to redirect some of 
our State funds to accomplish this goal. Since July 2003, the number of 
children served safely in their homes in Arizona has increased by 67 
percent and the number of children in foster care has decreased by 2 
percent. Increasing Arizona's capacity to provide in-home services was 
the right thing to do, but at the same time placed limitations on our 
ability to fund other aspects of the continuum of services needed to 
truly strengthen our child welfare system. The Invest in KIDS Act 
represents an alternative approach to Federal funding that will safely 
reduce the number of children in foster care and lead to improved 
outcomes for children and strengthened families.

Title II--Ensuring Federal Foster Coverage for All Children in Need
    The current Federal framework does not support a comprehensive 
service system that encompasses prevention, efforts to move children 
quickly and safely to permanency, and post-permanency services. The 
funding opportunities proposed by this resolution for the provision of 
preventative services, in-home services, and post-permanency services 
will ensure more children can remain in their homes when safe to do so. 
These services are a critical component in the continuum of supports we 
need to strengthen families. It makes fiscal sense to fund the up-front 
part of the child welfare system to prevent more children from entering 
foster care. Rather than ensuring effectively aligned resources, the 
current system encourages children remaining in placements outside of 
their homes and families, while failing to intervene before this level 
of involvement is imminent. On average, only 10 percent of Federal 
funding supports prevention. Moreover, a recent analysis by Prevent 
Child Abuse America estimates that the nation's total annual cost of 
child abuse--including the responses of the foster care, juvenile 
justice, law enforcement, and health care systems--totals nearly $104 
billion.
    Under the existing financial reimbursement structure, Title IV-E 
eligibility is directly tied to the 1996 Aid to Families and Dependent 
Children income eligibility requirements, which has not been adjusted 
for inflation. States have seen a steady decline in the number of 
children eligible for Title IV-E reimbursement because of the current 
eligibility formula. Since 1998, 35,000 fewer children have been 
eligible, and States have lost an estimated $1.9 billion in Federal 
foster care support.
    In our view, H.R. 5466 does make significant strides toward 
resolving the current funding limitations. The flexibility provided by 
this resolution would allow States to support families of children who 
enter foster care to help them rebuild their lives and welcome children 
home as quickly as possible. In Arizona, we were fortunate to receive a 
IV-E demonstration waiver that has allowed us to provide intensive, 
flexible services using IV-E funds to expedite reunification of 
children with their families. Our initial results are very promising. 
In the first year of this project, children and families who 
participated in the program saw a 43 percent higher rate of 
reunification than the comparable control group. We appreciate the 
Subcommittee's effort to expand opportunities for States to develop 
programs such as our intensive family intervention program.
    The draft legislation proposes reducing all Federal Medical 
Assistance Percentages in order to offset the Federal financial burden 
of de-linking. NAPCWA supports Federal policies that optimize State 
flexibility. This act's proposal to de-link IV-E eligibility is a 
crucial element in reforming the child welfare system. In light of 
State fiscal difficulties in the States, and the uncertainty related to 
the rising cost of child welfare, caseload dynamics, and other factors, 
we urge the Subcommittee to consider alternate funding solutions. 
NAPCWA would like the opportunity to work with States to explore the 
implications of this proposed legislation and offer feedback that may 
guide the Subcommittee in making future amendments.
    Further, the proposed cap on administrative reimbursement will 
limit State flexibility in covering integral service components. 
Administrative reimbursement covers costs related to determining 
eligibility, setting rates for foster homes and institutions, and the 
proportionate share of related agency overhead. We urge the 
Subcommittee to reconsider limitations in administrative reimbursement.
    I represent the great State of Arizona which is home to 21 
federally recognized tribes, I can't pass up this opportunity to voice 
our full support for the tribes' ability to apply for their own Title 
IV-E funding as they do now under Title IV-B.

Title III--Supporting a Qualified Child Welfare Workforce
    States continue to make investments in improving the competence of 
the child welfare workforce and lowering caseloads. As we continue to 
increase the demand for better outcomes from the child welfare system, 
then we should invest in improving the quality of the child welfare 
workforce.
    We commend the Subcommittee for recognizing the importance of 
supporting and retaining a qualified child welfare workforce. State 
capacity to improve outcomes for children and families is highly 
dependent upon the ability to hire and retain qualified staff able to 
work collaboratively with families and communities. Ensuring realistic 
work loads is as important as having qualified staff.
    We appreciate that this resolution acknowledges the importance of 
the critical role caseload plays in our ability to achieve safety, 
permanency and well-being for children. The Child Welfare Service 
Quality Improvement grant program described in Title III of the 
proposed legislation is a necessary and worthwhile program. States 
struggle to support their child welfare workforce in ways that allow 
them to successfully serve children and families. The grant program 
provides funding to States allowing them to increase the capacity and 
quality of their workforce by increasing coordination. Providing 
workers with the support, training, and resources they need is a 
crucial piece of the child welfare system. Currently, many case workers 
are required to meet a near impossible level of service to their 
clients. Workers are expected to be liaisons among the court system, 
mental health, juvenile justice, substance abuse, and child welfare 
systems, as well as other systems. The vast array of systems that 
workers touch can be particularly demanding and difficult. Allowing 
States to receive increased funding to improve coordination among these 
entities will allow workers to spend more time and energy focusing on 
working directly with children and families.
    We fully support giving States the opportunity to access increased 
reimbursement to cover training expenses for a broader spectrum of 
professionals who are all integral to a high-performing, comprehensive 
child welfare system. We strongly support the Subcommittee's expansion 
of the scope of training reimbursement.

Title IV--Connecting Children to Support, Family, Health Care, and 
        School

Subtitle A--Connection to Support
    In the ``typical'' American family, youth are continually supported 
by their parents until approximately age 24. The Federal system is 
currently designed to provide support to youth until the age of 18--
although some States do have State-funded extended foster care 
programs.
    Youth exiting the foster care system do so with significantly 
higher levels of need than their non foster care counterparts in the 
areas of health, mental health, and physical and developmental 
disabilities. Very often, their experiences in the foster care system 
have contributed to or exacerbated their needs. One in four youth aging 
out of the foster care system experiences post-traumatic stress 
disorder. This population will require additional support services as 
they develop independence and self-sufficiency in the areas of housing, 
education, employment and permanency connections.
    Allowing States the flexibility to continue funding foster care 
services for youth to the age of 19, 20 or 21 significantly improves 
States' abilities to ultimately improve outcomes for older youth.
    Supporting youth who have been in the foster care system up to age 
21 is good policy. It is the right thing to do for so many reasons. We 
fully support the inclusion in this resolution provisions to do just 
that.

Subtitle B--Connections to Family
    There has been a significant shift in child welfare over the last 
decade as the number of children living with relatives and other 
kinship providers increases. It is estimated that about one-third of 
all children in foster care live with relatives, many of whom are 
grandparents. Kinship care may present a viable permanency opportunity 
for children in foster care since it provides a stable and familiar 
environment. State funds provide only limited financial assistance and 
social work support to kinship placements, leaving families struggling 
to maintain relative children in their homes. Title IV-E of the Social 
Security Act mandates that Federal funding may only be allocated for 
licensed foster care placements. Although kinship caregivers have the 
option to become licensed, they often face barriers in the licensing 
process stemming from issues of space in the home, background checks, 
and lack of finances to support the child. Additional flexibility for 
this funding would allow more relatives to receive support to raise 
children in their own families, allowing more permanent homes for these 
children.
    Arizona, like many States, has recognized the critical role 
relatives and foster parents can play in providing stable, long-term 
support for children who cannot be reunified with their biological 
families. About 14 percent of children who exit foster care in Arizona 
achieve permanency through legal guardianship. Since 1994, eight States 
have introduced subsidized guardianship programs through Federal 
waivers that allow kinship caregivers the opportunity to become legal 
guardians of a child, receive adequate financial support, and allow for 
permanency for the children in their homes. These waiver programs, 
while still in process, have shown very positive preliminary results. 
Kinship guardianship assistance payments present States with another 
viable permanency option that strengthens family connections for 
children and improves outcomes. We support the draft legislation's 
additional option extended to States for this program.
    Family Connection Grants will competitively offer States the 
opportunity to implement kinship navigator programs. States that 
already offer these programs successfully assist kinship care providers 
in navigating the complexities of the system to better support the 
children in their care. We commend the Chairman's commitment to 
improving relative caregivers' quality of care.
    Adoption or guardianship provides many children for whom we are 
responsible with a wonderful opportunity to have a family. Congress has 
recognized the importance of connecting children with permanent 
families by providing incentives to States for improving rates of 
adoption of children in foster care. I am pleased to inform you that as 
a direct result of these incentives, Arizona has been able to improve 
our practice and services to adoptive families. This resulted in an 
increase in adoptions of 62 percent since 2003. With the additional 
support provided by this resolution, adoptions and guardianships will 
continue to increase. We appreciate the support of the Subcommittee in 
recognizing the importance of children achieving permanency.
    The proposed changes to the protocols surrounding the Adoption Tax 
Credit potentially expand the financial support available to adoptive 
parents. We also support the proposed extension and expansion of the 
Adoption Incentive Program.
    Maintaining strong sibling relationships among children in foster 
care is a critical ingredient to positive outcomes. We strongly support 
the proposed increased focus on placing siblings together unless the 
safety and well-being of a child is compromised.
    The Deficit Reduction Act has further reduced the funds that States 
receive to support children and families. This act significantly 
shifted major costs of providing services to children placed with non-
licensed relatives. Many States took action to attempt to mitigate the 
loss, but were largely unsuccessful.
    For example, Arizona has made a significant commitment to place 
children with relatives. Over a third of our foster care population is 
placed with relatives, most of whom are unlicensed. In June 2006, 
Arizona estimated its Title IV-E administrative loss to be at about $15 
million annually due to the requirement that all foster families must 
meet all the licensing requirements for foster parents. In Arizona we 
have been fortunate up to this point to have the support to replace 
these lost funds, but with a looming shortfall in State revenues in of 
over $1 billion in this current fiscal year, ongoing support is a 
concern. We fully support providing States with the option to allow for 
separate licensing standards for relatives in order to receive Federal 
funding. This provision will greatly benefit relative caregivers and 
children.

Subtitle C--Connections to Healthcare
    Children in the child welfare system are more likely to experience 
health and mental health issues than their peers in the general 
population. We support the proposed Health Oversight and Coordination 
Plan, but urge the Subcommittee to grant States additional funding to 
ensure the effective implementation of this plan.

Subtitle D--Connections to School
    Numerous studies have demonstrated that foster children achieve at 
significantly lower rates educationally than other children. School 
mobility poses a particular challenge to children in foster care; 65 
percent of youth who have aged out experienced seven or more school 
changes. The draft legislation would require that child welfare systems 
work closely with local educational agencies to keep children in their 
school of origin throughout placement changes, and facilitate smooth 
and timely transitions. While we support the intent of this proposed 
legislation, we feel that local educational agencies should also be 
required to assume equal responsibility in supporting educational 
outcomes for youth in foster care.

Conclusion
    The fiscal year 2009 president's budget proposes level funding for 
Protecting Safe and Stable Families. PSSF dollars are a flexible 
funding source that allows States to provide comprehensive services to 
families who come into contact with the child welfare system. 
Additional funding for PSSF would increase the potential impact of the 
Invest in KIDS Act.
    NAPCWA fully endorses APHSA's membership in the Partnership to 
Protect Children and Strengthen Families, a coalition of several 
national, State, and local organizations. The partnership recommends a 
series of reforms to the child welfare system that would strengthen its 
ability to serve children and families. I am pleased that many of the 
partnership's proposals are echoed in the Invest in KIDS Act. The 
partnership's full statement is attached here for your review. I ask 
that you consider how components from this statement may complement the 
proposed legislation.
    I want to thank Chairman McDermott and the Members of this 
Subcommittee for their thoughtful and innovative approach to dealing 
with a major overhaul of the current funding structure for child 
welfare services. We believe that implementing of the components of 
this resolution will further the efforts to providing States and local 
governments with the flexibility needed to address our common interest 
of protecting vulnerable children and supporting families.
    We appreciate the intent of H.R. 5466 and your continued work to 
improve outcomes for vulnerable children.

                                 ______
                                 
                                                       January 2008
Partnership to Protect Children and Strengthen Families
Changes Needed in Federal Child Welfare Law to Better Protect Children 
        and Ensure Them Nurturing Families

    Organizations representing public human services directors, public 
child welfare directors, private child and family service agencies, 
unions representing child welfare workers, and advocates for children 
(see attached list), have joined together in partnership to call on the 
110th Congress to join them in a renewed commitment to protect the 
Nation's children. The partnership will work for a system that better 
protects all children by:

    <bullet> Supporting the full range of services necessary to prevent 
child abuse and neglect;
    <bullet> Ensuring that all children who have been abused and 
neglected, including those in foster care, have the services and 
supports they need to heal; and
    <bullet> Guaranteeing the more than half a million children in 
foster care the help they need not just to survive, but to thrive and 
return to their families, or to live permanently with adoptive families 
or legal guardians (often grandparents or other relatives).

    We cannot afford to waste the potential of another child! It is 
time for Congress to update outmoded financing strategies so the 
Federal Government can better help States prevent child abuse and 
neglect, protect and care for many more abused and neglected children, 
support a high quality child welfare workforce, and do more to increase 
accountability for outcomes for our most vulnerable children and their 
families. This year marks a decade since Congress passed major 
bipartisan child welfare reforms. Although progress has been made in 
those 10 years, much more remains to be done. It is time to build on 
gains made and lessons learned and for Congress to act now.
    Innovations are underway in selected States and communities, but 
the Federal-State partnership to help children and families in need 
must be renewed and strengthened if we are going to ensure progress for 
all children. Despite the efforts of creative leaders and dedicated 
staff, too many children today still remain in harm's way. A child is 
abused and neglected in America every 36 seconds. The Department of 
Health and Human Services reports that only six of every ten abused and 
neglected children get services. Those children who enter foster care 
remain an average of nearly two and one-half years. An estimated 
114,000 children wait in foster care for adoptive or other permanent 
families. Eroding Federal supports reach fewer than half of the 
children in foster care. Federal dollars for services to keep children 
out of care, and to get them out and keep them out once they are placed 
fall far short of the need. The average tenure of a child welfare 
agency worker, who is often called upon to make life and death 
decisions for children, is less than two years.
    It will take all of us working with others across the country to 
keep children safe and in nurturing families. We will need to invest 
additional funds and to support a broad range of services and 
supports--including prevention, treatment and post-permanency services. 
On behalf of America's children, we ask Congress to act now to do its 
part.
    This partnership of diverse organizations recommends a 
comprehensive package of reforms that will:
    Guarantee services, supports and safe homes for every child who is 
at-risk of being or has been abused or neglected by strengthening the 
federal-state child welfare partnership by amending the Federal Title 
IV-E statute to do the following without converting any of Title IV-E 
to a block grant:

    <bullet>  Promote investments in a broad continuum of services for 
children and families by allowing states that offer services and 
supports that safely reduce their foster care caseloads and 
expenditures to retain the Title IV-E Federal funds they would have 
otherwise used for foster care and reinvest those funds in a range of 
services and supports that prevent child abuse and neglect, provided 
that the state dollars no longer needed for foster care are similarly 
invested.
    <bullet>  Ensure federal, as well as state, financial support for 
all children when they must be placed in foster care by eliminating the 
income eligibility criteria applicable to Title IV-E, provided that 
state funds currently used for foster care are reinvested in prevention 
and treatment services for children who are at-risk of being or have 
been abused or neglected.
    <bullet>  Guarantee children have access to critical post-
permanency services by amending Title IV-E of the Social Security Act 
to allow funds to be used to provide such services and supports. These 
services will prevent the return to foster care of children who are 
reunited with their parents, placed permanently with relatives or 
adopted from care. They will also help older youth who ``age out'' of 
foster care successfully transition to adulthood.
    <bullet>  Guarantee children placed permanently with legal 
guardians (often grandparents or other relatives) receive federal, as 
well as state, financial support by amending Title IV-E to allow funds 
to be used for subsidized guardianships, when return home and adoption 
are not appropriate options.
    <bullet>  Ensure that children living with relatives while in 
foster care have access to Title IV-E federal, as well as state, 
financial support, so long as the relatives have met state licensing 
standards that contain safety protections and criminal background 
checks.
    <bullet>  Assure that Native American children have access to 
Federal support by allowing Indian tribes to have direct access to 
Title IV-E funding.

Promote program effectiveness:
    <bullet>  Improve outcomes for children by enhancing and sustaining 
a competent, skilled and professional child welfare workforce by 
allowing Title IV-E training funds to be used for training on all 
topics relevant to ensuring safety, permanency and well-being for 
children and for training to all staff who work with children who come 
to the attention of the child welfare system, including staff with 
private agencies as well as public agencies, court personnel, and those 
with expertise in health, mental health, substance abuse, and domestic 
violence services.
    <bullet>  Ensure that all children involved with the child welfare 
system receive intensive, quality casework services by increasing the 
Title IV-E Federal match for casework services from 50 percent to the 
Federal Medical Assistance Percentage (FMAP) and thus increasing the 
capacity of child welfare agencies to address the needs of children and 
families. Assessments of children and families' needs, development and 
refinement of permanency plans, recruitment, licensing and supervision 
of foster and pre-adoptive parents are at the heart of child welfare 
casework and these activities should be reimbursed as more than simple 
administrative expenditures. General overhead and purely administrative 
expenditures would continue to be reimbursed at a 50 percent match.
    <bullet>  Promote rigorous evaluation of programs and practices and 
prevent the loss of critical child welfare funding by allowing states 
to reinvest penalties and disallowances back into the child welfare 
system to conduct evaluations of promising approaches to achieving 
safety, permanence and well-being for children and to implement 
practices and approaches that have been demonstrated to improve these 
outcomes for children.
Enhance accountability:

    <bullet>  Enhance fiscal accountability by requiring states to 
report annually on the funds spent on particular services and 
categories of services; the number of children and families provided 
each service; the duration of those services; and the number of 
children and families referred for services who are unable to access 
such services.
    <bullet>  Evaluate the effectiveness of this package of reforms 
five years after enactment by directing the Government Accountability 
Office to conduct a study of: (1) enhancements of preventive, 
permanency and post-permanency services; (2) changes in foster care 
placements; (3) recruitment, retention, and workloads of child welfare 
workers; and (4) improved outcomes for children who are at-risk of 
entering or have entered the child welfare system.
    <bullet>  Increase the knowledge about outcomes for children by 
allowing states to submit additional state level data during the Child 
and Family Service Review process.
                         National Organizations
    Alliance for Children and Families
    American Federation of State, County and Municipal Employees
    American Humane Association
    American Public Human Services Association
    Association of University Centers on Disabilities
    Association of American Indian Affairs, Inc.
    Black Administrators in Child Welfare
    Catholic Charities USA
    Center for Law and Social Policy
    Child Welfare League of America
    Children's Defense Fund
    Children's Research Center
    Children's Rights
    First Focus
    Foster Family-based Treatment Association
    Generations United
    Lutheran Services in America
    National Alliance of Children's Trust and Prevention Funds
    National Association of Counsel for Children
    National Association of Counties
    National Association of Social Workers
    National Child Abuse Coalition
    National Foster Parent Association
    National Indian Child Welfare Association
    National Network for Youth
    Prevent Child Abuse America
    Voice for Adoption
    Voices for America's Children
    *Organizations in bold were the original partners.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much.
    Mr. Purcell is the chief executive officer for the Council 
of Family and Child Caring Agencies of the State of New York, I 
believe. Mr. Purcell.

STATEMENT OF JAMES PURCELL, CHIEF EXECUTIVE OFFICER, COUNCIL OF 
        FAMILY AND CHILD CARING AGENCIES, NEW YORK STATE

    Mr. PURCELL. Thank you, Mr. Chairman, Ranking Member 
Weller, and distinguished Members of the Subcommittee. I am the 
CEO of the Council of Family and Child Caring Agencies in New 
York State. I am also here today representing the Child Welfare 
League of America. I am pleased to represent and speak in 
support of the bill on behalf of both organizations.
    The Child Welfare League includes hundreds of State and 
local direct service organizations, including both public and 
private. CWLA members provide a range of child welfare 
services, from prevention to placement services, including 
foster care, kinship, and services provided in residential 
settings, as well as adoption.
    The New York State Council of Family and Child Caring 
Agencies, which I lead, is the statewide membership 
organization representing over 110 not-for-profit providers who 
contract with their public sector partners to provide foster 
care, preventive services, and aftercare services. Our agencies 
provide foster care, for example, to over 80 percent of the 
children in New York State, and include virtually all the 
children who are placed by New York City.
    We thank you for inviting me to testify today in regard to 
H.R. 5466, the Invest in KIDS Act. The Child Welfare League, as 
well as the Council, express our strong support for this 
legislation. I am pleased to be here the same week that CWLA is 
holding its annual national conference.
    We are grateful to be here along with Representatives 
Fattah and Porter, cosponsors of an important bill that will 
seek to reestablish the White House Conference on Children and 
Youth, a conference that we see as serving as a tool to 
implement the reforms we hope this Subcommittee will be able to 
help guide through passage in Congress.
    We have an important responsibility and obligation to the 
children that we are focusing on during this hearing. In fact, 
it is I think important for you as Members of Congress to 
reflect on the fact that those children are in foster care in 
some part because of laws that Congress has passed and the 
states have implemented. It makes it incumbent on all of us to 
meet our obligations to these young people who are being raised 
in the custody of the government agencies.
    I need to comment on several aspects of the bill. First, 
the proposal to open eligibility to all kids in foster care is 
absolutely critical. To someone on the front line, I have the 
problem of trying to explain to frontline caseworkers why they 
need to document financial income from years ago to determine 
whether or not a child is eligible for Federal support.
    The Federal Government ought to be interested in all of its 
children who have been abused and neglected, and not just 
those--those increasing few, actually, given the problems in 
the current statute--who meet financial eligibility levels.
    Preventive services is an area which, as the previous 
speakers have mentioned, has been woefully underfunded by the 
Federal Government. In New York we have a program where the 
State will provide 65 percent funding for preventive services 
and the local governments put up 35 percent of the money.
    In New York City, for example, over the last 5 years the 
foster care population has been reduced by more than 50 percent 
in large measure because we now serve 38,000 children who still 
live with their families, keeping them safe and out of foster 
care, and the foster care population has come down from around 
40,000 to around 17,000 today.
    The use of preventive services is absolutely vital. They 
are an investment in families, and they avoid the separation 
that comes with placing kids in foster care. The kinship/
guardianship proposals and the proposal to allow tribal 
organizations direct access to Federal funding are also 
critical in a modern and appropriate child welfare system.
    Attention was drawn by some of the Members of the 
Subcommittee and the previous congressional speakers about the 
need to pay more attention to the well-being of children in 
foster care, particularly their health, mental health and 
education needs. It is ironic that we are talking about that at 
the very moment that the CMS is proposing to, frankly, drive 
another dagger in the heart of using Medicaid funds to support 
the needs of children in foster care.
    It is true that kids who come into foster care, having been 
victims of abuse and neglect, often physical, sometimes sexual, 
have an immense amount of physical, dental, and mental health 
needs which we have an obligation to meet. The way that is done 
under Federal funding rules is through the Medicaid program, 
and making efforts to close those doors will devastate these 
programs, and in fact, in some cases run the risk of turning 
some of them back into orphanages which provide ``three hots 
and a cot'' but no real treatment services to kids who 
desperately need it.
    I appreciate the comments of one of your colleagues who 
talked about his own children in their twenties coming back 
home. I am facing that myself. This idea that young people at 
18, who have already had a very difficult life, can live 
``independently'' at 18 is a myth, and we ought to extend the 
eligibility for foster care up to age 21, and then provide 
supports for kids leaving it after that.
    Finally, I know I am out of time, but I need to point to 
the workforce elements of the bill. The fact that we provide 
foster care services for kids through private agencies but then 
deny them the Federal funding support for training which public 
sector workers can get is just nuts. The ability to open that 
up, train our workers the way they need to be trained, is 
important.
    I noted in my testimony that New York State did a study 
last year of a couple thousand workers, how they spend their 
time, what they have to do. We found that those workers spent 
an average of 54 minutes a month in face-to-face contact with 
the kids and the families that they work with.
    I submit to you that that is not enough. We have to lower 
these caseloads. The New York recommendation level was to 12, 
which is also the Child Welfare League standard. We have 
caseworkers who have got over 20 cases. That is where they end 
up spending 54 to 63 minutes a month in direct face-to-face 
contact with kids. I submit to you that if the case file name 
was Purcell or McDermott or Weller, we would expect a lot more 
time with our caseworkers in order to resolve the issues and 
get our kids home.
    I thank you very much for your attention.
    [The prepared statement of Mr. James Purcell follows:]

         Prepared Statement of Jim Purcell, Executive Director
       Council of Family and Child Caring Agencies, New York City

    Chairman McDermott, Representative Weller and distinguished Members 
of the Subcommittee, my name is Jim Purcell, I am the CEO of the 
Council of Family and Child Caring Agencies in New York state. I am 
also a member of the Child Welfare League of America (CWLA) and am 
pleased to be here today on behalf of both organizations.
    The Child Welfare League of America includes hundreds of state and 
local direct service organizations including both public and private, 
and faith-based agencies. CWLA members provide a range of child welfare 
services from prevention to placement services including adoptions, 
foster care, kinship placements, and services provided in a residential 
setting. CWLA's vision is that every child will grow up in a safe, 
loving, and stable family and that we will lead the nation in building 
public will to realize this vision.
    The New York State Council of Family and Child Caring Agencies is 
the primary statewide membership organization for child welfare 
services providers, representing over 110 not-for-profit agencies that 
contract with the New York City and the county departments of social 
services to provide foster care, preventive services, adoption, and 
aftercare services as well as education for children on our facility 
campuses. These agencies serve 80 percent of all children and families 
in the state's child welfare system, and nearly all of New York City's 
children at risk.
    Thank you for inviting me to testify in regard to the legislation 
that is now before this subcommittee, H.R. 5466, the Invest in ``KIDS'' 
Act. The Child Welfare League of America, as well as the New York State 
Council, express our strong support for this legislation and we thank 
Chairman McDermott for both his introduction of this measure and his 
desire to enact some significant reforms in child welfare.
    I am pleased to be here today, the same week that CWLA is holding 
its annual National Conference. We are especially grateful to be here 
along with Representative Chaka Fattah and Subcommittee Member 
Representative Jon Porter, cosponsors of an important bill that will 
re-establish a White House Conference on Children and Youth. A 
conference that we see as serving as a tool to implement the reforms we 
hope this subcommittee will be able to help guide to passage in this 
Congress.
    We have an important responsibility and obligation to the children 
we are focusing on during this hearing. In fact the children in care 
are there in part because of the laws we have written and that makes it 
incumbent upon us to make sure they get the very best care. Throughout 
the last several years CWLA has called for or endorsed a number of 
bills to improve the nation's child welfare system. H.R. 5466, includes 
a number of the proposals that have been introduced in the last several 
congresses and have had the support of both Democrats and Republicans. 
I highlight a few key provisions included in this bill and currently 
before Congress in other legislation:

    <bullet> Reforming the current eligibility requirements under Title 
IV-E foster care and adoption assistance. Current eligibility is 
restricted to those children removed from a home that would have 
qualified for the now non-existent AFDC program as it existed on July 
16, 1996. This makes no sense to anyone. There is no rationale for the 
Federal Government to provide support for some abused and neglected 
children, but not for others.
    <bullet> Extending Federal funding to support kinship and 
guardianship placements as a form of permanency as supported by 
Congress through the 1997 passage of the Adoption and Safe Families Act 
(ASFA) and extending Federal funding to children in Indian country.
    <bullet> Enhancing flexibility in the use of Title IV-E Federal 
funds so that key services can be funded to prevent placement into 
foster care or that can move children out of foster care more quickly.
    <bullet> Supporting efforts and strategies to strengthen the child 
welfare workforce including access to current Federal training funds by 
private agencies.

    Over the past two years this Subcommittee has dedicated much of its 
attention toward an examination of the complexity of the nation's child 
welfare system. We appreciate this effort.
    What is needed now is to move beyond past debates that were 
frequently limited to a discussion of numbers, the 506,000 children in 
foster care placements at the end of the Federal fiscal year 2005 and 
the approximate $7 billion in Federal funds spent on the foster care 
and adoption assistance under the Title IV-E entitlement. We need to 
address the reality that 800,000 children spend at least some time in 
foster care each year. A reality that 3.3 million reports of abuse and 
neglect were made in 2005 and that 899,000 children were substantiated 
as abused or neglected in that same year. We need to address the 
approximate 40 percent of those children who do not receive follow up 
services, and the fact that more than 24,000 youth leave foster care 
simply because they become too ``old'' or ``aged-out'' of the system.

KEY COMPONENTS OF A SUCCESSFUL CHILD WELFARE SYSTEM
Prevention
    Studies have demonstrated the effectiveness or promise of several 
approaches to prevention of child maltreatment. Programs such as home 
visiting have produced evidence that positively impacted a variety of 
outcomes for children and families, including prevention of abuse and 
neglect. Similarly, high quality pre-kindergarten programs such as the 
Chicago Child Parent Centers and Head Start, that include parental 
involvement and supports, have also demonstrated effectiveness.
    Independent studies have found that the financial savings achieved 
by the most effective of these approaches far exceeds their costs. 
Rigorous cost-benefit analyses conducted by the Washington State 
Institute for Public Policy showed cost savings for several pre-
kindergarten, family support, and home visitation programs as well as 
for Parent-Child Interaction Therapy, a center-based intervention that 
provides direct coaching to parents as they interact with their young 
children.
    In New York City our preventive services programs have contributed 
mightily to reduce the use of foster care by more than half in the past 
seven years--declining by 53.3 percent from 2001 to 2005. Today more 
than twice as many children receive Preventive Services than Foster 
Care--with 16,985 children in foster care and 38,768 remaining at home 
while their families receive Preventive Services.

Intervention
    Early intervention services play a vital role for children and 
families who may already be in trouble. These interventions may include 
services such as child care, housing, job training, and substance abuse 
services. These are the kind of non-traditional child welfare services 
that can enable families to stay together safely to the fullest extent 
possible.
    To better target the needs of families a number of child protective 
service systems (CPS) utilize differential response. This approach 
allows CPS to respond differently to accepted reports of child abuse 
and neglect. Family preservation services are additional programs which 
may incorporate several of these services in an effort to prevent the 
removal of a child.
    Preventive Services programs work with families whose children are 
at risk of foster care placement, and clearly would have been placed in 
foster care in the past. These families often suffer from mental 
illness, substance abuse and alcohol addiction, domestic violence and 
other abusive behaviors, as well as economic, housing, educational, and 
social deprivations. Preventive services caseworkers counsel the 
families to identify their needs and work to connect them with the 
specific services that will address their problems. While they are 
working with the parents, they are monitoring the safety of their 
children and ensuring that the children receive the child care, 
educational, medical, emotional, and other resources necessary to 
remedy the neglect or abuse that they have suffered.

Impact of Legislation
    While we have made progress in my state we can do more. We are 
encouraged by the potential impact of H.R. 5466 on funding for these 
services. First it proposes to open Title IV-E in a measured way and 
tie this to goals of reducing the length of stay, reducing the number 
in care, and improving the well-being of children in care. It is also 
important that a state be allowed to identify outcomes that can measure 
results. It is a challenge to design a Federal program that can 
encompass all the prevention services that may be needed. These 
services will vary by location and community. A new funding source that 
allows states to target that funding in a way that is tied to outcomes 
is an important part of a reform effort. We are also supportive of 
efforts that build on the Child and Family Review Process (CFSRs) and 
its accompanying program improvement plan (PIP).

Reunification
    Reunification is the first permanency option states consider for 
children entering care. We know that of the 280,660 children exiting 
out-of-home care in 2005, sixty-four percent were reunited with their 
parents or other family members.
    Successful reunification requires skilled workers, readily 
available supportive and treatment resources, clear expectations and 
service plans, and excellent collaboration across involved agencies. 
Reunification also requires culturally appropriate support and 
treatment services for families and the critical need for after care or 
post-permanency services to ensure that safety and permanency are 
maintained following reunification.
    Children in foster care have greater health, emotional and 
developmental challenges. Children in care may come into that care 
having been traumatized by violence, or have been affected by having 
many of their basic needs neglected for some time, including failure to 
note and treat chronic medical, dental, developmental, and mental 
health issues. In addition separation from parents and in some cases 
from siblings, frequent changes in placements and caregivers, and a 
sense of instability and uncertainty about the future can undermine 
children's physical, emotional, and developmental well-being.
    Studies have documented that children and youth in out-of-home care 
experience higher rates of physical and emotional problems and that 
significant percentages of children in care have chronic medical 
conditions, developmental delays, and mental health problems. One 
study, for example, found that approximately 60 percent of children in 
care had a chronic medical condition, and one-quarter had three or more 
chronic health problems. Studies further suggest that up to 60 percent 
of preschoolers in out-of-home care have developmental delays. One 
study found that children younger than 6 in out-of-home care had higher 
rates of respiratory illnesses (27 percent), skin problems (21 
percent), anemia (10 percent), and poor vision (9 percent) than the 
general population of young children. In relation to mental health 
problems, it is estimated that between 54 percent and 80 percent of 
children in out-of-home care meet clinical criteria for behavioral 
problems or psychiatric diagnosis.

The Impact of Legislation
    This legislation provides an important step through child welfare 
planning requiring states to better coordinate health planning and 
services for children in care including health screenings, the 
collection of health records and information, the oversight of 
medications and how they are used, and steps that will be taken to 
maintain a continuity of care. There is a much bigger challenge today 
for states. The Administration has issued a series of Medicaid 
regulations that undercut the very purpose and effectiveness of the 
Medicaid program. Later today at 1:30 p.m. in room 332 of the Russell 
Senate Office Building CWLA will be cosponsoring a Capitol Hill 
briefing on one of these new rules that threatens case management 
services for vulnerable populations including children in the child 
welfare system.
    There can be no question that the children placed into foster care 
bring with them a complex set of unmet needs. Many of these children 
have been physically or even sexually abused. Virtually all of them 
have suffered the effects of poverty and chronic neglect of their basic 
needs. They are far more likely than similar children to suffer from 
chronic diseases, to have developmental delays, to be in dire need of 
dental care, and to suffer from the effects of parental substance 
abuse, mental health needs, and domestic violence. They need 
substantial levels of mental health services, notably to address the 
chronic impacts of trauma they have experienced.
    Many states use case management services under the Medicaid program 
for children in foster care. Case Management and Targeted Case 
Management services are a state option under Medicaid and assist 
beneficiaries on a state-wide or targeted basis in accessing much 
needed medical, social, educational or other services. Taking into 
account the vulnerability and complex needs of children in foster 
care--including health needs, at least thirty-eight states employ the 
Medicaid TCM option to ensure that children in foster care receive a 
comprehensive approach and greater coordination of care. The immediate 
and long-term impact of TCM services is overwhelmingly positive and 
cost-effective, as children in foster care that receive TCM services 
are more likely than non-recipients to receive physician services, 
prescription drugs, dental services, rehabilitative services, inpatient 
services, and clinic services.
    Through Section 6052 of the Deficit Reduction Act (P.L. 109-171), 
Congress clarified the scope of the case management/TCM benefit, 
excluding from the definition the direct delivery of certain underlying 
medical, educational, or social services, all the while prominently 
iterating that many case management services remain allowable, 
legitimate Medicaid expenses.
    The Center for Medicare and Medicaid Services (CMS) issued an 
interim final regulation seeking to interpret the DRA that goes beyond 
the DRA's statutory provisions on numerous fronts. For instance, the 
regulation vaguely disallows Medicaid reimbursement for case 
management/TCM services that are deemed ``integral to'' the 
administration of another non-medical program, such as child welfare 
and child protective services. Why would the Federal Government exempt 
for its medical and mental health funding the most vulnerable children 
who most need those services, just because they are in foster care? The 
regulation's preamble states that this exclusion could extend to case 
management services furnished by contractors to State child welfare and 
CPS agencies, even if they are otherwise qualified Medicaid providers. 
This dissection obliterates the goal and need for systems to work 
together towards the well-being of children in care and seems directly 
contradictory to the very purpose of case management and TCM. The 
regulation also contains several provisions that would negatively 
impact other vulnerable populations.
    CWLA sincerely hopes that CMS will heed the public's and 
Congressional Members' concerns and at a bare minimum, temporarily stop 
the regulation from going into effect to ensure that Congressional 
intent is upheld. Legislation has been introduced in both the Senate 
and House that would impose a moratorium on all administrative action 
surrounding the regulation until April 1, 2009. Representative Keith 
Ellison (D-MN) introduced the House bill (H.R. 5173) and Senators Norm 
Coleman (R-MN) and Amy Klobuchar (D-MN) led the Senate bill S. 2578. 
Such a moratorium was recently added to the Senate's Indian Health bill 
(S. 1200) by voice vote. Action must be taken quickly as the rule is to 
take effect on March 3, 2008.

Permanency
    Research demonstrates the importance of children being nurtured in 
a stable family environment, confirming the need to move those who must 
enter foster care into permanent living situations as quickly as 
possible. Recent studies suggest that, when children must leave their 
families, well-supported kinship placements have the potential to 
provide more stable and normalizing environments than unrelated family 
care.
    Kinship care is a situation in which an adult family member, such 
as a grandparent, aunt, uncle, or other relative, provides a caring 
home for a child who is not able to live with his or her parents. The 
practice is not new, but it is growing partly because repeated studies 
and CWLA Best Practice Guidelines have revealed the value of placing 
children with a relative when appropriate. The financial difficulties 
many relatives experience potentially threaten the use of this 
practice.
    Subsidized guardianship is another important permanency option for 
relatives who care for children. In 2005, the U.S. Department of Health 
and Human Services (HHS) released findings and evaluations of the seven 
state waiver demonstration programs that allow Federal Title IV-E 
Foster Care and Adoption Assistance funding to support guardianship 
programs. These findings reflect that non-relative guardianship is a 
viable and effective option for child welfare workers to consider. The 
major findings include: the availability of assisted guardianship as a 
permanency option may decrease the length of out-of-home placements; 
combined data from two states reveals that less than 5 percent of the 
children in guardianship placements return to foster care; children in 
guardianship placements fare as well as those in other permanency 
settings on several measures of well-being, including school 
performance, engagement in risky behaviors, and access to community 
resources; and the use of guardianship placements shows statistically 
significant signs of positive outcomes, with more exits from foster 
care resulting in reunification or adoption.
    Adoption has long been a vital service for children who need 
families, bringing children whose birth parents cannot or will not be 
able to provide for them together with nurturing adults who seek to 
build or add to their families. Although only 2 to 3 percent of the 
U.S. population is adopted, adoption touches the lives of many people. 
In 1938, the Child Welfare League of America published the first 
professional standards to guide adoption agencies. Over the past 
decades, families choosing to adopt have become increasingly diverse. A 
growing number of foster families, families of color, older individuals 
and families with children, two-parent working families, single parents 
(both male and female), gay and lesbian couples, families with modest 
incomes, individuals with physical disabilities, and families of all 
education levels, religious persuasions, and from all parts of the 
country now adopt. These individuals and families have one important 
thing in common: they are willing and able to make a lifelong 
commitment to protect and nurture a child not born to them, by 
providing a safe and loving family for that child.
    Historically, most of the Federal adoption support has been 
targeted toward promoting adoptions. As adoptive families increase in 
number and as time passes, however, there is a corresponding, increased 
need to address some of the challenges that may surface in later years 
for these families through post-adoption services. The most common 
post-adoption services are subsidies. The other services which should 
also be available include support groups, crisis intervention, child 
and family advocacy, adoption searches, case management, family 
therapy, mental health treatment, respite care, and targeted case 
management. Some adoption agencies also provide chemical abuse 
treatment, day treatment, and intensive in-home supervision, indicating 
a strong commitment to making adoption placements work.

The Impact of Legislation
Eligibility
    There are several provisions in this bill that CWLA believes will 
enhance these various permanency options. First and foremost the bill 
would mean that all children in foster care and special needs adoptions 
would be covered by Federal funding. The current eligibility tied to an 
eligibility standard last written in 1996 makes no sense. Secondly we 
believe that this nation has a compelling interest in the future of all 
children in foster care, not just the 45 percent now covered by Federal 
funding. We would advise that as the legislation develops and states 
trade off some of their Federal matching funds in exchange for covering 
all children we pay special attention that no state comes out with a 
formula that might provide substantially less per child simply because 
of the old AFDC standard. CWLA is prepared to work with the Congress in 
this regard.

Kinship/Guardianship
    We are also strongly in favor of the provisions of this bill that 
would extend Federal Title IV-E funds to kinship and guardianship 
placements. We would remind the Subcommittee that the Government 
Accountability Office has recommended that one of the key ways to help 
address the issue of disproportionality or the overrepresentation of 
certain populations in the nation's child welfare system is by adding a 
kinship provision to Title IV-E.

Adoption Incentives/Adoption Tax Credits
    We support the efforts to make the adoption tax credit more 
available to lower income families and those families adopting from the 
foster care system. Many of the 51,000 adoptions from the foster care 
system annually are by poor families who have opened their homes to 
provide loving and permanent families. We need to be doing much more in 
this regard and need to pay particular attention to post adoption 
services as these adoptions continue to increase.
    In regard to the adoption incentive fund we would suggest a new 
formula that is not set on a specific base year but is perhaps averaged 
out over a two-year period. Most states have seen their number of 
adoptions jump in the first years of this incentive fund. A baseline 
that recognizes slight increases would be more appropriate.
    In addition to the provisions that encourage adoption of older 
children there must be increased technical assistance to programs that 
can target this population. We suggest that when funds are appropriated 
for the incentive fund, if states do not draw down all available 
Federal funding, the funds be held by HHS instead of allowing these 
dollars to lapse back to the Federal treasury. These dollars could be 
designated perhaps for technical assistance or to advance these 
adoptions.
    We are also encouraged that the bill's proposal to expand the 
incentive to guardianship placements is an important provision. The 
challenge may be in collecting the data and how to accurately measure 
permanent placements in these settings.

Youth Leaving Foster Care
    In 2005 over 24,000 young people exit the foster care system due to 
age, a number that seems to be increasing. Young people transitioning 
out of foster care are significantly impacted by the instability that 
accompanies long periods of out-of-home placement. Youth in the foster 
care system are often confronted with emotional, behavioral, 
developmental, and health challenges. The life events of these young 
people place them at an increased risk for experiencing adversity. In 
the midst of elevated rates of homelessness, poor educational outcomes, 
low wages, unemployment, long-term dependency on public assistance, 
incarceration and health issues, young people ``aging out'' of the 
foster care system are also experiencing pregnancies and early 
parenthood. Confronting and overcoming these challenges is more 
difficult without support networks or familial connections and impedes 
their transition into adulthood.
    Providers of child welfare services want every young person aging 
out of foster care to have the pathways to success that we all want for 
our own children--a college education or preparation for meaningful 
employment and permanent connections to a caring and supportive family 
or individual. Young people in foster care are encouraged to stay in 
school and their progress is monitored. This can be very challenging. 
Many of the teens coming into foster care are under-educated, with long 
histories of school absences. Studies have shown that many are not 
likely to get their GED until they reach the age of 20. Foster care 
agencies focus much attention on helping teens in their care address 
their school problems, hiring tutors and paying for extra instruction. 
Education is a strong factor in the plan developed with youth when they 
enter care. But much time and personal attention are required to 
compensate for the lack of consistent schooling in the past.
    Having seen too many examples of youth leaving foster care without 
benefiting from the preparation available to them, some agencies have 
developed innovative ways to work with youth.

    <bullet>  developing incentives to encourage youth to attend skills 
sessions,
    <bullet>  hiring a former foster youth to engage the teens 
currently in care,
    <bullet>  Presenting youth with contracts to be signed by the youth 
and the agency,
    <bullet>  Creating their own transitional housing programs,
    <bullet>  Collaborating with housing programs to ensure that youth 
leaving foster care have a place to live, and
    <bullet>  Keeping youth connected to the agency so that they have a 
place to return to for help.

Impact of Legislation
    We are supporting other bills that would extend Title IV-E funding 
beyond age 18 and we are pleased that this legislation does the same. 
We believe it is important that the child welfare system recognize that 
our society has changed. Young people regularly return home in their 
early and late twenties after college. As our families change, we need 
to recognize that leaving the foster care system at age 18 not fully 
prepared should never happen. First we should make every effort to 
prevent a child from staying in care that long and make every effort to 
reunify these young people where possible or help them find a loving 
family. If that is not possible then we must step up our efforts 
through legislation such as this. It is also important that states 
provide the needed transitional supports and oversight for these young 
people.

Education
    Children and youth in foster care encounter numerous barriers to 
school success. In addition to the abuse and neglect initially bringing 
them to the attention of the child welfare system they must deal with 
the emotional consequences of being removed from their homes and 
communities, separation from siblings, sometimes being moved from home 
to home, and having the child welfare agency and court system involved 
in all aspects of their lives.
    Schools should represent stability for foster children during times 
of transition and instability, but due to poor coordination and 
communication between schools and child welfare agencies, this often 
does not always happen. Federal law falls short in assuring school 
stability and access to supportive services for children in care. Too 
often there is as much movement among schools as there is in living 
arrangements. When children change schools, education records 
frequently do not follow in a timely fashion. Indeed, youth in foster 
care in some states have been reported to move through an average of 
nine different schools during their tenure in foster care. These 
children and youth are commonly out of school for weeks or months and 
fall behind academically, cognitively, and socially. They often need to 
repeat courses and are unable to access the support services that could 
improve education outcomes.

Impact of the Legislation
    CWLA supports the directive in the bill that states do a better job 
assuring that if a child is placed into foster care they will be 
allowed to stay in that same school even if they move. It is also vital 
to assure that if it is in the best interest of the child to enter a 
new school they be given immediate enrollment and not be delayed due to 
the slow or inadequate transition of school and health records.
    We also encourage Members to weigh in during the reauthorization of 
No Child Left Behind (NCLB) law. CWLA has joined together with a number 
of other groups including some of the advocates for homeless children 
and families to amend and to increase funding for the McKinney-Vento 
Homeless Children's program to clarify current law to assure that 
foster children are covered by the same protections for homeless 
children.

Tribal Populations
    Tribal child welfare services operate in a unique context shaped by 
laws, jurisdictional issues, cultural factors, financial constraints 
and a Federal trust relationship that is unlike any other experienced 
by states or the territories. Most Federal funds that could address the 
needs of children from tribes that come into contact with the child 
welfare system are not provided directly to tribal governments. Tribes 
receive a limited set-aside of funds from Title IV-B Part 1 and 2, 
Child Welfare Services, and the Promoting Safe and Stable Families 
program respectively. Under Title IV-B Part 1, over half of the tribal 
grants are less than $10,000, and under Part 2, most of the tribal 
grants are under $40,000. Under the Child Abuse Prevention and 
Treatment Act (CAPTA), tribes compete for a very small portion of 
funding with organizations serving migrant populations. The greatest 
inequity however is that the most basic funding under Title IV-E foster 
care and adoption assistance may never reach children in Indian 
country. This is an inequity that must be addressed.

Impact of the Legislation
    CWLA supports the provisions of this bill that would extend access 
to Title IV-E funds to tribal governments and consortia. Members of 
both parties and both houses including Members of this subcommittee 
have supported this through separate legislation. Currently these bills 
include S. 1956 and H.R. 4688. This too is an issue of cultural 
competence and an important part of our need to addresses the issue of 
overrepresentation of certain children in the child welfare system.

Child Welfare Workforce
    Successful outcomes for children and families in child welfare 
depend heavily on the quality of services received, and in turn, on the 
ability of the workforce delivering them. Yet, child welfare agencies 
across the country are facing a workforce crisis on many fronts. 
Attracting, training, and retaining qualified staff at all levels has 
become increasingly challenging. Staff shortages and high turnover 
rates have grown with the increasingly rigorous demands of the work, 
low to modest compensation, and competition with other more attractive 
options in the job market. Child welfare workers must be prepared to 
handle caseloads typically well beyond recommended national guidelines. 
Every day they work with children and families with complex problems 
and often in situations that may jeopardize their safety.
    A report from the U.S. Government Accountability Office found that 
states failed to meet some of the outcome measures in the Child and 
Family Service Reviews, due at least in part, to workforce 
deficiencies. Areas where measures were not met due to workforce issues 
included: timely investigation of abuse complaints, efforts to reduce 
the risk of harm to the child, the ability to maintain stable foster 
care placements, establishing permanency goals for the child in a 
timely manner, involvement of children and families in case planning, 
and adequately monitoring child safety and well-being.
    New York State conducted an extensive study in 2006 to identify 
``reasonable'' caseload sizes. One example was the finding that foster 
care workers should have no more than 12 children on their caseload. In 
New York City our average caseloads approach 20 children, with many 
being considerably higher. An analysis of the data from the study shows 
that with a caseload of about 20 a worker has an average of 60 minutes 
a month of face to face time with that child and/or their family. That 
is far too little if we really want to expedite the services needed by 
the family and discharge children to safe homes as quickly as possible.
    The need for training for both new staff and on-going training for 
current staff is a critical part of the workforce issue. States must be 
able to ensure worker competencies through the provision of 
comprehensive, rigorous, competency based training programs. We believe 
that an important part of this strategy is to allow states that 
contract their services to private agencies to be able to use Federal 
IV-E training dollars to train this important part of the workforce.
    In this challenging economy where many of our citizens and leaders 
fear jobs going overseas, it might be a useful national strategy for 
this country to invest in human service jobs from child welfare 
workers, to nurses, to long term care workers to child care workers and 
many others. Many of these career paths require greater experience, 
greater demand and are locally based.

The Impact of the Legislation
    We strongly endorse the provisions of this bill that would provide 
funding for applying states to address what is a shortage in child 
welfare workforce. This is an area too often overlooked. When we ask 
for greater and more detailed data collection as ACF is currently 
doing; when we ask for monthly caseworker visits as mandated by this 
subcommittee; and when we need to recruit more foster and adoptive 
families--all of this comes down to the need for more workers and 
better trained workers. Keeping families together, reunifying children 
with families placing children in adoptive and kinship families and 
providing these children and families with the needed services is labor 
intensive.
    We strongly support the provisions of this bill that would allow 
private agencies access to Title IV-E training funds. This is a 
longtime item on the CWLA agenda and we appreciate the efforts of both 
the Chairman and the Ranking Member Representative Jerry Weller's 
longtime support for this provision. Where private, usually not-for-
profit agencies are caring for the public's children why deny them 
access to the training deemed necessary for all workers?

CONCLUSION
    CWLA appreciates the opportunity to offer our comments to the 
Subcommittee in regard to child welfare reforms. We commend the 
Subcommittee and its Members for taking up the issue of child welfare. 
If in the remaining days of this session it is not possible to address 
a comprehensive effort then we feel it is very important that Congress 
take at least some critical steps. In addition to the reauthorization 
of the adoption incentive fund we urge you to address our top 
priorities of kinship care, access to Title IV-E funding for tribal 
governments, and expanded assistance to youth beyond age eighteen. Of 
course we also hope all Members will do all they can to see that H.R. 
5461, the bill to re-establish a White House Conference on Children and 
Youth, is passed in this Congress.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you.
    Mr. Cross is the executive director of the National Indian 
Child Welfare Association. Mr. Cross?

   STATEMENT OF TERRY L. CROSS, EXECUTIVE DIRECTOR, NATIONAL 
                INDIAN CHILD WELFARE ASSOCIATION

    Mr. CROSS. Yes, Mr. Chairman, Ranking Member Weller, 
Members of the Subcommittee. I am Terry Cross. I am the 
executive director of the National Indian Child Welfare 
Association. I am also a member, an enrolled member, of the 
Seneca Nation of Indians. In my language, I want to say Nayweh. 
That is our word for thank you. Thank you, Mr. Chairman and the 
Subcommittee Members, for this opportunity to talk about this 
very important issue to our American Indian children.
    Mr. Chairman and cosponsors of the Invest in KIDS Act, H.R. 
5466, I want to thank you for the provisions--the inclusion of 
tribes, the tribal eligibility in the IV-E program, to be able 
to administer the IV-E program. Chairman McDermott, you have 
been a leader for Indian children for some time, and we want to 
thank you specifically for your work on that.
    We also want to acknowledge and thank Congressmen Weller, 
Pomeroy, Blumenauer, and Camp for cosponsoring a bill with 
similar language, H.R. 4688, the Tribal Foster Care and 
Adoption Access Act of 2007. A similar bill has also been 
introduced in the Senate.
    I am providing testimony today focused on the need and 
opportunity for tribes to operate this program and to receive 
the direct funding from IV-E for foster care and adoption 
programs.
    Currently, as you know, tribes are not eligible to receive 
this support directly. The tribal children under the custody of 
tribal courts are the only children in the nation who are not 
served by this ``entitlement.'' The issue is an issue of 
justice, of fairness, of equal access, and it is time to 
change. It is urgent. We have children right now who need 
resources, who need the protections.
    What we often don't understand in tribes not having access 
to these funds, our children don't have the same protections of 
safety and permanency that other do--the requirements that 
cover other children. We have relatives, neighbors, friends, 
who are willing and able to provide care but don't have the 
resources to do that. We have children and youth who tell us 
about their experience in foster care and their desire to be in 
care in their own communities, in their own cultures.
    Daryle Conquering Bear, an Oglala Sioux, told us about his 
experience in foster care. He comes from an extended family 
that has ceremonial responsibilities. He didn't receive the 
education, the cultural training, when he was away in a non-
Indian foster home away from the reservation. He told us 
recently that when he goes to ceremony, he feels like a 
spectator, not a participant. It is going to take years for him 
to come back from that experience.
    We have tribes that are the only government entity that has 
the authority to provide services to abused and neglected 
children. There is no other resource. As a matter of fact, in a 
recent conversation with Marilyn Poitra of the Turtle Mountain 
Chippewa Tribe in North Dakota, she told us that the local 
county is so strapped for services that they are coming to the 
tribe to ask for help and asking to use tribally licensed 
homes.
    States and counties have proven that they are ill-equipped 
to serve our children, and already overworked. Liz Mueller of 
the Jamestown S'Klallam Tribe, the vice chair of the tribe, 
told us how the outcomes have changed in her community since 
the tribe has had its own resources to put into prevention and 
family-based services. Imagine what they could do if they had 
access to funding for foster care.
    Marilyn Poitra again from North Dakota told us of a child 
that had the misfortune of being taken into care just before 
his coming-of-age ceremony, his vision quest ceremony. In an 
evaluation, he told his evaluator about the ceremony that he 
was to take part in, that he was afraid that he was going to 
miss. He was referred to a psychologist and a recommendation 
was made for psychotropic medication because of his ``bizarre 
ideation''.
    These kinds of cultural misunderstandings are too 
widespread. Children are not getting the right services. They 
are not getting what they need. If our tribes can be empowered, 
we see it improving everywhere.
    Some tribes have gained access to IV-E through tribal/State 
agreements, but there are only 70 of those in the country and 
they are hard to get. Where they do, they run the program 
effectively.
    So, many provisions of your Investing in KIDS Act are not 
only good for our Indian children but for all children. It is a 
wonderful piece of legislation. We believe thoroughly in the 
things that you are trying to accomplish. The tribal provisions 
have the support of over 400 tribes, of 24 national advocacy 
organizations for children, bipartisan support in the House and 
in the Senate.
    The time is now. Our kids are waiting. We think it is 
doable. Thank you for this opportunity.
    [The prepared statement of Mr. Terry L. Cross follows:]

         Prepared Statement of Terry Cross, Executive Director
               National Indian Child Welfare Association

    The National Indian Child Welfare Association submits this 
statement on improving the child welfare system. Our primary focus will 
be on issues specific to American Indian and Alaskan Native children 
and families--on the need to provide tribal children served by their 
tribal governments access to the same Federal programs provided to 
children under state jurisdiction. Providing direct tribal access to 
Federal programs like the Title IV-E Foster Care and Adoption 
Assistance Act is the surest way to ensure that American Indian and 
Alaskan Native children have safe, permanent homes. In our statement 
you will hear from tribal leaders, foster parents, foster children and 
child welfare program staff that deal with these issues every day.
    Thank you for the opportunity to present our testimony today. Our 
constituents, tribal children and families, face many challenges to 
their well-being and child abuse and neglect is certainly one of the 
most critical. Bringing more attention to the barriers tribal children 
face in receiving basic child welfare services and the opportunities to 
improve their lives is much needed.
    We also thank Chairman McDermott and the co-sponsors for the 
introduction of the Invest in KIDS Act (H.R. 5466). This legislation 
addresses many of the issues that prevent our national child welfare 
system from providing more effective services and reaching those 
children and families that have fallen through the cracks in our 
system. American Indian and Alaskan Native children, a population whose 
needs and service realities are often not understood, can take heart 
that this legislation addresses their concerns in several important 
areas, such as the need to receive the benefits of the Title IV-E 
Foster Care and Adoption Assistance program.
    Chairman McDermott has been in the forefront of efforts to help 
improve child welfare services to tribal children and families for many 
years. In 1997 he and former Congressman Hayworth offered an amendment 
to the Adoption and Safe Families Act that would allow tribes to 
receive direct Title IV-E funding. While unfortunately the amendment 
was withdrawn due to the lack of an offset, it was helpful in bringing 
awareness to others the role tribal governments play in providing child 
welfare services and the need to change the IV-E law with regard to 
tribal governments.
    We give heartfelt thanks to Congressmen Pomeroy, Blumenauer, Weller 
and Camp--Members of the Ways and Means Committee--for introducing 
legislation last December that would allow tribal governments to 
directly receive Title IV-E funding for the children under their 
jurisdiction and responsibility (Tribal Foster Care and Adoption Access 
Act of 2007--H.R. 4688). We urge Members of this Subcommittee to co-
sponsor H.R. 4688. This legislation is similar to a provision contained 
in the Invest in KIDS Act, Section 201. As you know, Finance Chairman 
Baucus introduced a bi-partisan bill in 2007 that would achieve the 
same purposes (Tribal Foster Care and Adoption Access Act of 2007--S. 
1956).

Child Welfare and American Indian and Alaskan Native Children
    Daryle Conquering Bear, a former foster youth and Oglala Sioux 
tribal member, describes his experience in state foster care and the 
resulting challenges with which he is still dealing:
    While I was in foster care I wasn't able to participate in the 
cultural events that I had looked so forward to because I was placed in 
state foster care, far away from my community. As a result, I often 
feel like an outsider in my own Lakota Sioux tribe. During my time in 
foster care, I read books about ceremonies and events that I should 
have been experiencing first hand. Today, at events like pow wows, I 
feel like a spectator, not a participant.
    Daryle's experience is not uncommon for many of the American 
Indian/Alaskan Native children who are or have been in foster care. It 
underscores the need to provide child welfare resources directly to the 
governments and programs that are in the best position to effectively 
meet the needs of our tribal children.
    In fact, tribes in most states are the only government that has 
authority to provide services to their children and families and 
adjudicate child welfare proceedings. This is a part of inherent tribal 
sovereignty and was explicitly recognized in the Indian Child Welfare 
Act of 1978. Tribes have done their very best to provide these services 
and exercise their authority despite inadequate Federal resources for 
tribal programs.
    Before 1975, the Federal Bureau of Indian Affairs (BIA) and states 
(where they had concurrent jurisdiction) were often the main providers 
of child welfare services in many tribal communities. These 
arrangements were not successful and in some cases created more harm 
than good. They took away from tribal governments, who have exclusive 
jurisdiction in child welfare matters in most cases, the responsibility 
for developing solutions to child abuse and neglect. The BIA and state 
agencies were not well equipped to address these complex issues and, 
while well intentioned, they implemented programs and services that did 
little to improve conditions. Tribal children continued to be placed in 
out-of-home care in alarmingly high numbers. Many of these children 
were placed in homes outside their communities even though there were 
suitable homes (including relatives) within the community.
    With the enactment in 1975 of the Indian Self-Determination and 
Education Assistance Act, tribal governments were authorized for the 
first time to contract with the BIA to operate their own social 
services. While not all tribes were eligible to receive these funds, it 
did begin a movement to enhance tribal government capacity and 
responsibility for child welfare services to American Indian and 
Alaskan Native children.
    Marilyn Poitra, Child Welfare Coordinator for the Turtle Mountain 
Chippewa Tribe in North Dakota and President of the Native Foster 
Parents Association recently, explained the value for American Indian 
children and families of having a viable child welfare program.
    We have a good relationship with them, but because we are in a very 
remote and rural area resources are very tight for all of us. One 
nearby county where several of our families live has a severe shortage 
of foster families and very limited child welfare staffing. When they 
need a foster or adoptive home they often have to come to our tribe and 
ask to use one of our homes. Depending upon them for services for our 
tribal members is not an option.
    In 1978, the Indian Child Welfare Act (ICWA) was enacted. This law 
recognized the existing authority and role tribal governments have in 
providing child welfare services to children under their jurisdiction. 
Prior to this law, very few of the over 500 federally-recognized tribes 
received any Federal child welfare funding other than small amounts of 
Bureau of Indian Affairs social service funding. Many tribes were not 
eligible to receive even these funds. Beginning in 1979, ICWA 
authorized a small annual grant program for tribes that was competitive 
until 1993 and funded at between $8 and $12 million annually. Only half 
of the tribes that applied were awarded grants, and many times, a tribe 
would be funded in one grant cycle and not the next. Tribal child 
welfare programs were dependent upon a patchwork of discretionary 
programs where funding ebbed and flowed from one year to the next.
    Nonetheless, tribal governments took advantage of their meager 
funding and combined with the opportunities provided under the Indian 
Self-Determination and Education Assistance Act and ICWA, an increasing 
number of tribes begin developing their own child welfare programs. 
Today almost every one of the over 500 federally-recognized tribes in 
the United States operates some basic child welfare services.
    In the early 1980s, Congress embarked upon child welfare reform 
that established a new direction in Federal policy. In 1980, Congress 
enacted the Adoption Assistance and Child Welfare Act through which 
Title IV-E of the Social Security Act was created (Foster Care and 
Adoption Assistance program). In 1981, Congress combined several social 
service related Federal programs into the Title XX Social Service Block 
Grant. Unfortunately, because Congress was unaware of the role tribal 
governments played in child welfare tribal governments were not made 
eligible for the new Federal programs under Title IV-E and Title XX, 
two of the largest sources of Federal revenue to support child welfare 
services. Since that time Congress has become more educated about the 
needs of tribal children being served by their tribal governments and 
has created direct funding opportunities under the Title IV-B Promoting 
Safe and Stable Families, Temporary Assistance to Needy Families, Child 
Support Enforcement and Child Care and Development Block Grant 
programs.
    Supporting the direct funding of tribes in child welfare was a 1994 
report by the Department of Health and Human Services, Office of 
Inspector General (OIG),Opportunities for Administration for Children 
and Families to Improve Child Welfare Services and Protections for 
Native American Children. The report documented that tribes receive 
little benefit or funding from Federal Social Security Act programs, 
specifically Title IV-E Foster Care and Adoption Assistance and Title 
XX Social Services Block Grant. In listing options for improving 
service to tribes, the OIG study stated that the surest way to 
guarantee that AI/AN people receive benefits from the Social Security 
Act programs is to amend the authorizing statutes to provide direct 
funding to tribes. State representatives interviewed for the study 
described the difficulty of developing agreements and the burden to 
states in administering them, and they supported direct funding to 
tribal governments.
    As a short-term solution, tribes have increased their efforts to 
access state allocations of Federal child welfare program funding 
through agreements and contracts and have realized some measure of 
success. Currently, there are approximately 70 tribal/state Title IV-E 
agreements in 13 states; only four states pass Title XX funding to 
tribes. A small handful of states also provide tribes with state 
general fund revenue. As helpful as these intergovernmental agreements 
and contracts are, they are discretionary and subject to political and 
resource issues beyond the control or influence of tribal governments. 
In addition, as the 1994 OIG report found, a number of states have 
concerns about their administrative and legal obligations when entering 
into an agreement with a tribal government for child welfare funding.
    Chairman Frank Ettawageshik of the Little Traverse Bay Band of 
Odawa Indians at a 2007 roundtable discussion on child welfare reform 
hosted by The Pew Charitable Trusts stated:
    My government has spent over a $100,000 over the last five years in 
tribal staff time and other resources trying to develop a Title IV-E 
agreement with the state of Michigan and we still don't have an 
agreement. We have spent a huge amount of time negotiating 
administrative issues in this effort with a small staff that is already 
overworked. I have to wonder if we will ever get an agreement and think 
about how many of our children could have been served with the funding 
we have expended on this effort.

Child Welfare Data on Tribal Children
    Data on American Indian/Alaskan Native children who experience 
child abuse and neglect and who are in the foster care system is 
limited. Currently, there is no unified, national data system that 
tracks these statistics for children under tribal jurisdiction and 
care. This is in part due to tribal governments being left out of the 
Federal child welfare programs, such as Title IV-E, where this data 
collection is required and reported to the Federal Government. 
According to experts in the field, reports of child abuse and neglect 
and foster care involving American Indian/Alaskan Native children are 
underreported in many state child welfare systems. Nonetheless, current 
data for tribal children in state care does provide some understanding 
of the experiences of American Indian/Alaskan Native children and their 
families.
    Child Abuse and Neglect. The National Child Abuse and Neglect Data 
System (NCANDS) provides information on only those American Indian/
Alaskan Native families and children who are reported to state child 
protection authorities, whose cases are investigated by state child 
protective service systems, and who self-identify as American Indian/
Alaskan Native. NCANDS does not include American Indian/Alaskan Native 
children who come to the attention of and are served by tribal child 
welfare systems. It is estimated that 40 percent of all cases of child 
abuse and neglect among AI/AN children are not reported to the NCANDS 
(Earle & Cross, 2001). In addition, the definitional and cultural 
aspects of child abuse and neglect among AI/AN people are complex, 
leading to serious questions regarding the true rates of child abuse 
and neglect in AI/AN country (Earle & Cross, 2001). The limited data 
indicate that:

    <bullet> In 2005 American Indian/Alaskan Native children 
experienced a rate of child abuse and neglect of 16.5 per 1,000 
American Indian/Alaskan Native children. This rate compares to 19.5 for 
African American children, 16.1 for Pacific Islander children, 10.8 for 
White children, and 10.7 for Hispanic children (U.S. Department of 
Health and Human Services, 2007).
    <bullet> In 2005 American Indian/Alaskan Native children were more 
likely than children of other races/ethnicities to be confirmed as 
victims of neglect (65.5 percent) and were least likely to be confirmed 
as victims of physical abuse (7.3 percent) (U.S. Department of Health 
and Human Services, 2007).
    <bullet> American Indian/Alaskan Native children are over-
represented in the population of child maltreatment victims, at more 
than 1.6 times the expected level, with the highest rates of 
overrepresentation in states that have larger American Indian/Alaskan 
Native populations (Maple & Hay, 2004).

    Foster Care. The Adoption and Foster Care Analysis and Reporting 
System (AFCARS) provides information only on those American Indian/
Alaskan Native children who self-identify as American Indian/Alaskan 
Native and are placed by state child welfare agencies in foster care. 
AFCARS data do not include American Indian/Alaskan Native children who 
receive foster care services from tribal programs. It is estimated that 
approximately two-thirds of AI/AN children in foster care are placed by 
state child welfare agencies and one-third to 40 percent are placed in 
foster care by tribal authorities (Earle, 2000). The limited data show 
that nationally:

    <bullet> There are 10,498 American Indian/Alaskan Native children 
in state foster care systems.
    <bullet> Two percent of the children who entered state foster care 
in FY 2005 (7,036) were American Indian/Alaskan Native.
    <bullet> Two percent of the children who exited state foster care 
in FY 2005 (5,857) were American Indian/Alaskan Native.
    <bullet> Two percent of the children waiting to be adopted in state 
foster care systems on September 30, 2005 (2,120) were American Indian/
Alaskan Native.
    <bullet> One percent of the children adopted with public child 
welfare agency involvement were American Indian/Alaskan Native (U.S. 
Department of Health and Human Services, 2007).

    Nationally, American Indian/Alaskan Native children are 
overrepresented in foster care--at more than 1.6 times the expected 
level--and are overrepresented among the children in foster care who 
are awaiting adoption--at two to four times the expected level (Maple & 
Hay, 2004). American Indian/Alaskan Native children are even more 
significantly overrepresented in foster care in a number of states with 
higher American Indian/Alaskan Native populations.
    These statistics illustrate that levels of reported abuse and 
neglect, which can lead to foster care placement, are well above 
national averages. This demonstrates the need for Congress to ensure 
that there are adequate resources available to front line tribal 
programs to effectively reduce the incidence and address the needs of 
these children.
    In the state of Washington, Jamestown S'Klallam Tribal Council 
member and former tribal child welfare director Liz Mueller, discusses 
her Tribe's understanding of why the role of tribal government is so 
vital in addressing these issues:
    Our tribal community and its members are unique. We are a small, 
rural community with unique cultural and approaches to the problems 
that affect us. While we have a good relationship with our state child 
welfare agency, they are not able to see and address as quickly as we 
can the complex issues that bring our children and families to the 
attention of the child welfare system. Since we started focusing on 
early intervention strategies that emphasize culturally based 
solutions, we have reduced several risk factors for being in the child 
welfare system. Ninety-nine percent of our youth now graduate from high 
school and many more go to college. Tribal families have increased 
trust in seeking services when they are working with the tribe, which 
helps us identify issues in the family earlier that could lead to 
prolonged involvement with the child welfare system. All of this has 
strengthened our families and now we see healthier children and parents 
with the skills they need to succeed.

Tribal Opportunities in the Invest in KIDS Act
    The bold proposals outlined in H.R. 5466, Invest in KIDS Act, 
respond to tribal concerns in three important ways. They recognize that 
tribal children and families are best served by their tribal 
governments--both in reducing the amount of involvement tribal children 
have in the child welfare system and by keeping children in the 
communities where their families and culture are available to them. 
Secondly, it recognizes the government-to-government relationship that 
exists between the Federal and tribal governments. Tribal governments 
should be provided access to all Federal funding streams to which 
states have access, such as Title IV-E. Third, it recognizes that 
tribal children and families can not consistently depend upon other 
governmental entities to effectively serve them. These are the 
cornerstones for the development of any effective strategy to address 
child abuse and neglect in Indian Country through policy reform.
    We thank Chairman McDermott for providing tribal governments the 
opportunity to receive funding under the legislation for which states 
are also eligible. We note that for tribes to be eligible to utilize 
some of the opportunities in the Invest in KIDS Act they must 
administer the Title IV-E program directly. Section 201 of the 
legislation would allow tribes to apply to DHHS to directly operate the 
program--this critical change is long overdue. Providing direct access 
to the Title IV-E program is the most important thing Congress can do 
to help American Indian/Alaskan children to have permanent homes and 
increase their overall well-being.
    We want to make it clear that tribal governments currently have the 
responsibility to provide child welfare services for their children--
with or without the resources of the Title IV-E program. For everyone 
who is concerned about protections for Indian and Alaskan Native 
children--and we all are--bringing tribes into the IV-E program would 
increase protections for vulnerable Native children.
    Support for legislation to provide tribal governments and their 
children with direct access to Title IV-E has never been higher. The 
National Indian Child Welfare Association has tracked support for 
authorization of direct tribal administration of the IV-E program from 
over 400 tribes, eight leading Indian organizations and 24 prominent 
child and family advocacy organizations. In addition, among the 
bipartisan sponsors and co-sponsors of the pending House and Senate 
tribal IV-E bills are a significant number of Members of the Committees 
of jurisdiction. We expect that the numbers of co-sponsors will 
significantly increase in this coming year as will the number of tribes 
and organizations that will be active in educating Members of Congress 
on this important opportunity.
    The Invest in KIDS Act provisions to provide tribal direct access 
to Title IV-E has some differences with the pending bills introduced by 
Congressman Pomeroy and others in the House and Senator Baucus and 
others in the Senate. The core elements and purposes of the legislation 
are the same, but there are some differences in language and some 
additional provisions in the Pomeroy and Baucus bills. Based upon our 
discussion with tribes and our partner organizations, such as the 
National Congress of American Indians, we believe that these 
differences can be readily reconciled. We look forward to further 
dialogue with the Subcommittee on tribal IV-E legislation.
    Overall, we feel that all the provisions under the Invest in KIDS 
Act will be beneficial to American Indian/Alaskan Native children and 
families. Below we have highlighted a few specific sections that could 
have direct benefits to tribes.
    Section 101--Child and Family Services Program. This section 
contains a tribal option like that afforded to states to expend funds 
under Title IV-E for programs and services that can strengthen families 
and reduce the need for foster care.
    Section 201--Expanded Eligibility. We are very supportive of de-
linking IV-E foster care eligibility from the 1996 outmoded AFDC 
standard as it will help additional children to receive IV-E benefits 
and protections. While tribal communities and families are exposed to 
some of the deepest pockets of poverty it will help significant numbers 
of Indian children, especially among those families that are considered 
the working poor.
    Section 202--Relative Foster Family Standards. In tribal 
communities and beyond placements of choice are almost always relative 
care providers. Allowing tribal governments involved in the IV-E 
program, as is envisioned for states, to establish separate standards 
for relative care providers will help to recruit more qualified and 
knowledgeable care providers.
    Section 301--Child Welfare Service Quality Improvement Grants. We 
are appreciative of the Chairman's decision to include tribal 
governments as eligible to receive these funds. Workforce improvement 
is a critical area of need in Indian Country, one that is exacerbated 
by the geographic isolation of many tribes and inadequate access to 
training and technical assistance. The ability to improve skills levels 
will directly benefit American Indian/Alaskan Native children who are 
being served by tribes as well.
    Section 302--Increase in Payment Rate for Short Term Training. This 
provision can enhance tribal training efforts under Title IV-E. 
Currently, disseminating promising practices that could be helpful to 
other tribes is very difficult given the strained budgets in tribal 
child welfare and juvenile court systems.
    Section 401--Continuing Foster Care Coverage Until Age 21. Tribal 
governments have not been able to apply for and receive Chafee 
Independent Living funds and consequently have not been able to provide 
comprehensive services to older youth who are aging out of foster care 
in tribal settings. This provision could help tribes bridge some of 
that gap and help ensure that tribal youth have access to needed 
support beyond age 18.
    Section 411 and 412--Kinship Guardianship Payments and Family 
Connection Grants. Supporting relatives in ways that can help them feel 
comfortable in taking in relative children is critical and the Chairman 
is to be applauded for including kingship guardianship payments and 
family connection grants in his bill. We strongly support the 
incorporation of kinship payments into the IV-E program as we believe 
it is one of the most important changes that can be made to find 
permanent homes for youth. Tribes would, however, reap much more 
benefit from the guardianship payments if they were directly 
administering the IV-E program. Absent that, some Indian youth under 
state care or those being served via tribal-state agreements would be 
benefit.
    We appreciate that tribes would be eligible for the Family 
Connection Grants but recommend that there be a tribal allocation 
(i.e., 3 percent) from those funds. This could provide funding for a 
handful or more tribes. You might want to consider then making the 20 
grantee limit in the bill exclusive of the tribal grants. Many other 
Federal programs--including some in H.R. 5466--include tribal 
government allocations. It assures some funding for tribes and is 
respectful of the government-to-government relationship between the 
U.S. and tribal governments.
    Section 414--Adoption Incentives. Reauthorizing incentives for 
adoption and adding guardianships to the list of eligible placement for 
incentives is important and will help tribal governments as they gain 
access to Title IV-E.
    Section 415--Sibling Placement. Tribal siblings often face an 
uphill battle to be placed in the same home. Adding encouragement and 
incentive to the search and placement decision to keep siblings 
together is a positive step in maintaining these important 
relationships.

Conclusion
    Seeing the turmoil a child and his/her family go through while a 
child is in the foster care system is emotionally challenging at best. 
No child in foster care leaves the system without some trauma. In 
Indian Country, as elsewhere, we strive to reduce that trauma and 
provide services and support so that our children and families can find 
healing and a new direction. As Marilyn Poitra, Turtle Mountain 
Chippewa Tribal Child Welfare Coordinator and President of the Native 
American Foster Care Association in North Dakota points out, we can't 
afford not to succeed:
    I have seen more than I care to admit as a foster parent and child 
welfare professional. I have seen a 15-year old young tribal woman so 
medicated after a stay in a residential treatment facility outside our 
community that she was shaking so badly she could not even pick up a 
soda to drink. I have had to intervene in cases where the needs of our 
tribal children were so misunderstood that the agencies in charge 
wanted to prescribe powerful psychotropic drugs to a nine year old 
because they didn't understand our spiritual teachings regarding prayer 
and our connection to the Creator. Thankfully, our tribe was able to 
use our resources to bring these children back to their communities and 
relatives and provide them with the healing they desperately needed, 
but could not seem to get anywhere else. My greatest frustration is not 
with our parents who aren't parenting as well as we would like, but 
with the policies that deny our communities the ability to help our 
children and families in the way that other communities can help their 
children and families.
    Thank you again for allowing us to share our experience and 
knowledge with you on these critical issues affecting our young people. 
Providing tribes with direct access to Title IV-E will be the most 
important change that the Congress can make to improve the well-being 
of American Indian/Alaskan Native children who are abused or neglected. 
We look forward to working with the Subcommittee on this legislation.
                                 ______
                                 
The National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a 
national, private non-profit organization dedicated to the well-being 
of American Indian children and families. We are the most comprehensive 
source of information on American Indian child welfare and work on 
behalf of Indian children and families. NICWA services include (1) 
professional training for tribal and urban Indian child welfare and 
mental health professionals; (2) consultation on child welfare and 
mental health program development; (3) facilitation of child abuse 
prevention efforts in tribal communities, including helping tribes 
child welfare policies; (4) analysis and dissemination of public policy 
information that impacts Indian children and families; (5) development 
and dissemination of contemporary research specific to Native 
populations; and (6) assisting state, federal, and private agencies to 
improve the effectiveness of their services to Indian children and 
families.
    In order to provide the best services possible to Indian children 
and families, NICWA has established mutually beneficial partnerships 
with agencies that promote effective child welfare and mental health 
services for children (e.g., Substance Abuse and Mental Health Services 
Administration; Indian Health Services; Administration for Children, 
Youth and Families; National Congress of American Indians; Association 
of American Indian Affairs; Federation of Families for Children's 
Mental Health; and the Child Welfare League of America).

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much for that testimony.
    We now move to Lupe Tovar, who our sheet says is a former 
foster youth from Arizona. I don't think that quite tells the 
story. She is a foster care graduate who came out, went to 
college, and is now the program coordinator for In My Shoes. 
So, Lupe? Put on your microphone and pull it toward you.

                    STATEMENT OF LUPE TOVAR

                FORMER FOSTER YOUTH FROM ARIZONA

    Ms. TOVAR. As you can tell, this is my first time. I wanted 
to start by saying hello and thank you, Mr. Chairman, for 
inviting me here today, as well as Representative Weller, the 
other Members of your Subcommittee, and your staffers, for 
allowing this to happen today. I am also very grateful for the 
organizations who got me here today. Those are FosterClub, the 
National Foster Care Coalition, and the Kids are Waiting 
Campaign.
    I will give you a little history about myself, but as you 
mentioned, I have aged out. So, this isn't about me, this is 
about my brothers and sisters who are still being raised in the 
system.
    I am currently 25 years old, raised 20 years in the foster 
care system. I attended 11 schools. I was in 11-plus 
placements; I don't count the ones that were just for a couple 
months. I lived with about 35 or so foster brothers and 
sisters.
    I want to highlight my disruptions pertaining to the 
specific items that you are trying to improve on, such as 
sibling separation, my educational disruptions, as well as the 
need for permanency, which I still to this day do not have in 
the form of a family.
    I will start with talking about sibling separation, which 
is very difficult for me, but I think this is the right place 
and time to talk about it. I was taken away from my family when 
I was about 4 years old, and my biological mother had seven 
children. Four of us were taken away at one time, and they 
paired us off by age groups.
    So, my sister Valerie and I moved from place to place 
together until I was in high school, and the family we were 
with chose who they wanted to treat better. This is hard to 
explain to caseworkers, lawyers, guardians ad litem, who don't 
get to know you on a personal level.
    So, when I made the decision that I needed to leave this 
placement, no one would believe me that it was so I could think 
for myself, so I could achieve the goals of completing high 
school and having normal memories, like cheerleading, being in 
theater, and those types of things.
    Anything that I wanted to do had a stamp of, ``no, she 
wants to go out and party.'' ``No, she wants to break the 
rules.'' ``No, there is no way she could want to be in 
cheerleading and student council or any of those types of 
things.'' I had to make the decision to separate from my one 
connection to my bio family, which was my sister.
    This is when most of the disruptions in my life happened, 
which were during my high school years. I attended five high 
schools in 4 years, and I still graduated with my class in 
2000.
    So, the disruptions aren't what prevent youth from 
graduating from college. It is the lack of permanency, whether 
it be a supportive adult, a family, or a mentor, or a stable 
caseworker, a stable lawyer, a stable judge. There are many 
layers to permanency, and the one that I never had was a 
family, a set family.
    I did have people come into my path who shed light on 
opportunities that I could have or could dream of, and through 
the youth that I met in school or the youth who I met through 
the different churches I attended, I was able to see glimpses 
of what it meant to be in a family, and how happy they were, 
and how the families interacted together, and all of these. I 
held onto those moments and let those drive me to success. If I 
wasn't going to get the permanency I needed from foster care, I 
was going to create it myself.
    This is so hard to talk about. I don't think I can do 
justice to the half a million youth out there who don't have 
that, don't have that person to show them, don't have that 
family who can let them know they believe in them or they know 
they can succeed, but I will try to share another story.
    When I was a junior in high school, I lived in a placement 
for a few months, and this woman decided to move across 
country, a personal choice. A decision was made by the team of 
staff that was raising me that it is too short notice to find 
her a stable placement, so let's send her to a lockdown 
facility in a different State for four weeks. We will look for 
a home for her, and then we will--at this time I am 15 years 
old.
    Being 15 in foster care is not very desirable, especially 
with people thinking that you have all these psychological 
problems. Well, who wouldn't if you lived in that many 
placements? Who wouldn't feel broken? Who wouldn't have gaps? 
Who wouldn't have hurt? In foster care, hurt is seen as, let's 
put you on meds, something like that. God forbid I feel what I 
am going through? It just didn't make sense to me.
    So, I went to this place, and I was in between caseworkers 
at this time as well. These 4 weeks turned into a year and a 
half of my life. I am not sure if you guys are aware of the 
type of education in these types of placements, and my goal to 
graduate high school.
    The education that I got there just kept putting me further 
and further behind in high school, and for some reason, people 
would not listen to me when I said, ``I just want to graduate 
in double O.'' To me, that sounded pretty cool to be able to 
say I graduated in double O, and all the hype about the 
millennium. I wasn't going to let anyone take that away from 
me, but I had to fight so hard and had to make so many people 
believe that I, a Latino girl in foster care, wanted to 
graduate high school more than anything in the world.
    So, then this takes me to being 16 years old, and I move 
into my last foster family for one more year. Again, I got the 
messages, no one thinks you can do it. Okay? So, I went to 
school on Saturdays with the troubled kids. I fit right in, 
being a youth in foster care.
    I did it so I could graduate. I wasn't going to let anyone 
take that away from me. If that family didn't believe in me, at 
least I had a caseworker at that time--I was blessed with a 
really great caseworker who was focused on adolescent youth and 
their needs. What a concept, right?
    That was very, very invigorating for me to hear someone 
say, you need to start thinking about if you do want to go to 
college or if you do want to save money or if you do want to 
get a job. She and I met once a month for more than the 54 
minutes you mentioned. She would take me to Starbucks, and we 
would sit and dream. She let me dream. Then we made that plan. 
Kind of like you said, Chairman, I will tell you what I wish we 
could do, and then we will make a plan of action.
    So, that is what she allowed me to do. Oh, gosh, and now I 
dream all day. Like it is amazing. This is a dream come true 
for me. You know? This is your job, but me sitting here is a 
dream for me. I wish this for my brothers and sisters who can't 
be here with me today.
    So, this takes me to graduating from high school and still 
not having that family. At this point, health care gets cut 
off. At this point, you even need to fight to want to go to 
college. I was so deficient in some of my classes because I 
took the same chapter in math for 4 years in a row.
    So, then I go to college, and again I am fighting to keep 
up with the standard of the 50,000 youth or adults who are 
attending Arizona State University, but that advisor that I 
walked into his office and I said, I am so scared. I do not 
know anything other than I have a dream to go to college and 
graduate. So, my dreams got bigger. First it was to make it out 
of foster care, then graduate high school, and now attend 
college.
    What he gave me was a packet, kind of like this, that told 
me anything you want to know about this university is in this 
manual. I read that manual like it was the Bible. I am not 
joking. No doors were closed to me at that university. That 
knowledge made me feel so strong that I just checked off the 
classes that I completed on my checklist, and knew that with 
every check mark I was getting closer and closer to graduation, 
and I did.
    I was able to graduate from college, but again, I couldn't 
celebrate it. I couldn't celebrate and feel happy because I 
didn't have anyone, really, who understood how hard it was. I 
swear to you, that first year of college, after being locked up 
in foster care my entire life, 20 years of my life in foster 
care, I was scared to interact with people.
    I went to school and I went to classes and I studied, and 
then there was just time that was spent just thinking of like, 
``am I really from foster care?'' Like really, there is nobody 
who I can call right now? Like there is nobody I can call to 
teach me how to make mashed potatoes, or something basic, or to 
say, I got an A on my test. Just basic things that your 
children would want to call and celebrate with you, or if they 
are struggling and have a question about how to renew their 
registration, or something like that. There was no one for me. 
There really wasn't. I could not understand why.
    So, then I applied for an internship in 2005 with 
FosterClub, and was able to connect with All-Star Alumni, who 
had the same goal as me, to make change for my brothers and 
sisters who are still in foster care, but they got it. They 
understood, all the hardships and all of those things.
    We were able to talk to hundreds of youth and realize that 
they all have the same insecurities. They all have the same 
wants and dreams as your children do. They just don't have that 
connection with a person, a family, or anything like that to 
help them to achieve that.
    I know that I have probably gone way over my time, and I 
didn't even get to health care.
    [The prepared statement of Ms. Lupe Tovar follows:]

   Prepared Statement of Lupe Tovar, Former Foster Youth from Arizona

    First, let me say thank you to Chairman McDermott, Representative 
Weller, and the Members of the Subcommittee for inviting me here today. 
Thanks also to FosterClub, the Kids are Waiting Campaign, and the 
National Foster Care Coalition for making it possible for me to get 
here. I am honored to have this opportunity to share my story and to be 
the voice of truth for the half-million children and youth in foster 
care today. All children and youth deserve a loving family. I know. I 
spent virtually my entire life--20 years--in foster care. In twenty 
years, I moved more than eleven times, enrolled in eleven different 
schools, and lived with more than 35 foster brothers and sisters.
    Through all those placements and people, and after two decades in 
foster care, I lost contact with my birth family, including my 6 
brothers and sisters, and never found a family to call my own. I did 
most of my moving during my high school years. I remember that this was 
the time when I realized what it really meant to be in Foster Care. 
Unfortunately for me, being a teen in foster care, well, that's not a 
good thing. Most families, are looking to take in younger youth. I kept 
bouncing around from place to place while the organization that was 
trying to find me a family looked for one that wanted to have a 
teenager. When a foster parent I was living with made a personal choice 
to move across the country, the staff in my life made a choice to send 
me to a lock down facility in another state while they looked for yet 
another home for me. Keep in mind, I was only 15 years old and was told 
that I would only be in this other facility for four weeks while a 
family foster home was found for me. This temporary four-week placement 
turned into a year and a half of my life. This year and a half had a 
tremendous effect on my education, my sense of identity, and my sense 
of permanency. As if being in foster care wasn't bad enough, this 
placement took me far away from anything, any place and anyone that I 
knew.
    Having to change placements and change schools makes it so 
difficult for us to succeed. So many young people who have the same 
hopes and dreams as your children lose their hope because foster care 
is so unstable and it becomes so difficult to successfully complete 
their education. Sometimes staying connected with your teachers and 
your friends at school is the only anchor that you have in foster care. 
We all agree that keeping kids out of foster care, or finding a family 
for them as soon as possible if they can't return to their birth 
family, are the best options. At the same time, we need to do more to 
make sure that foster youth have the chance to stay in the same school 
when placements change, so that they can stay connected to the 
community and people that they know, and so that they have a better 
chance of success. We need to make sure that more than half of foster 
youth graduate from high school, and more than 2 percent graduate from 
college--the current education outcomes.
    Today, I have a great job and great friends, and I travel around 
the country speaking about my experiences in foster care and why I 
think that the system has to change.
    However, I still long for a family. Growing up, it was really hard 
knowing that there was no one to turn to if I had problems, needed 
advice, or even wanted to just sit and talk with someone about dreams 
and aspirations I might have. My successes have always seemed 
bittersweet, because few people understand how hard I have had to work 
to accomplish the goals I set for myself. They don't know how 
frustrating it was to move every year, how challenging it was to change 
schools constantly and to adjust to different houses, different rules, 
different foster parents, brothers and sisters. All of the moving 
around--especially in high school--made it difficult to keep friends, 
and I lost my identity. I loved being involved in school activities 
like theater, church groups, sports, and diversity clubs. These gave me 
glimpses of a life lived by my classmates and their families that I 
only dreamed of. These glimpses of ``normal'' family life were also 
reminders of siblings I was never able to know, the brothers and 
sisters that foster care took away from me. My sister Val, is a driving 
force for me; she was the only sibling I was able to stay connected to 
in care. It was so hard to have to do things like monitored visits, 
timed visits, timed calls, begging, fighting, and breaking down so that 
we could spend limited time together. This just weighed my heart down, 
and made me feel like all the hurt was my fault, like I chose to be 
born into the family that I was, like I chose for the foster families 
to not like both of us, like I was the one who neglected, abused, and 
hurt my family. Why did my love for my sister have to come at this 
expense, when all we both needed was our connection? As for my other 5 
siblings, I never even had any chance to stay connected to them.
    Because of my experiences in foster care, I've had to redefine what 
family means to me. I finally found my family in supportive people and 
groups who believe in my voice and potential, and who are my network of 
support and love and encouragement. These people that I have met and 
worked with along the way share the trials in life I have experienced 
and the triumphs I know I will achieve.
    More than half a million children and young people are now in 
foster care, and 12 million people who have been in foster care are out 
there in the world.
    I have accomplished a lot, but it is in spite of all of the 
uncertainty I experienced in foster care--not because of it. I want 
something better for the youth who are currently in the foster care 
system. I want them to have families to love and protect them and homes 
they know they can always return to. I want them to leave foster care 
to live with a family, a relative--someone who will be permanent in 
their lives. I do not want the youth currently in foster care to age-
out of foster care with no family and no one to turn to for help or 
support. For those youth who do remain in foster care until they become 
adults, I believe they should have the care and support of the foster 
care system until they are truly prepared to live on their own, and 
have more opportunities to connect to adults who care about them. 
Foster care supports and services should stay in place at the very 
least until they turn 21 years old. This would also ensure that they 
had access to health care while they are learning to support 
themselves. When I aged out of foster care, I did not have any health 
insurance. I was told that I needed to apply to Arizona's state health 
care program while I was attending college. I applied, got rejected, 
re-applied, and got rejected, re-applied, was told yet again that I had 
too much income, and have no dependents, therefore I did not qualify. 
It was not until my anxiety got so severe, or I had medical scares, and 
that my voice strengthened, and I was able to ask with confidence for a 
basic need to be met, of medical insurance. The one semester in 
college, that I had medical insurance, I did not miss classes due to 
having an anxiety attacks, or because my flu turned into bronchitis, 
because I did not have or know the right way to treat my illness . . . 
it was so helpful not to have to worry about my health for that short 
time.
    In spite of this, I am strong and successful. In 2000, I graduated 
from high school with my class despite attending 5 different high 
schools. I went on to receive a BA in Psychology from Arizona State 
University in May 2006. All these accomplishments came and went with 
little or no time to celebrate, as I had to remain focused on making 
sure that I had a place to live and a way to support myself. I was very 
motivated, too, by the belief that no one believe that I could do it . 
. . that I could succeed. I only wanted my sister to be by my side as I 
fought through school and working, The toughest accomplishments are 
those where there is no one to celebrate with. My College graduation, 
was the most meaningful accomplishment, because my sister was there, my 
best college friends were there, and a FosterClub All-Star Sis was 
there. Also, I have a mentor, a mentor to support me and to tell me 
what they thought about the work I put into school. My success would 
have been sweeter if I would have had a family to share it with, and if 
I hadn't had such worries about my health and about having no support.
    Our government has the power to ensure that children in foster care 
have better outcomes, and that young people leaving foster care receive 
the support they need to succeed. If Congress simply changed the way 
the Federal Government pays for foster care services, it would prevent 
the need for some children to enter foster care and move others to 
safe, permanent families more quickly. It would make an enormous 
difference in the lives of so many children who have already been 
through so much and would save others from having to uproot their lives 
three, four, ten times as I did. Changes that would increase school 
stability, ensure good health care, and extend support to 18-21 year 
olds would make such a big difference in the lives of these children 
and youth that we all care about so much.
    Hundreds of thousands of children are waiting for help, waiting for 
families, waiting for things to be better. Congress has the power to do 
something, and I ask you on behalf of all of my brothers and sisters 
who cannot be sitting here with me to do something now. Thank you.

                                 <F-dash>

    Chairman MCDERMOTT. You have said enough to reach us.
    Ms. TOVAR. Thank you very much. This legislation will 
change my brothers' and sisters' lives who are still in the 
system.
    Chairman MCDERMOTT. We appreciate your willingness to come 
and bare your soul.
    Ms. TOVAR. My pleasure.
    Chairman MCDERMOTT. It is very tough to do. I know that. 
The first time you sit in a place like this, it has got to be a 
little scary. So, we are really proud of you.
    Ms. TOVAR. Thank you.
    Chairman MCDERMOTT. You help us put a human face on what 
the issues are. So, thank you.
    Ms. TOVAR. Thank you.
    Chairman MCDERMOTT. I would like to ask a question of Chief 
Kerlikowske. One of the programs that you are doing--this whole 
business of prevention and how you prevent these kids getting 
in there in the first place, prevention is kind of vague.
    I would like you to talk a little bit about the program 
that you have dealing with kids who have watched their parents 
be taken away by the police, and the emotional programs that 
they have developed in Seattle to deal with that.
    Chief KERLIKOWSKE. Sure. Thank you, Mr. Chairman. There are 
a couple things that I think are critical, and that is that we 
make a lot of arrests, like any big city police department. Of 
course, the untold victims of those arrests are often these 
kids that are left at home.
    So, working closely with the State, working closely with a 
group called Seattle Team for Youth, we can also have officers 
and trained social workers that can help to deal with some of 
those emotional scars for some of the kids.
    The partnerships and the leveraging are just critical. I 
know we are all sitting here talking about Federal dollars and 
more Federal dollars for some of these programs, but I would 
hope that all of the Members of the Subcommittee would 
understand that we are very judicious in how those dollars are 
used, on how we leverage our resources with others.
    Police chiefs like to think they are actually in charge, 
like Members of Congress. I quickly recognize that I am not in 
charge, that there are areas of expertise in the education and 
in the social service agencies which we want to be at the table 
and we want to be supportive, but we don't need to be in charge 
of those kinds of programs.
    That is why we think, as an unexpected messenger, myself 
and my colleagues come to you. We come to our statehouses. We 
advocate for these smaller dollars for prevention in order to 
save not only people from future violence, but also to save 
future dollars. It is just a better investment.
    So, those partnerships with a lot of different agencies are 
the ones that seem to make the most sense in keeping those kids 
out of trouble.
    Chairman MCDERMOTT. Mr. Purcell, you raised an issue that I 
would like you to talk a little bit more about. It seems to me 
that with the standard set in 1996, that by--I don't know where 
it is, probably 2012 or something--there will be no children 
left eligible for foster care financing.
    Mr. PURCELL. That is right. My understanding is that when 
the TANF legislation was passed, Congress realized that the 
eligibility for IV-E funding for foster care kids at each State 
level was tied to each State's welfare level. Recognizing that 
some States would be changing those in the face of the 
flexibility that the TANF legislation gave them in welfare, it 
was an effort to actually protect the foster care program by 
locking that number in as of July 16, 1996, I believe.
    So, on that day, it was probably a very good idea, but I 
think the expectation, at least of those of us in the field, 
was that a year or so later Congress would update that. It 
simply hasn't been updated, so that we're still--it is called 
the look-back provision, as one of your colleagues referred to 
it before, because every day when the public sector folks--my 
colleague next to me--admit a child to foster care, they have 
to look back. They have to look at the parents' income, of all 
things----
    Chairman MCDERMOTT. How do you find that income?
    Mr. PURCELL. Well, you ask them. I will defer to my 
colleague on that.
    Mr. DEIBERT. Mr. Chairman, we spend a great deal of time 
and energy. We have staff that all they do is eligibility, to 
research the financial records of families to determine whether 
or not they qualified in 1996. These are resources that are 
taken away from our capacity to provide services, direct 
services, to children.
    It is long overdue that Congress look very, very carefully 
and very seriously at de-linking the foster care system and 
funding from the AFDC rate of 1996.
    Chairman MCDERMOTT. What should the link be to? Or should 
all children be covered?
    Mr. DEIBERT. In this resolution, you recommend that all 
children be eligible for support from the Federal funding 
stream. I agree with that 100 percent. Children are children. 
We need to address all children with an equality of 
opportunities to have access to services and the supports they 
need, and certainly their families, to help them to rebuild.
    Chairman MCDERMOTT. Thank you.
    Mr. PURCELL. If I could just add to that that this is one 
of those places where Congress could actually simplify the work 
that goes on, this frankly wasted time figuring out what the 
income level was. In fact, since all this started so many years 
ago, there are very strong child support provisions, so that if 
in fact a working family's children are admitted to foster care 
or my child was admitted to foster care, there are provisions 
that I pay part of that support, just as I would in child 
support in another situation.
    So, this isn't about foster care subsidizing wealthy people 
who somehow want their children in foster care, as if we could 
even imagine that that could happen. This is an opportunity for 
Congress to simplify the front-end work.
    Chairman MCDERMOTT. Mr. Weller will inquire.
    Mr. WELLER. Thank you, Mr. Chairman. I know our full 
Committee has a lot on the floor today with the trade 
preferences, the tax increase legislation, and other bills that 
are before us. So, I know Members are going to be coming and 
going.
    I would just ask, out of courtesy, Mr. Chairman, for all 
our colleagues on the Subcommittee, if we could just have 
unanimous consent for questions that could be submitted for the 
record for any Member of this Subcommittee.
    Chairman MCDERMOTT. Without objection, so ordered.
    Mr. WELLER. Thank you. Also, I had asked Ms. Bachmann 
earlier because of her work in helping children, particularly 
staying in the same school, the number of schools that foster 
children are likely to attend before they would be eligible to 
graduate.
    Mr. Deibert, I see that you note in your testimony, 
``School mobility poses a particular challenge to children in 
foster care. Sixty-five percent of youth who have aged out 
experience seven or more school changes.'' I can only imagine.
    Ms. Tovar, your testimony speaks to that as well. I really 
want to commend you, Ms. Tovar. You are a very impressive young 
woman, and I want to thank you for your commitment to your 
brothers and sisters in foster care. God has blessed you with 
great strength from your experiences, and you have represented 
yourself as well as the other kids very well today. Thank you 
for being here today.
    I know our time is limited. Mr. Purcell, you come from New 
York State. New York is like Illinois and Florida: 100 percent 
of the child welfare work is given to the responsibility of 
not-for-profit organizations.
    Mr. PURCELL. Right.
    Mr. WELLER. My State of Illinois, of course, is an example 
like your State.
    You made reference to legislation that I have introduced 
that you said equalized the opportunity to participate in child 
care worker training programs, making sure the reimbursements 
are treated the same.
    Mr. PURCELL. That is right.
    Mr. WELLER. Can you speak, perhaps from the New York 
perspective, what I would consider to be an unfair treatment of 
not-for-profit versus public employees, what the difference 
really makes, particularly in being able to provide quality 
foster care in our States?
    Mr. PURCELL. Well, our State, for example, has a fairly 
extensive training program for the public--we are a State-
supervised, county-administered system--but our State sponsors, 
using Federal IV-E training funds, a fairly extensive amount of 
training for those county workers.
    Then we turn and we look at the not-for-profit agencies, 
and because the Federal funding support isn't there, our 
workers literally are not able to enroll in some of the 
training courses that are being provided. In fact, it is even 
crazier than that because even if there was a vacant seat in 
the room, if one of our workers were to attend that class, it 
would change the whole funding formula for the training 
contract and they can't handle that.
    Mr. WELLER. Any idea what the history is, why this 
difference in treatment of not-for-profit child care workers 
versus public employees?
    Mr. PURCELL. Actually, I used to work for the State 
government and I should know the history of that, but I don't. 
In any event, as we look around the country now, we are finding 
more and more what I will refer to as privatization efforts, 
which is efforts on the part of the public sector to devolve 
some of the case management responsibility and much more of the 
financial risk to private providers.
    That has been a very big movement in Florida, for example. 
New York City is moving in that direction, a number of 
jurisdictions around the country. Yet we have still got this 
disequity with regard to the ability to train our workers.
    Our frontline worker, caseworker turnover rates, are 35 
percent and more. That goes back to the comments that Lupe was 
making about stability. I like to say that if we could get the 
workers to stay longer than the kids do in foster care, we 
would have a much better system with more experienced workers.
    We pay them poorly, and in our State, particularly on the 
private side, there is an enormous amount of pressure on them. 
I talked about the caseloads being too big before, and----
    Mr. WELLER. Sure. I appreciate the Chairman including my 
provision in his bill. I think this is a scenario for 
bipartisan opportunity.
    Mr. Cross, before my time is up, you and I have worked 
together. We have talked about another issue, the fair 
treatment of tribal governments in providing foster care. Right 
now, the tribes are not eligible to directly receive IV-E 
funding.
    Mr. CROSS. Right.
    Mr. WELLER. You referred to this in your testimony. We have 
a bipartisan bill which the Chairman has included language 
essentially identical to in his bill. Can you give an example 
of how this lack of direct access has directly impacted 
children on tribal lands?
    Mr. CROSS. Yes. This is a problem from a lot of different 
perspectives. You have to realize that we have about 6,000 
Indian children across the country that would be eligible for 
IV-E if they were not under the custody of the tribal court.
    So, they are not getting the protections of the permanency 
provisions and other provisions of IV-E, but in addition to 
that, the funds that are available under IV-E for recruitment 
and licensing of foster homes is not available to tribes. There 
is not training for the foster parents. These 6,000 children 
that we estimate are in case are being taken care of by poor 
people for no reimbursement. It is out of the kindness of their 
hearts.
    There is no money for worker training. Our caseloads are 
astronomical. We have no data about--I can't even tell you what 
the reliable data is because the data systems that track 
children in foster care come from IV-E. So, without access to 
IV-E, not only do we not have the foster care payment for the 
child or money for a caseworker, but money to recruit homes, to 
train foster parents, to train workers, to record data. So, the 
ramifications are across the board in our services.
    Mr. WELLER. 6,000 children?
    Mr. CROSS. We believe it is about 6,000 children.
    Mr. WELLER. That certainly reinforces why that provision is 
so very, very important.
    Mr. Chairman, again I believe we have opportunities to put 
together bipartisan legislation that we can get done this year. 
I very much want to work with you to accomplish that goal.
    Thank you. Thank you for your testimony.
    Chairman MCDERMOTT. Ms. Berkley will inquire.
    Ms. BERKLEY. Thank you, Mr. Chairman.
    First, Ms. Tovar, let me thank you very much for sharing 
your story as eloquently and as beautifully as you did. It does 
put a human face on a very tragic problem.
    In my community--I represent Las Vegas--we have a lot of 
great things going in Vegas, and I brag about it all the time, 
but we also have a crisis in our foster care system and our 
welfare system, and the most vulnerable among us are the ones 
that suffer the most, as you all know. I know I am preaching to 
the choir when I speak with you.
    There are a couple of things I wanted to ask you about. I 
don't know whether you were here when I did my opening 
statement, but in addition to Mr. McDermott's Invest in KIDS 
Act, which I think is an outstanding piece of legislation, I 
have a piece of legislation that would do away with the AFDC 
look-back and extend Federal foster care maintenance assistance 
to all children in need.
    The second provision of the bill would be to grant States 
greater flexibility in how child welfare programs are spent. We 
would establish a baseline of projected days out-of-home care 
experienced by children, and then take the savings and use it 
for various other things, including reinvesting in family 
preservation, support services, reunification services.
    The way we do our funding of our child welfare system, it 
is after things have gotten so bad that we take them out of the 
home instead of spending money up front and seeing if we can't 
preserve the family unit, do counseling, improve the quality of 
our social workers that are dealing with this situation, 
certainly improving the pay. In Las Vegas you can park cars and 
make four times as much as you can being a social worker or, 
for that matter, a teacher in our public school system. It 
doesn't give people much incentive to stay in these very 
important jobs.
    I was wondering what you thought about those two 
provisions, and if there isn't some way that we can bring these 
provisions into Mr. McDermott's bill and perhaps improve the 
quality of both pieces of legislation and improve the quality 
of foster care in our country.
    Mr. PURCELL. I certainly would agree with both of those. I 
think that the provision to fund all the kids and get rid of 
this look-back provision is in fact part of this bill.
    We really have to--we keep coming across these tragedies. 
They are in the paper in every jurisdiction from time to time. 
They are often the result of human foibles and an inability to 
guess ahead what somebody is going to do. They are also the 
function of very low pay that keeps workers out of this field.
    I spend more to kennel my dog when I go away than a foster 
parent will get for taking care of a child every day. That is 
crazy. I look for the cheapest place to kennel my dog. Our 
payment processes are out of whack, and we are not focusing on 
the quality of services--which, frankly, if we did it right 
would, I think, cut down the lengths of time kids spend in care 
because we would get to deal with the issues a lot sooner with 
a quality workforce to do it.
    Ms. BERKLEY. Let me ask you something. I am also very 
concerned about kids aging out of foster care and what happens 
to these kids afterward. I couldn't help but agree with my 
colleague from Nevada. My two kids are living at home and they 
are in their twenties. They are no more ready to be out on 
their own than the man on the moon.
    I think of these kids that are coming from very unstable 
backgrounds, and then all of a sudden go out there, and you are 
18 years old, and take care of yourselves. I can't imagine how 
they can do it. A large part of my homeless problem in the Las 
Vegas valley are aged-out kids from the foster care system with 
no place to go.
    I am very concerned about the health care aspect of foster 
care. Could you, Mr. Purcell, elaborate a bit on how these 
regulatory changes to Medicaid will affect children? I know 
that the State of Nevada is very concerned with these changes, 
and it is worth discussing how these regulations will be 
detrimental to children in foster care.
    Mr. PURCELL. I am not an expert on all aspects of it, but 
the most recent set of regs would prohibit foster care agencies 
from being the recipients of funds under a program in Medicaid 
called targeted case management. Lots of kids in foster care 
have the kinds of serious needs--developmental, sometimes 
mental health, and physical health--that are perfect examples.
    My State just within the last 8 months got a series of 
Federal Medicaid waivers specifically targeted to kids in 
foster care. Then these regs came out that, on their surface, 
say that the approvals that the same Federal agency just gave 
the State to run these waivers is now overturned because of 
their interpretation of the Deficit Reduction Act of 2005, 
which I presume they were looking at when they gave the 
approval in the first place.
    Now, there is a possibility they will decide that because 
it is a waiver, it is not covered. Many States rely on this 
targeted case management component of Medicaid to direct and 
coordinate mental health and health care services for kids in 
foster care. CMS has been going around the country, frankly, 
trying to systematically undo this, which puts a huge financial 
burden back on the States to try to provide these kind of 
services. We need more of this, frankly, not less of it. A 
moratorium would be very helpful.
    Ms. BERKLEY. I couldn't agree more. I know my time is up, 
but I want to thank all of you for doing what I consider God's 
work. Thank you especially for coming and sharing it with us.
    Chairman MCDERMOTT. Thank you. Mr. Herger will inquire.
    Mr. HERGER. Thank you, Mr. Chairman. Talking about doing 
God's work, Ms. Tovar, every single person that is listening to 
your testimony and observing you is so incredibly impressed 
with your spirit, with your tenacity, with your ability to take 
the impossible and make something positive, very positive, out 
of it.
    I am sure, just with what you are doing here this morning 
in this hearing before the U.S. Congress, is showing what a 
role model you are with these horrible experiences that you 
have had to help make it better for those who have been in the 
same situation. So, we are very grateful to you.
    Where Mr. Chairman and members of the panel were talking 
about how important it is, obviously, that we have the funds to 
do this incredibly important foster care work that we have 
before us, and the challenge, Mr. Chairman, for the record, I 
would just like to state that in 2004, I introduced the Child 
SAFE Act, legislation that would have increased funding for 
child welfare activities by $200 million per year, which States 
could have spent on family finding activities, more services 
for families, and more and better-qualified caseworkers.
    This legislation would have given States more flexibility 
over Federal foster care payments, which they could have used 
to cover all children and eliminate the 1996 look-back. Yet 
States resisted and advocates attacked my legislation, while 
those same groups today support your legislation, Mr. 
McDermott, and the approach based on your testimony.
    Had States at that time supported the legislation which I 
had introduced, they would have received more funding and 
already be implementing better and more flexible services that 
focus on prevention. More importantly, children would be far 
better off because States would have had the resources and also 
the incentive to focus on the types of treatment and service 
everyone at the hearing today suggests are so critical.
    I would like to ask unanimous consent to enter into the 
record a CRS report which reflects that States have lost a 
collective $5.3 billion in increased funding that they would 
have received during 2005 to 2010 had they supported this 
legislation. In 2008 alone, States stand to lose more than $900 
million.
    Chairman MCDERMOTT. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T5993A.013
    
    [GRAPHIC] [TIFF OMITTED] T5993A.014
    
    [GRAPHIC] [TIFF OMITTED] T5993A.015
    

                                 <F-dash>

    Mr. HERGER. Thank you. For the entire panel, I would like 
to ask: Does anyone know how much the bill introduced by 
Chairman McDermott that is the topic of our hearing today would 
cost?
    [No response.]
    Mr. HERGER. I don't think we have a report on that.
    Another question: Aside from the provisions that would 
reduce Federal matching rates for foster care and adoption 
payments, are there any pay-fors included in this legislation?
    Mr. PURCELL. Well, I would simply say that I think we can--
we believe that investments in preventive services to reduce 
the need to place kids in foster care, which is always going to 
be more expensive for a variety of reasons, would in the longer 
run pay for.
    The chief mentioned in his testimony the importance of very 
early intervention programs, which actually have evidence of 
reducing incidence of maltreatment of kids, like home visiting 
programs, we think would pay off in the longer run.
    Mr. HERGER. I agree with that, by the way, but we are in a 
Congress now that is looking at pay-fors for everything we do, 
so this is a very pertinent question.
    Does anyone have any suggestions for pay-fors to cover 
these increased spending proposals of the bill?
    Mr. DEIBERT. Mr. Chairman, Mr. Herger, I want to comment on 
the importance of the flexibility in this funding stream that 
is being proposed in this legislation. In Arizona, we are 
fortunate to have a waiver from the IV-E funding program to 
allow us to provide intensive services to families where there 
has been a removal of a child.
    In the first year of that program, we have been able to 
provide reunification of those children to their biological 
families at a rate that is 43 percent higher than a compatible 
study group. When we have the flexibility to provide intensive 
services to families, to provide post-permanency services to 
families, we can shorten the length of time children spend in 
foster care.
    We can limit the amount of time that we have to provide 
services to support a family. We believe that there are ample 
opportunities with that flexibility in funding to allow States 
to more effectively manage the dollars that we do have 
available to address the specific needs that families have.
    Mr. HERGER. I thank each of you. I thank you, Mr. Deibert, 
for your testimony. Each of you, thank you, Mr. Chairman.
    Chairman MCDERMOTT. Mr. Stark will inquire.
    Mr. STARK. I want to thank the panel, and Ms. Tovar for her 
very poignant remarks about the problems that our clients--I 
guess you are a client--face. I also am troubled when we get 
into bureaucratic squabbling and causing some problems. We had 
a couple of problems with California and New York, one that Mr. 
Purcell is probably going to agree with me. I would like Chief 
Kerlikowske's comment on this.
    In our wisdom a while back, we decided that parents or 
grandparents and related foster parents have got to go through 
an FBI check. In New York and California, we have--I don't know 
whether it is expired or about to, but probably a more thorough 
and quick study.
    I think that we have never missed a serious problem, but we 
have had situations where a grandparent got tagged 15 years 
back with maybe a misdemeanor abuse squabble, but it was clear 
that he and the grandmother had gone to counseling, had taken 
anger management, and the caseworkers decided that these 
grandparents were able, and there has been no evidence since 
then of any disputes.
    Under the Federal law, if the FBI picked that up in their 
search, we couldn't have placed the children with those 
grandparents. I am hoping that perhaps we can get back to 
particularly those States. I would ask the chief: Would it be 
an undue burden on you all to have to run those kinds of checks 
for the State or King County social workers?
    Chief KERLIKOWSKE. No, it is not an undue burden. We run 
literally thousands of background checks for everyone who wants 
to work in a day care center, for teachers. Some are more 
extensive and require fingerprints be submitted. That is a 
little bit more expensive and more time-consuming, but the new 
fingerprinting methods are actually inkless. They don't involve 
cards. They could be----
    Mr. STARK. Could you be comfortable with some kind of 
standard set by the social workers if you reported old cases 
that might not apply? It seems to me that when people get to be 
my age, their criminal activity declines rapidly.
    Chief KERLIKOWSKE. Congressman, I think that we would be 
much more comfortable by providing the information that we 
develop as a result of the background check, and having those 
people responsible for the program, whether it is a day care 
worker, whether it is a foster care parent, or whether it is a 
teacher, setting the parameters of what would be the threshold 
about denial of that responsibility or not, rather than put us 
in that position. This is an area we are probably not expert 
in.
    Mr. STARK. Yes. The FBI thing is a one size fits all. You 
are cool with that, Mr. Purcell, if we let New York continue to 
do it their way and set some standards?
    Mr. PURCELL. Thank you for suggesting that I am cool, 
Congressman, but yes, I would agree with you.
    Mr. STARK. Okay. Now we are going to have the part where we 
are not so cool, guys. Some of you--and I have some figures for 
Arizona; not a whole lot, but it is $800,000 in a year, in 
2002. Washington does it, but I don't have the figures--and 
that is that we have a group of foster children who are 
probably somewhat more disadvantaged than others in that they 
are eligible for SSI benefits or Title II benefits, Social 
Security benefits, in effect, if their parents were dead or if 
the children are disabled, which is--this is even worse.
    Many States have gone out and hired these--I don't know 
quite what to call them, if there is a polite word--but guys 
who run out and search the database to find foster kids who are 
eligible for the Social Security payments, and then the States 
take the money.
    If a child's parent has custody and is receiving, for one 
reason or another, these Social Security checks, that parent is 
under obligation to Social Security to either certify that they 
spend it for the benefit of the child and/or save it for the 
child. I am thinking that--this is a couple hundred bucks a 
month, maybe. If they are disabled, it is a little more. The 
disability payments should go to help the child with whatever 
special medical care of equipment, transportation needs, that 
disability might cause.
    If they just happen to be getting the benefit that comes 
from the parents being deceased, it might amount to a little 
bit of a nest egg when that particular foster child matures out 
of the foster care system. They might have a thousand bucks. 
Maybe they could buy a car. Maybe they could use it to pay 
junior college tuition.
    In Arizona, as I say, it was $800,000. I don't have the 
figures on New York. I suspect in California it could amount to 
some--it depends on how aggressively these guys go out and mine 
this field. I know that in California, the money just goes into 
the general fund. We may be paving roads with it, for all I 
know, but it doesn't even specifically get back into the--and 
the concept is, well, the State is supporting the kids in 
foster care; therefore, it ought to get this money.
    I am hoping to say that those particular funds, 
particularly for children with disabilities but also for those 
who have lost their parents, ought to be set aside and managed 
for the children; if they have special, unusual needs, spent 
there. Can I get New York to help me with that, Mr. Purcell?
    Mr. PURCELL. You can get me to help you with that. I can't 
speak for the State.
    Mr. STARK. It takes some money out of the budget. That is 
the problem I am running into. In Arizona, Mr. Deibert, will 
you give that $800,000 back to the kids?
    Mr. DEIBERT. Mr. Stark, we do give that money to the 
children. We identify the specific services that are provided 
to the children, the supports provided to the children for 
those dollars. What I would ask that you consider is the 
limitation of $2,000 of accrued income before these children 
are denied access to things like Medicaid and other support 
services.
    Mr. STARK. Yes. This shouldn't count toward that.
    Mr. DEIBERT. It does.
    Mr. STARK. It shouldn't. I agree.
    Mr. DEIBERT. So, we would appreciate, in the give and take 
of the process, that we look at all aspects of----
    Mr. STARK. Well, I would like to work with you all in 
seeing if we could come to some way to see that the children 
get what, in a sense, they are entitled to without having it 
just kind of slip into the State treasurer's pocket and then we 
lose using it as I think we would all like to use it.
    Yes, Ms. Tovar? I am.
    Ms. TOVAR. I have really short arms. I can't really reach. 
Thank you.
    I just wanted to speak for two of the youth in my mentoring 
program who I am not sure if they received the funds when they 
were in care. I am speaking more toward when they age out of 
care. I know that some of the independent living standards or 
qualifications for youth to get into that program, to live on 
their own, have their own apartment, and all this, there aren't 
concrete standards across the State. So, some counties are 
asking for you to have $1,000 saved before they can do that.
    I aged out at 17, and for someone to expect me to stay into 
foster care after I graduated high school because I don't have 
$1,000 saved up would put me another year behind to moving 
forward towards success, independence, and that route. So, I 
really do think that that needs to be worked on, and I really 
am grateful that you said that.
    We are working to help our youth, but that is one area that 
my organization isn't very knowledgeable of. We have two youth 
right now in our program who are--one who is disabled and one 
whose parents passed away. So, it is two different situations, 
but that money would help them tremendously.
    Mr. STARK. Thanks very much. Thank you.
    Thank you, Mr. Chairman.
    Chairman MCDERMOTT. I want to thank the panel for your 
testimony, all of you. Particularly, Ms. Tovar, it has been 
helpful to have some feeling for what is going on on the 
ground. Thank you.
    We will now move to the next panel. We hope that we can get 
this panel done before we have votes. So, if you will step up 
to the table. The hearings don't always mesh with what is going 
on on the floor.
    We would like to begin with Ms. Cooper, who is the project 
director for Kids Are Waiting campaign of the Pew Charitable 
Trusts. Ms. Cooper?

STATEMENT OF HOPE A. COOPER, PROJECT DIRECTOR, KIDS ARE WAITING 
              CAMPAIGN, THE PEW CHARITABLE TRUSTS

    Ms. COOPER. Mr. Chairman and Members of the Subcommittee, 
thank you very much for holding today's hearing and for 
inviting me to testify. On behalf of The Pew Charitable Trusts 
and the Kids Are Waiting campaign, I appreciate the opportunity 
to be a part of this important hearing about how we can reform 
the child welfare system, and in doing so improve the lives of 
hundreds of thousands of children in foster care. They deserve 
our urgent attention.
    This evening, after this hearing is over and this room has 
gone dark and silent, more than half a million children will go 
to sleep without their parents at their bedside. During the 
next hour alone, 36 children will be removed from their 
families due to abuse or neglect.
    As we have heard, foster care can be lifesaving for some of 
these children, but far too many do not experience foster care 
as the temporary solution it is supposed to be. Instead, they 
spend years in foster care waiting to return safely to their 
families or to join new families through adoption or 
guardianship.
    Five years ago, Pew launched a national foster care 
initiative aimed at reducing the number of children languishing 
in foster care. To date, we have invested $23 million toward 
achieving this goal. Our initiative began with the Pew 
Commission on Children and Foster Care, which was cochaired by 
two former Members of Congress, Representatives Bill Frenzel 
and William Bell.
    Under their leadership, the commission crafted policy 
recommendations on making changes in two key areas. The first 
was improving the way that State courts oversee cases of 
children in foster care, and the second was changing Federal 
child welfare funding to facilitate faster movement of children 
from foster care into families.
    Upon the completion of the commission's work, we launched 
the Kids Are Waiting campaign. The campaign collaborates with 
dozens of partner organizations to raise awareness about the 
urgent need for child welfare reform through research and 
advocacy.
    Thanks to the leadership of this Subcommittee and the 
passage by Congress of new State court improvement grants in 
2006, nearly every State court around the country is actively 
working to reduce the time it takes a child's case to move 
through the courts. Courts are the gateway into and out of 
foster care, so these court reform efforts are critically 
important.
    However, it is equally important that Congress take action 
to fix the Federal funding of child welfare. Mr. Chairman, one 
in five children in foster care, or more than 125,000 children, 
have been in care longer than 3 years. Many have been separated 
from their siblings and experience ongoing moves and changes to 
their school routines. As you stated in your opening statement, 
nearly 24,000 young people a year age out of foster care on 
their own. We must not allow this to continue.
    The good news is that we know we can do better for children 
and youth in foster care. We can support adoption and 
guardianship, two critical pathways out of foster care and into 
families; and we can also look to a vast array of innovative 
programs at the State and local level that have proven to be 
effective in preventing child abuse and neglect.
    One program is in your State of Washington, the Circle of 
Security program. This is a 20-week group-based educational 
program designed to improve parenting skills in high-risk 
parent/child relationships. There are many other programs like 
this that are fact-based and evidence-based models that can 
help keep families safely together.
    Your bill, Mr. Chairman, would take innovations like these 
to scale and make Federal financing policies work in concert 
with achieving better outcomes for children. We are grateful 
for your leadership and applaud your efforts to champion the 
needs of children in foster care.
    Your bill would go a long way toward fixing foster care and 
correcting the inequities of the current system. We are 
especially supportive of those provisions in your bill that 
replace outdated policies with a new child-focused approach 
that accomplishes the following: preventing the need for foster 
care before a crisis occurs; supporting permanent families 
through guardianship; eliminating barriers to adoption; and 
eliminating the outdated income eligibility test that 
Congresswoman Berkley spoke about.
    Many of these changes will require some new funding, but 
some can be achieved by redirecting current funding or by 
building stronger accountability for how public dollars are 
used. Our goal, like you have stated, is to see legislation 
passed this session.
    Your bill could be enacted as a complete package or 
incrementally. We know that there is strong bipartisan support 
for a number of the provisions in your bill, such as bills 
sponsored by Representative Davis and others. We hope that 
Congress will respond to the urgent need to reform by passing 
legislation before the end of the year, and our campaign stands 
ready to support you.
    [The prepared statement of Ms. Hope A. Cooper follows:]

   Prepared Statement of Hope A. Cooper, Project Director, Kids Are 
                                Waiting
                  Campaign, The Pew Charitable Trusts

    Chairman McDermott, Members of the Subcommittee, thank you for your 
invitation to testify today. On behalf of The Pew Charitable Trusts and 
the national Kids Are Waiting campaign, we applaud you and your 
colleagues on the Subcommittee for your dedication to improving the 
lives of children in our nation's foster care system, and for your 
determination to ensure that all children in this country have the 
safe, permanent, loving families they deserve.
    In 2003 Pew launched a national initiative aimed at finding ways to 
reduce the number of children languishing in foster care without 
permanent families. To date, we have invested more than $23 million 
towards achieving this goal. The initiative began with the work of the 
Pew Commission on Children in Foster care. In 2004, after more than a 
year of intensive study, the commission issued a report with policy 
recommendations for State court and Federal financing reforms. Thanks 
to leadership of this Subcommittee and action by Congress in 2006 to 
set aside $100 million in court improvement grants, many court reforms 
have been embraced by judicial leaders nationwide and courts are 
actively working to improve accountability and case tracking systems. 
Less progress has been made on Federal financing reform, but we are 
heartened by the introduction of your bill and the Subcommittee's 
commitment to reforming the child welfare system to better promote the 
safety, permanence and well-being of vulnerable children and youth.
    We are pleased to see many of the child-centered principles laid 
out by the Pew Commission on Children in Foster Care represented in the 
Invest in KIDS Act, as well as other legislation introduced in the 
110th Congress. These proposals have the potential to correct a number 
of unintended but serious inequities in current child welfare 
legislation and will serve to strengthen families and reduce the number 
of children in foster care, ensure that all children in care receive 
the services they need, and support relatives who provide permanence 
for children through guardianship.
    This evening, after this hearing is over and this room has gone 
dark and silent, more than half a million American children will go to 
sleep without their parents at their bedside. Foster care can be life 
saving for some of these children, removing them from situations where 
abuse or neglect have occurred. But far too many children who are 
victims of abuse or neglect do not experience foster care as the 
temporary solution it is supposed to be--instead, they spend years in 
foster care waiting to return safely to their families or join new 
families through adoption or guardianship.
    ``Growing up in foster care, a tiny, tattered yellow vinyl suitcase 
always accompanied me while I switched families, rules and routines,'' 
said Aaron Weaver, from Nebraska. ``I hated that suitcase. Packed and 
ready to go, it was a constant reminder of how unstable my life was and 
how the threat of moving made every day uncertain.''
    Jelani Freeman of New York echoes this uncertainty. He spent more 
than a decade in foster care and recalls, ``Every day when I got home 
from school, I would check to see if my bags were packed.'' That's how 
he knew he was moving to yet another new placement.
    On average, children spend more than two years in our nation's 
foster care system, move to three different homes, and are often 
separated from brothers and sisters, friends, teachers, and familiar 
schools. In 2005, more than 24,000 youth leave the foster care system 
completely to live on their own, ``aging out'' with no support system.
    We must not allow this to continue.
    Like the recommendations by the Pew Commission on Children in 
Foster Care, the Invest in KIDS Act addresses the core, systemic 
problem of the current Federal funding mechanism for child welfare. 
That problem is an over-reliance on foster care at the expense of other 
services to keep families safely together and to move children swiftly 
and safely from foster care to permanent families, whether by safely 
reuniting them with their birth parents or by adoption or legal 
guardianships. While there may be some differences in the approach 
recommended by the Pew Commission on Children in Foster Care and that 
of the Invest in KIDS Act, we enthusiastically support improvements to 
Federal child welfare financing that accomplish the following: 
preventing foster care; supporting permanent families through 
guardianship; eliminating barriers to adoption; and eliminating the 
outdated income eligibility test.
    Preventing Foster Care. During the next hour, 36 children will be 
removed from their families and enter foster care. Arguably, many of 
them might be able to stay with their families if we were doing a 
better job of preventing child abuse and neglect.
    In 2005, there were nearly 900,000 confirmed cases of child abuse 
and neglect, yet 40 percent of those children failed to receive any 
services or supports to prevent abuse or neglect or remain safely with 
their families.
    Last year, the Federal Government spent $7.2 billion to support our 
nation's child welfare system. But the bulk of this funding 
(approximately 90 percent) was allocated to foster care and some 
adoptive services instead of adequately supporting proven and cost-
effective alternative services that can help keep children safe, 
strengthen families and, in some cases, prevent the need for foster 
care. Due to this financing straightjacket, States are greatly limited 
in their ability to operate programs that help families before a crisis 
occurs or reunification services that can help keep children safe and 
strengthen families.
    Imagine the anguish caused to both parents and children, when 
families are separated and children are placed in foster care. Eprise 
Armstrong from Indiana recalls, ``I was five, and my family was being 
ripped apart. I was scared. My mother was alone, too. I remember her. A 
broken young woman blurred by my tears, she stood in the middle of the 
street and watched as two cars drove away with her life.''
    We believe that the Federal Government should partner with States 
in supporting programs that strengthen families, keep them safely 
together, and reduce the number of children who must enter the foster 
care system. A growing body of evidence, from States and cities and 
counties across the U.S.--Spokane, Washington; Baltimore, Maryland, and 
Alleghany County, Pennsylvania, among others--suggests that a broad 
array of services can decrease the incidence of abuse and neglect, keep 
children safely with their families, and lessen the need for children 
to enter foster care--while at the same time lowering the costs of care 
per child.
    ``Nothing can replace your mom. My mother is a good woman, and she 
loved all of us,'' said Jennifer Gibson, who was in foster care in 
Utah. ``My mother needed addiction treatment, parenting classes and 
jobs skills training. The entire family needed counseling. All of those 
things beforehand would have kept us out of care in the first place.''
    Providing States with flexible, reliable Federal funding that would 
help support a broad continuum of services needed by at-risk children 
and families is essential to keeping children safe, promoting their 
healthy development and well-being and strengthening families who, with 
assistance, can give their children the love, support and nurturing 
parenting that they need.
    ``If I could wish for anything it would be that our family could 
have gotten help sooner,'' said Stephanie Lopez Smith, who entered 
foster care in Washington State and was successfully reunited with her 
family. ``I don't know what life would have been like if I had stayed 
in foster care or been adopted, but I know if I didn't have my family 
around me--my mom, my brother, my grandparents, and my cousins--I would 
be devastated. My family means everything to me.''
    Supporting Permanent Families through Guardianship. Many children 
in foster care find the safety, stability, and security they need in 
the homes of grandparents and other relatives. Research shows that 
children in foster care who live with relative caregivers are more 
likely to remain in the same schools, close to friends and in familiar 
surroundings, and are more likely to be placed with their brothers and 
sisters. Living with grandparents and other relatives often allows them 
to stay connected with friends, family, and their cultural heritage.
    ``Unlike many children in foster care who suffer the loss of family 
members at a young age and experience an overwhelming sense of 
abandonment, I was fortunate,'' said Nicole Demedenko, from California. 
``My grandmother gave me support and encouragement in every way she 
could, so that I would become successful. Having a family, in my 
grandmother and siblings, has been the only thing that kept me going.''
    Research demonstrates, however, that relatives of children in 
foster care are more likely than non-kin families to need financial 
assistance to meet the children's needs. Many are older and living on 
fixed incomes, and few have budgeted the unexpected expenses of raising 
more children.
    Yet, grandparents, or other relatives, who want to provide a 
permanent home for children in foster care may lose the financial 
assistance they receive as foster parents if they become the children's 
legal guardians. As a result, many children stay in the foster care 
system longer than necessary, so caregivers can continue to access the 
funds they need for food, medicine, and clothing and provide the 
children with critically needed health and educational services.
    Federal assistance should be available to relatives who create 
stable, loving families through legal guardianship. The benefits of 
subsidized guardianship are immediate for children who are able to 
leave foster care to become full members of their relative families and 
who no longer carry the label of ``foster child.''
    Eliminating Barriers to Adoption. Currently, Federal adoption 
assistance is available only for certain children in foster care. 
Children may receive Federal adoption assistance only if it was 
initially determined when they entered foster care that their birth 
parents were poor enough to meet the income test of Aid to Families 
with Dependent Children, a program that was dismantled more than a 
decade ago and has not been adjusted for inflation, or if they meet the 
requirements of the Federal Supplement Security Income program.
    When children are not eligible for Federal adoption assistance, 
they may face additional barriers to adoption. Most of these children 
have physical, mental health, and development needs that require 
ongoing services; without financial support many adoptive families may 
lack the resources to meet these children's special needs. A recent 
study found that 81 percent of adoptive parents said adoption 
assistance was important to their decision to adopt, and 58 percent 
said they could not adopt a foster child without support to meet the 
child's special needs.
    A few years ago, Alissa Tschetter-Siedschlaw and Sean Kearney from 
Iowa were considering adopting a little girl with hydrocephalous, mild 
cerebral palsy, lung disease, and other serious medical issues. When 
they learned there was adoption assistance to help pay for needed 
medical treatments and therapy, Sean said, ``It moved us from thinking, 
`Can we financially make it work?' and put the focus back where it 
should be--`Can we love and care for this child?' That was never in 
question!''
    Each child in foster care who has a goal of adoption deserves an 
adoptive family. And, each child with special needs awaiting an 
adoptive family deserves Federal support, so that an adoptive family is 
able to step forward for the child. We must ensure that no child in 
foster care is denied a family because the necessary financial support 
is not available.
    Eliminating the Outdated Income Eligibility Test. All abused and 
neglected children deserve to be protected by a foster care safety net. 
In addition, Federal policies should require concerted efforts to 
ensure they leave foster care to permanent, loving families. The 
responsibility for these children should be a shared Federal and State 
responsibility. However, thousands of foster children and the States 
responsible for them are not receiving crucial help from the Federal 
Government.
    The vast majority of children enter foster care because of abuse or 
neglect. Each child who has experienced this trauma and loss needs a 
full array of services and supports. Linking children's eligibility for 
Federal support with the income of the child's birth family makes 
little sense. Yet, under current law, the outdated linkage of Federal 
foster care support to a defunct program is resulting each year in 
fewer of our most vulnerable children being eligible for Federal 
assistance each year. In 2005, less than half of children in foster 
care were eligible for Federal support, leaving to States the full 
responsibility for providing for these children's many needs.
    Conclusion. Now, more than 10 years after the passage of the 
groundbreaking Adoption and Safe Families Act (AFSA) we recognize there 
is still more work to be done. We must build on the successes of ASFA 
and honor the long-standing, important partnership between the State 
and Federal Government to ensure the safety, permanence, and well-being 
of children in our Nation's foster care system.
    For the sake of the 500,000 children in foster care today and the 
nearly one million children nationwide at risk of experiencing abuse 
and neglect during the coming year, we must turn our attention to ways 
to protect them and promote safe, loving families for every child.
    Pew's Kids Are Waiting campaign stands ready to support the 
Subcommittee's efforts to achieve this goal by making critically 
important changes to current child welfare policy. The time for real, 
lasting and meaningful reform is now.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you for your testimony.
    I would ask the witnesses now to cut yourselves to 4 
minutes. We are going to turn the red light on you at 4 
minutes, and we will submit questions to you. We want to get 
this done because we are going to be more than a half hour over 
there on the House floor and we will never get back.
    Ms. Allen, who is the Director of child welfare for the 
Children's Defense Fund.

   STATEMENT OF MARYLEE ALLEN, DIRECTOR OF CHILD WELFARE AND 
           MENTAL HEALTH, THE CHILDREN'S DEFENSE FUND

    Ms. ALLEN. Good afternoon, I guess it is, Chairman 
McDermott, Ranking Member Weller, and Mr. Stark. I am MaryLee 
Allen, director of child welfare and mental health at the 
Children's Defense Fund. CDF thanks you for the opportunity to 
testify today on behalf of improving America's child welfare 
system. We also thank the Subcommittee for being here over all 
these years as we have worked together to try to improve the 
plight of many children in the system.
    CDF believes that keeping children safe and in permanent 
families must be everybody's business. Members of Congress, and 
particularly this Subcommittee, have a particularly important 
role to play in achieving that goal. You can provide the 
framework and a portion of funding needed so that efforts to 
improve outcomes for children in States and communities can 
move forward.
    We must begin now. There is so much to build on. Certainly 
young leaders, like we heard with Lupe Tovar, speaking across 
the country about the needs of their brothers and sisters. 
There is a greater consensus, as we have heard in this hearing 
today but also in hearings you have held before, about what 
works and the need to move forward as we move ahead.
    There are two important things that we ask you to keep in 
mind as you move to improve the child welfare system. First is 
the outcomes for children that we must achieve; and secondly, 
the best ways to increase needed capacity in States to achieve 
those outcomes. Let me just mention them briefly.
    First, the outcomes. We have to keep children free from 
abuse and neglect and from re-abuse. We have got to keep 
children safely with their families whenever possible. We must 
help to ensure quality care and permanent families for those 
children who must enter foster care through safe reunification, 
adoption, or permanent placement. Fourth, we have to ensure 
post-permanency services for children who do go home or with 
adoptive families to make sure that they don't bounce in and 
out of care.
    Second, how do we achieve these outcomes? We ask to submit 
for the record the recommendations of the Partnership to 
Protect Children and Strengthen Families, an effort to look at 
what improvements we must make in child welfare financing to 
better achieve these outcomes.
    When we look at the recommendations of that partnership, 
they are really focused around five key areas. I think it is 
extremely important that in any provisions that you move 
forward with, you look at these five areas.
    First, what does it do for prevention and early 
intervention? We must have targeted funds for prevention.
    What does it do for specialized treatment and attention to 
the basic needs of children? We also heard about the importance 
of education.
    What about enhanced permanency options for children and 
post-permanency services?
    Fourth, improving the quality of the workforce.
    Fifth, increasing accountability for improved child 
outcomes and system improvements.
    Child welfare financing is key. It is essential. Child 
welfare financing changes, but it is not sufficient. 
Representative McDermott, that is why your bill, the Invest in 
KIDS Act, is so extremely important. It recognizes the need to 
look at financing, but to also look at some important practice 
changes. We applaud it and the attention it gives to keeping 
children safely with their families, but also providing 
children and relatives, particularly, the extra support they 
need to move forward.
    It is attention to siblings. It is attention to using 
front-end mechanisms like family group decisionmaking, the 
kinship navigator program, and also family finders to help make 
those connections with children.
    We really appreciate the work that you all have done as we 
look forward to making changes in the system. We believe that 
the time is now to move forward to make changes for our 
children.
    The Children's Defense Fund urges you to begin this year to 
extend help to three critically important groups of children: 
first, those in foster care raised by their relatives in foster 
care who need permanency; second, the American Indian children 
who are being denied basic assistance; and also older youth 
transitioning to foster care.
    There are tens of thousands of Lupe's brothers and sisters 
out there depending upon you, and we look forward to working 
with you. Thank you.
    [The prepared statement of Ms. Marylee Allen follows:]

    [GRAPHIC] [TIFF OMITTED] T5993A.016
    
    [GRAPHIC] [TIFF OMITTED] T5993A.017
    
    [GRAPHIC] [TIFF OMITTED] T5993A.018
    
    [GRAPHIC] [TIFF OMITTED] T5993A.019
    
    [GRAPHIC] [TIFF OMITTED] T5993A.020
    
    [GRAPHIC] [TIFF OMITTED] T5993A.021
    
    [GRAPHIC] [TIFF OMITTED] T5993A.022
    
    [GRAPHIC] [TIFF OMITTED] T5993A.023
    
    [GRAPHIC] [TIFF OMITTED] T5993A.024
    
    [GRAPHIC] [TIFF OMITTED] T5993A.025
    
    [GRAPHIC] [TIFF OMITTED] T5993A.026
    
    Chairman MCDERMOTT. Thank you for your testimony.
    Khatib Waheed, a Senior Fellow at the Center for Study of 
Social Policy.

STATEMENT OF KHATIB WAHEED, SENIOR FELLOW, CENTER FOR STUDY OF 
                         SOCIAL POLICY

    Mr. WAHEED. Yes. Chairman McDermott, Congressman Weller, 
and other Members of the Subcommittee, thank you for inviting 
me to testify today on H.R. 5466, the Invest in KIDS Act. My 
name is Khatib Waheed, and I am a Senior Fellow at the Center 
for the Study of Social Policy, and I am here today 
representing the Casey-CSSP Alliance for Racial Equity in Child 
Welfare Alliance, which is a partnership among several leading 
foundations, agencies, and associations that focus on improving 
our Nation's child welfare systems.
    The Alliance includes Casey Family Programs; the Annie E. 
Casey Foundation and Casey Family Services; the Jim Casey Youth 
Opportunities Initiative; the Marguerite Casey Foundation; 
parents and alumni of foster care; the Race Matters Consortium; 
BACW; and my organization, the Center for the Study of Social 
Policy.
    On behalf of the Alliance, I would like to thank you and 
the Subcommittee for recognizing the importance of broadly 
addressing the many needs of children involved in the child 
welfare system.
    One of the issues is related to over-representation and 
inequitable treatment for children of color in the child 
welfare system. Although all three waves of the National 
Incidence Survey on Child Abuse and Neglect found that there is 
no significant difference in the overall incidence of child 
abuse and neglect between African Americans and Caucasians 
within similar income groups, African American children are two 
and a half times more likely to be represented in foster care 
than their proportions in the overall population, and they are 
over-represented in the foster care system in every State. The 
placement rates for African American infants into foster care 
is three times higher than for whites.
    Similar differences have been found for other children of 
color. For example, Native American/American Indian children 
are three times more likely to experience foster care and are 
over-represented in 24 States, and Latino children are 
disproportionately represented in foster care in ten States.
    The recent report by the GAO entitled ``African American 
Children in Foster Care'' reported that the factors 
contributing to disproportionality and disparities are high 
rates of poverty, difficulty accessing needed services, racial 
bias and cultural misunderstanding between child welfare 
decisionmakers and families, and difficulties finding 
appropriate permanent placements for children who cannot be 
reunified with their families.
    The Invest in KIDS Act will help reduce disproportionality 
and disparities. Based on the research, the Alliance believes 
that it is essential to strengthen the focus in Federal law and 
policy on safely preventing children of color from coming into 
foster care, and when prevention is not possible, ensuring that 
they leave foster care as quickly as possible as members of 
safe and permanent families.
    I would like to highlight several provisions of the Invest 
in KIDS Act that would help advance that goal.
    First, the bill will help more children safely avoid 
entering into foster care by improving efforts to locate 
relatives and engage them in placement decisions that serve 
their best interests.
    Second, the bill will help children exit foster care on a 
more timely basis, and to move to permanent family settings.
    Thirdly, the bill will improve services to Indian tribes 
and to native children and families.
    There are some additional measures that we would like for 
you to consider.
    To further address racial disparities and 
disproportionality, we would like to recommend that the Invest 
in KIDS Act build upon important work that is already taking 
place in State and county child welfare systems. The States of 
Washington, Texas, Illinois, and Michigan, as well as counties 
in Minnesota, Iowa, and North Carolina, are all pioneers in 
demonstrating how to focus policy and practice on improving 
outcomes for children and families of color.
    The State and local efforts can and should inform Federal 
policy developments because they offer a foundation for Federal 
policy improvements. Some of the common elements of those 
practices are as follows: tracking and reporting data; engaging 
birth parents and youth and other community stakeholders in the 
analysis of data; developing State plans to reduce racial 
disparities; and enacting specific policies that provide 
support to families earlier and in more preventive fashions, 
like Texas.
    We want to thank you for this opportunity.
    [The prepared statement of Mr. Khatib Waheed follows:]

           Prepared Statement of Khatib Waheed, Senior Fellow
                 Center for the Study of Social Policy

    Thank you Chairman McDermott and other Members of the Subcommittee 
for inviting me to testify today on H.R. 5466, The Invest in KIDS Act. 
My name is Khatib Waheed, and I am a Senior Fellow at the Center for 
the Study of Social Policy (CSSP) and am representing the Casey-CSSP 
Alliance for Racial Equity in Child Welfare (Alliance). The Alliance is 
a partnership of several leading foundations, agencies and associations 
that focus on improving our nation's child welfare systems. The 
Alliance was established to develop and implement a national, multiyear 
campaign to address racial disparities and reduce the disproportionate 
representation of children of color in the nation's child welfare 
system. The Alliance partners are Casey Family Programs; the Annie E. 
Casey Foundation and its direct service agency, Casey Family Services; 
the Jim Casey Youth Opportunities Initiative; the Marguerite Casey 
Foundation; parents and alumni of foster care; and my organization, the 
Center for the Study of Social Policy. The Race Matters Consortium and 
Black Administrators in Child Welfare are also partners in this work.
    On behalf of the Alliance, I would like to thank the Subcommittee 
for recognizing the importance of broadly addressing the many needs of 
children involved in the child welfare system. This hearing and those 
you held in 2007 highlight many of the challenges facing the system and 
the children in it. The Alliance looks forward to working with you as 
you identify strategies to improve the child welfare system.
    My testimony will highlight how The Invest in KIDS Act will help to 
reduce the disproportionate representation and disparate treatment of 
children and families of color who are involved in the child welfare 
system. I will also suggest provisions that we believe can further 
strengthen child welfare agencies' capacity to achieve equity for all 
children and families affected by child welfare services. These 
recommendations are consistent with the central purpose of this bill, 
which recognizes the essential need for children to have a family they 
can count on for a lifetime. That need applies to children of our own, 
and it certainly applies to children who interact with the child 
welfare system.
    As the Subcommittee knows, a recent report by the U.S. Government 
Accountability Office (GAO) entitled African American Children in 
Foster Care, requested by Ways and Means Committee Chairman Rangel, 
found that African-American children are much more likely to languish 
in foster care, even though research shows no significant difference in 
the overall incidence of child abuse or neglect between African 
Americans and Caucasians within similar income groups. The GAO also 
documented unequal treatment of African-American children in receiving 
services from child welfare agencies. African-American children stay in 
foster care longer; they are moved to different foster homes more 
frequently; they are less likely to be reunited with their own 
families; and they have a smaller chance of finding an alternative or 
adoptive family willing to make a lifelong permanent commitment. These 
differences in the experiences of children of color in the child 
welfare system are evident even after adjusting for income.
    Disparities for families of color were further documented in 
several reports prepared by Dr. Robert Hill of Westat. Although three 
phases of the National Incidence Studies conducted by Westat (1980, 
1986, and 1993) found that children of color are not abused at higher 
rates than white children, An Analysis Of Racial/Ethnic 
Disproportionality and Disparity at the National, State, and County 
Levels (2007) found that black and American Indian families were 
approximately twice as likely to be investigated for child abuse and 
neglect when compared to the average for all families. The same 
differences were found for rates of substantiation of abuse and 
neglect. In terms of foster care experiences, black children were 2.4 
times more likely to be represented in foster care than their 
proportions in census populations, and American Indian children were 3 
times more likely to experience foster care. Other recent reports 
documented the over-representation of American Indian/Native American/
Alaskan Native children in 24 States and Latino children in 10 States. 
In A Synthesis of Research on Disproportionality in Child Welfare: An 
Update, Dr. Hill finds that despite differences in the design and 
methodology of the studies under review, much consensus about 
disproportionality exists in the professional literature, especially 
among more recent studies. Most of the studies that were reviewed 
documented racial disparities at every stage of child protective 
services: reporting, investigation, substantiation, placement, and exit 
from care. The only stage where no racial differences were identified 
was the stage of reentry into the child welfare system.
The Invest in KIDS Act Will Help to Address Racial Disparities
    Based on this research, the Alliance believes that it is essential 
to focus on safely preventing children of color from coming into foster 
care, and--when prevention is not possible--ensuring that they leave 
foster care as quickly as possible as members of safe and permanent 
families. I would like to highlight several of the provisions in this 
legislation that would help advance that goal.
    First, this bill will help more children safely avoid entering 
foster care by improving efforts to locate relatives and engage them in 
placement decisions that serve the best interests of the child. When 
family members are identified and engaged in all aspects of service 
delivery, the outcomes for all children are significantly improved. 
This is especially true for children of color. For example, research 
has shown that when family members are involved in case plans, relative 
placements for children of color increase from 29 percent to 45 
percent.
    Second, this bill will help children exit foster care on a more 
timely basis and to more permanent family settings by authorizing 
Federal reimbursement for guardianship payments to relatives and by 
providing assistance in navigating the programs and services needed to 
achieve permanence. Specifically, these provisions will allow States to 
have separate foster care licensing standards for relatives; authorize 
funding for activities to connect children in foster care to relatives; 
and provide guardianship payments when relatives transition from foster 
parents to legal guardians. An important component of this measure is 
the continuing medical assistance eligibility for children who leave 
foster care into permanent guardianship. The bill will also provide 
financial incentives for States to increase the numbers of children 
placed permanently with relatives. Together, these sections represent 
the most comprehensive Federal approach to date for ensuring that 
children in foster care are quickly, successfully and permanently 
united with family. These provisions benefit all children in care. They 
are especially essential for children of color in that they will 
strengthen the ability of extended family members and kin to provide 
permanent, loving homes for children when their biological parents are 
unable.
    Third, this bill will improve services to Indian Tribes and to 
native children and families. There are several provisions that will 
significantly benefit tribes, and we are highlighting the provision 
that establishes access to Federal funding for critical services to 
keep families together, and to reunify children with their families. In 
too many States, native children are placed in foster care at rates 4-5 
times greater than their proportion of the population. While tribes can 
offer informal and community supports to their children, they also need 
funding for the services that can make the difference between a family 
continuing to care for a child and a child being placed in foster care. 
Currently, many States do not pass Title IV-E funding through to Tribes 
using individual agreements or State laws. This bill will allow the 
Federal Government to correct this problem and enable tribes to develop 
the resources to maintain native children in their homes and with their 
families.

Additional Measures to Reduce Racial Disparities and Racial 
        Disproportionality
    In order to further address racial disparities and racial 
disproportionality in the child welfare system, the Alliance recommends 
that the Committee add to The Invest in KIDS Act specific policy 
changes focused on such goals. We strongly believe that these goals 
must be a central part of any efforts to make improvements in America's 
child welfare system.
    In making these recommendations, we are building on the important 
work that is already taking place in State and county child welfare 
systems. We believe that these State and local efforts can and should 
inform Federal policy developments. They offer a foundation for Federal 
policy improvements related to reducing racial disparities and 
disproportionality and require the attention of both State and Federal 
Governments.
    The common elements of these promising activities include:

    <bullet>  Tracking and reporting data on the experience of children 
at key decision points within the system, and disaggregating these data 
by race and ethnicity;
    <bullet>  Engaging birth parents, youth, and other community 
stakeholders in the process of analyzing these data and informing plans 
for improvements;
    <bullet>  Developing State plans to reduce racial disparities in 
child welfare with targeted outcomes and specific measures of progress;
    <bullet>  Enacting specific policy and practice changes that 
increase supports and services to children and families or color, and 
that provide these supports to families earlier and in a more 
preventive fashion; and
    <bullet>  Expanding State accountability through the creation of 
public annual reports.

    A number of States can be highlighted for their innovative work in 
these areas:

    <bullet>  Michigan--The Michigan State Legislature used 
appropriations language to require the Department of Human Services 
(DHS) to convene a task force to analyze the disproportionate 
representation of children of color in the child welfare and juvenile 
justice systems. Examination of State- and county-level data revealed 
widespread disparities in treatment of children of color compared to 
their white counterparts. More than 2,300 individuals participated in 
40 focus groups for front-line staff, supervisors, and community 
stakeholders; three tribal focus groups; and two public hearings. The 
task force issued a broad range of recommendations. In addition, a 
comprehensive, four-part assessment and review process has been 
conducted in Wayne County and Saginaw County, and practice reforms and 
policy recommendations are being developed. Local accountability groups 
have also been established, and 14 additional local assessments are 
planned for this year.
    <bullet>  Texas--The Texas State Legislature required the executive 
branch to analyze data regarding the impact of child removals and other 
child welfare actions on racial disproportionality. The legislation 
required a report of the findings, an evaluation of policies and 
procedures, and a remediation plan. Initial actions include creating 
partnerships with community advisory committees composed of local 
stakeholders to address disproportionality; hiring a State-level 
director and 12 disproportionality specialists within the State child 
welfare office; revising training for new child protective services 
(CPS) caseworkers to include ``Undoing Racism'' training with court 
officials, agency staff and other stakeholders; increasing use of 
kinship care with greater financial assistance and training for 
caregivers; and increasing use of in-home services and financial 
assistance to prevent the need for out-of-home placement.
    <bullet>  Washington--The King County Coalition on Racial 
Disproportionality analyzed child welfare data and conducted focus 
groups. Based on this research, policy and practice actions to reduce 
disproportionality were recommended, including efforts to engage 
fathers, culturally-competent in-home services to preserve families, 
greater use of kinship care, use of concrete services, advocates or 
guides for families encountering the system, and post-permanency 
support. The statewide approach is beginning by following a cohort of 
60,000 children statewide who had a referral for child abuse and 
neglect in 2004. The study will analyze the level of involvement of 
children of color at each stage, the number of children of color in 
low-income or single-parent families involved in the State's child 
welfare system, and the outcomes for children in the system.
    <bullet>  Illinois--The Illinois Department of Children and Family 
Services is working in partnership with the State African-American 
Family Commission to improve permanency outcomes for African-American 
children. Actions include conducting Permanency Enhancement Symposia 
and focus groups with judges, private child welfare service agencies, 
public child welfare staff, birth parents, foster parents and youth in 
foster care in all regions of the State. The goals of this work are to 
mobilize communities and develop local partnerships, gather and examine 
regional information, develop policy and practice recommendations, and 
create community and local action plans.

    These examples help illustrate a common set of data-related 
strategies that are emerging as promising approaches for reducing 
racial disproportionality in child welfare systems. Additional examples 
can be found in local jurisdictions such as Ramsey County in Minnesota, 
Guilford County in North Carolina, and Woodbury County in Iowa. To 
encourage similar measures across the country, the Alliance strongly 
recommends action by both the Department of Health and Human Services 
and individual States to track and respond to data on racial inequities 
in the child welfare system and to assess progress made over time in 
reducing these inequities.
    Since States are required in their IV-E State plan to oversee 
outcomes for all children in foster care, we believe that elements 
similar to the following should be added to the Title IV-E State Plan 
so that States will be required over the next two years to develop and 
begin to implement a Plan to Reduce Racial Disparities in Child 
Welfare. The following steps, at a minimum, are key to moving forward 
in a timely fashion to develop such a plan.
    1) States shall collect data on outcomes for children by race at 
the critical decision points in the child welfare system, including the 
initial report of abuse or neglect, the decision to remove a child from 
the birth family, movement from one foster home to another, 
reunification, and the decision about permanent placement with an 
adoptive family or permanent placement with kin. In addition, States 
must prepare an annual report on this data, submit it to the Department 
of Health and Human Services, and make it public in the State.
    2) States shall review these data and identify the policies, 
procedures, and practices that they believe contribute to the findings 
in the above report.
    3) States shall convene a task force of State and local officials, 
birth parents, youth, foster parents, adoptive parents, and other 
community stakeholders to assist in analyzing the data and identifying 
plans for reducing racial inequities in child welfare.
    4) The Task Force, based on the annual report and analysis of 
policies and procedures, shall prepare for implementation a State Plan 
to Reduce Racial Disparities in Child Welfare that includes specific 
strategies and measurable benchmarks for reducing racial inequities and 
also includes measures for assessing progress in reaching those 
benchmarks.
    5) The State's Annual Data Reports and State Plan to Reduce Racial 
Disparities in Child Welfare should be published and made available to 
the public. Where possible, local workgroups that are similar in 
composition to the State task force should be convened to assist with 
implementation of the plan.
    6) Within a designated time period after the establishment and 
implementation of the Plan, the State shall submit annual reports to 
HHS on progress under the Plan.
    The Alliance looks forward to working with you on the specifics and 
a timeline for the development of State Plans to Reduce Racial 
Disparities. To assist States in the development of such plans and to 
enable State and local officials, public and private providers, birth 
parents, youth, foster parents, adoptive parents, attorneys and other 
advocates to look across States at efforts underway, the Alliance also 
recommends that Congress require the Department of Health and Human 
Services to take certain steps to reduce racial inequities in child 
welfare and to assist States in the development of their plans. 
Specific steps might include:
    1) Requiring annual State reports on the safety, permanence and 
well-being of children who have contact with the child welfare system. 
These reports must compare outcomes by race at the critical decision 
points in the child welfare system, including the initial report, the 
decision to remove a child from the birth family, movement from one 
foster home to another, reunification, and the decision about permanent 
placement with kin or adoption.
    2) Requiring longitudinal data as well as specific data elements. 
The U.S. Department of Health and Human Services has suggested changes 
to the Adoption and Foster Care Analysis and Reporting System (AFCARS) 
to track outcomes for children in the child welfare system by race and 
ethnicity, and we recommend that this type of tracking be required by 
Federal law. Similar changes could be considered for the National Child 
Abuse and Neglect Data System (NCANDS).
    3) Compiling and publishing an annual report on the status of 
children of color within the child welfare system that includes State 
by State data, tracks trends longitudinally, and identifies the range 
of strategies that different States are pursuing in their enhanced 
State plans.
    4) Including in the Child and Family Service Review process 
specific performance measures to highlight State progress on reducing 
racial, ethnic and cultural disparities.
    5) Providing the technical assistance necessary to assist States in 
the development of their State Plans to Reduce Racial Inequities.
    6) Establishing a program of incentive grants that could be used to 
(1) develop comprehensive State plans for addressing issues of 
disproportionality and disparities; (2) develop improved tracking and 
reporting systems related to these issues; and (3) build community 
partnerships that help child welfare agencies increase services for 
children and families of color.
    In conclusion, The Investment in Kid's Instruction, Development and 
Support Act, represents a tremendous opportunity to take national 
action toward ensuring better outcomes for all children and families in 
the child welfare system, as well as reducing the disproportional 
representation and disparate treatment that affect children of color. 
We commend Congressman McDermott and the other Members of the Ways and 
Means Subcommittee on Income Security and Family Support for boldly 
addressing comprehensive improvements to the child welfare system and 
focusing on improving outcomes for our nation's most vulnerable 
children. The Alliance welcomes any opportunity to assist the Members 
in strengthening this legislation to expand its impact, particularly 
for children of color.
    Thank you, Mr. Chairman. I look forward to responding to questions 
from you and the Subcommittee Members.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much for your testimony.
    Pamela Davidson, who is the vice president for government 
relations for the National Council for Adoption. We have about 
4 minutes left on the vote, so the quicker you get through this 
thing, the quicker we will get to the bill.

   STATEMENT OF PAMELA DAVIDSON, VICE PRESIDENT, GOVERNMENT 
            RELATIONS, NATIONAL COUNCIL FOR ADOPTION

    Ms. DAVIDSON Thank you for this opportunity. I will be very 
brief.
    The National Council for Adoption supports many provisions 
of your bill, and commends you for introducing it to help the 
thousands of children in foster care. We definitely want to 
express our support for the bill's provisions for federally 
subsidized guardianship, which would be a positive reform to 
the child welfare system and can be achieved without 
undermining children's interests in adoption. Nevertheless, 
NCFA is concerned about some aspects of the nature of federally 
subsidized guardianship, as envisioned in this bill.
    In regard to a child's eligibility for subsidized 
guardianship, this bill is correct to state that subsidized 
guardianship should only be considered for children for whom 
reunification or adoption are not appropriate permanency 
options. NCFA would like to recommend amending the bill's 
language to clarify that the decision to forego reunification 
and adoption should be made by a judge as opposed to State 
agency caseworkers.
    Furthermore, NCFA has concerns with the bill's stipulation 
that the kinship/guardianship assistance payment shall be at 
least equal to the amount of the adoption assistance payment 
for which the child would have been eligible if the child had 
been adopted. By setting the correspondence adoption assistance 
payment as the minimum amount to which kinship care givers are 
entitled, this bill makes possible a situation in which there 
is a financial incentive for a relative or foster care giver to 
choose guardianship over adoption.
    NCFA would therefore suggest that the kinship/guardianship 
assistance payment be made equal to the adoption assistance 
payment for which the child would have been eligible if the 
child had been adopted.
    NCFA also has similar concerns regarding the bill's 
extension of the adoption incentive program to cover 
guardianship placements. For one, to amend the adoption 
incentive program to include guardianship goes against the 
program's intent to promote adoption, not all forms of 
permanency.
    Had the program been intended to promote permanency in 
general, States would also have been given financial incentives 
for increasing the number of children reunified with their 
birth families.
    In addition, providing States with the same financial 
incentive for increasing guardianship placements as States 
receive for increasing adoptions sends States the message that 
guardianship and adoption are interchangeable permanency 
options. Again, it is true that guardianship may be the best 
permanency outcome for a child in certain circumstances. 
However, barring these circumstances, adoption is the 
preferable permanency outcome.
    In addition to expanding the adoption incentive program to 
cover guardianship placements, this bill doubles the amounts 
States are paid for moving children out of foster care into 
adoptive homes, and updates the base year to 2007 in order to 
make more States eligible for payments.
    While NCFA does not oppose these changes, I would like 
Members of the Subcommittee to consider whether there might be 
a more effective way to increase the number of States eligible 
for receiving adoption incentive payments in the long-term.
    For example, the current baseline that States must exceed 
to receive adoption incentive payments is the highest annual 
number of children adopted since 2002. Yet if a State increases 
the number of children adopted out of foster care one year, 
there will be that many fewer children available for adoption 
in subsequent years. Therefore, the more successful a State is 
in getting children adopted, the less likely the State will be 
to match the previous annual performance in absolute numbers.
    Changing the baseline from an absolute number of children 
adopted out of foster care to a percentage of children with a 
case goal of adoption out of foster care would provide States 
with a baseline that doesn't become more difficult to match in 
subsequent years because of prior success.
    In conclusion, on behalf of NCFA, I would like to say that 
the Invest in KIDS Act represents a significant step forward in 
the area of foster care reform. Its passage would open up a 
large stream of Federal dollars for the crucial and neglected 
child welfare strategies of child abuse and neglect prevention 
and family reunification.
    Furthermore, NCFA supports the introduction of federally 
subsidized guardianship provided the preference for adoption as 
a permanency option is maintained. Last, NCFA would like to 
urge Members to consider overall comprehensive Federal 
financing reform involving both titles IV-B and IV-E of the 
Social Security Act and geared toward increasing prevention and 
permanency services.
    I thank you for letting us testify today.
    [The prepared statement of Ms. Pamela Davidson follows:]

        Prepared Statement of Pamela Davidson, Vice President of
          Government Relations, National Council for Adoption

    Chairman McDermott and Members of the Subcommittee:
    My name is Pamela Davidson, Vice President of Government Relations 
for the National Council For Adoption (NCFA). On behalf of NCFA, I 
thank you for the opportunity to be here today, and applaud the 
Subcommittee for holding this hearing to review legislative proposals 
designed to improve America's child welfare system.
    The National Council For Adoption is an adoption research, 
education, and advocacy nonprofit whose mission is to promote the well-
being of children, birthparents, and adoptive families by advocating 
for the positive option of adoption. Since its founding in 1980, NCFA 
has been a leader in advancing adoption and child welfare policies that 
promote adoption of children out of foster care, present adoption as a 
positive option for women with unplanned pregnancies, reduce obstacles 
to transracial adoption, make adoption more affordable, and facilitate 
intercountry adoption.
    My testimony today will focus on the recently introduced Invest in 
KIDS Act. I would like to begin with what NCFA perceives to be the 
particular strengths of this commendable bill. By amending Title IV-E 
of the Social Security Act to provide Federal dollars for services 
designed to safely reduce the number of children in foster care and 
safely reduce the length of stay for children in foster care, this bill 
will allow States to utilize more resources on child abuse and neglect 
prevention and family reunification services. Though such services make 
a crucial part of any child welfare system, they are not currently 
reimbursable under Title IV-E and therefore do not receive the Federal 
funding they deserve. This leads to children entering foster care as a 
result of abuse or neglect that could have been avoided in the first 
place and languishing there.
    NCFA also appreciates the bill's elimination of the requirement 
that the family from which a child has been removed must meet the 
outdated AFDC financial eligibility requirements from 1996 in order for 
the child to receive services provided with Federal dollars. All 
children who are victims of abuse or neglect deserve the protection of 
both the State and Federal Government, not just those whose parents 
meet an outdated financial eligibility requirement for a program no 
longer in existence. By eliminating this requirement, the Invest in 
KIDS Act rightfully provides all children in need with Federal 
protection.
    Research has shown that excessive caseworker workloads correlate 
with worsened outcomes for children in foster care. The $200 million 
per year allocated to States under Title III of the Invest in KIDS Act 
to reduce caseloads per child welfare worker and increase worker 
training is another laudable provision of this bill which stands to 
relieve our overburdened child welfare workforce and improve outcomes 
for our nation's children.
    NCFA would also like to applaud the bill's provision that all 
individuals looking to adopt a child out of foster care be educated as 
to their potential eligibility to receive the adoption tax credit 
without having to document their adoption-related expenses. Research 
has shown that parents adopting children out of foster care are under-
represented among claimants of the adoption tax credit. This provision 
will undoubtedly go a long way toward ensuring that parents who have 
adopted children from foster care receive the full Federal support to 
which they are entitled.
    Finally, NCFA would like to express our support for the bill's 
provision for federally subsidized guardianship. Federally subsidized 
guardianship would be a positive reform to the child welfare system and 
can be achieved without undermining children's interest in adoption. 
Research has shown guardianship to be as safe a permanency option as 
adoption, and that children under the care of guardians are as likely 
to feel a part of their guardian's family as adopted children are to 
feel a part of their adoptive families.
    Nevertheless, NCFA is concerned about some aspects of the nature of 
federally subsidized guardianship as envisioned in this bill. In regard 
to a child's eligibility for subsidized guardianship, this bill is 
correct to state that subsidized guardianship should only be considered 
for children for whom reunification or adoption are not appropriate 
permanency options. However, NCFA would like to recommend amending the 
bill's language to clarify that the decision to forgo reunification and 
adoption should be made by a judge, as opposed to State agency 
caseworkers.
    Furthermore, NCFA has concerns with the bill's stipulation that 
``the kinship guardianship assistance payment . . . shall be at least 
equal to the amount . . . of the adoption assistance payment for which 
the child would have been eligible if the child had been adopted.'' By 
setting the corresponding adoption assistance payment as the minimum 
amount to which kinship caregivers are entitled, this bill makes 
possible a situation in which there is a financial incentive for a 
relative foster caregiver to choose guardianship over adoption. NCFA 
would therefore suggest that the kinship guardianship assistance 
payment be made equal to the adoption assistant payment for which the 
child would have been eligible if the child had been adopted.
    NCFA also has similar concerns regarding the bill's extension of 
the Adoption Incentive Program to cover guardianship placements. For 
one, to amend the Adoption Incentive Program to include guardianship 
goes against the program's intent to promote adoption, not all forms of 
permanency. Had the program been intended to promote permanency in 
general, States would also have been given financial incentives for 
increasing the number of children reunified with their birth families. 
In addition, providing States with the same financial incentive for 
increasing guardianship placements as States receive for increasing 
adoptions sends States the message that guardianship and adoption are 
interchangeable permanency options. Again, it is true that guardianship 
may be the best permanency outcome for a child in certain 
circumstances. However, barring these circumstances, adoption is the 
preferable permanency outcome.
    As I've said, NCFA believes that federally subsidized guardianship 
can be introduced as a positive reform to the child welfare system 
without undermining a child's interest in adoption. However, research 
has shown that the introduction of subsidized guardianship can lower 
adoption rates if precautionary measures are not taken. The evaluators 
of Illinois' Subsidized Guardianship Waiver Demonstration found that 
while the introduction of federally subsidized guardianship did 
increase permanency outcomes for children, it did so at the expense of 
adoption. In the evaluators' own words, several years into the waiver 
demonstration ``subsidized guardianship had begun to supplant 
adoption.'' For this reason, NCFA would like to suggest that any 
legislation introducing subsidized guardianship as a permanency option 
be carefully tailored to ensure that adoption remains the preferred, 
most incentivized permanency option, and that guardianship is 
considered only after a court has ruled that adoption and reunification 
are not appropriate permanency options. These principles and the 
reasoning behind them are more thoroughly addressed in the attached 
publication, Guarding Adoption while Subsidizing Guardianship.
    In addition to expanding the Adoption Incentive Program to cover 
guardianship placements, this bill doubles the amount States are paid 
for moving children out of foster care into adoptive homes from $2,000 
to $4,000 per child above the program's baseline for children under the 
age of 14, and from $4,000 to $8,000 per older child above the 
program's baseline. The bill also updates the base year to 2007 in 
order to make more States eligible for payments. While NCFA does not 
oppose these changes, I would like Members of the Subcommittee to 
consider whether there might be a more effective way to increase the 
number of States eligible for receiving adoption incentive payments in 
the long term. For example, the current baseline that States must 
exceed to receive adoption incentive payments is the highest annual 
number of children adopted since 2002. Yet if a State increases the 
number of children adopted out of foster care one year, there will be 
that many fewer children available for adoption in subsequent years. 
Therefore, the more successful a State is in getting children adopted, 
the less likely the State will be to match its previous annual 
performance in absolute numbers. By changing the baseline from an 
absolute number of children adopted out of foster care to a percentage 
of children with a case goal of adoption adopted out of foster care 
would provide States with a baseline that doesn't become more difficult 
to match in subsequent years because of prior success.
    In conclusion, on behalf of NCFA, I would like to say that the 
Invest in KIDS Act represents a significant step forward in the area of 
foster care reform. Its passage would open up a large stream of Federal 
dollars for the crucial and neglected child welfare strategies of child 
abuse and neglect prevention and family reunification. Furthermore, 
NCFA supports the introduction of federally subsidized guardianship 
provided the preference for adoption as a permanency option is 
maintained. Finally, NCFA would like to urge Members to consider 
comprehensive Federal financing reform involving both Titles IV-B and 
IV-E of the Social Security Act and geared toward increasing prevention 
and permanency services.
    The National Council For Adoption applauds and shares your 
commitment to ensuring that America's children are reared in safe, 
loving families. We look forward to working with the Subcommittee on 
this and other issues of mutual interest. Thank you very much for 
allowing me to testify.

                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] T5993A.027


[GRAPHIC] [TIFF OMITTED] T5993A.028


                                 <F-dash>

    Chairman MCDERMOTT. We thank you, and I apologize for 
putting you through an exercise in breath-holding. We 
appreciate it, and we will submit questions to you in writing.
    Thank you all. The meeting stands adjourned.
    [Whereupon, at 12:31 p.m., the Subcommittee meeting was 
adjourned.]
    [Responses to Questions for the Record posed by Chairman 
McDermott and Mr. Lewis to Ms. Allen follow:]

[GRAPHIC] [TIFF OMITTED] T5993A.029

[GRAPHIC] [TIFF OMITTED] T5993A.030

[GRAPHIC] [TIFF OMITTED] T5993A.031

[GRAPHIC] [TIFF OMITTED] T5993A.032

[GRAPHIC] [TIFF OMITTED] T5993A.033

[GRAPHIC] [TIFF OMITTED] T5993A.034

[GRAPHIC] [TIFF OMITTED] T5993A.035

[GRAPHIC] [TIFF OMITTED] T5993A.036

[GRAPHIC] [TIFF OMITTED] T5993A.037

[GRAPHIC] [TIFF OMITTED] T5993A.038

[GRAPHIC] [TIFF OMITTED] T5993A.039

[GRAPHIC] [TIFF OMITTED] T5993A.040

[GRAPHIC] [TIFF OMITTED] T5993A.041

[GRAPHIC] [TIFF OMITTED] T5993A.042

[GRAPHIC] [TIFF OMITTED] T5993A.043

[GRAPHIC] [TIFF OMITTED] T5993A.044

[GRAPHIC] [TIFF OMITTED] T5993A.045

    [Responses to Questions for the Record posed by Chairman 
McDermott to Ms. Cooper follow:]

[GRAPHIC] [TIFF OMITTED] T5993A.046

    [Responses to Questions for the Record posed by Chairman 
McDermott to Mr. Purcell follow:]

[GRAPHIC] [TIFF OMITTED] T5993A.047

[GRAPHIC] [TIFF OMITTED] T5993A.048

[GRAPHIC] [TIFF OMITTED] T5993A.049

[GRAPHIC] [TIFF OMITTED] T5993A.050


    [Responses to Questions for the Record posed by Mr. Weller 
to Mr. Deibert follow:]
[GRAPHIC] [TIFF OMITTED] T5993A.051

[GRAPHIC] [TIFF OMITTED] T5993A.052

[GRAPHIC] [TIFF OMITTED] T5993A.053


    [Responses to Questions for the Record posed by Chairman 
McDermott and Mr. Stark to Mr. Waheed follow:]

[GRAPHIC] [TIFF OMITTED] T5993A.054

[GRAPHIC] [TIFF OMITTED] T5993A.055

[GRAPHIC] [TIFF OMITTED] T5993A.056

[GRAPHIC] [TIFF OMITTED] T5993A.057

[GRAPHIC] [TIFF OMITTED] T5993A.058

[GRAPHIC] [TIFF OMITTED] T5993A.059

[GRAPHIC] [TIFF OMITTED] T5993A.060


    [Responses to Questions for the Record posed by Mr. Weller 
and Mr. Camp to Mr. Purcell follow:]

[GRAPHIC] [TIFF OMITTED] T5993A.061

[GRAPHIC] [TIFF OMITTED] T5993A.062

[GRAPHIC] [TIFF OMITTED] T5993A.063

[GRAPHIC] [TIFF OMITTED] T5993A.064

[GRAPHIC] [TIFF OMITTED] T5993A.065

[GRAPHIC] [TIFF OMITTED] T5993A.066

[GRAPHIC] [TIFF OMITTED] T5993A.067


    [Responses to Questions for the Record posed by Chairman 
McDermott to Mr. Deibert follow:]
[GRAPHIC] [TIFF OMITTED] T5993A.068

[GRAPHIC] [TIFF OMITTED] T5993A.069

[GRAPHIC] [TIFF OMITTED] T5993A.070


    [Submissions for the Record follow:]

    [GRAPHIC] [TIFF OMITTED] T5993A.071
    
    [GRAPHIC] [TIFF OMITTED] T5993A.072
    
    [GRAPHIC] [TIFF OMITTED] T5993A.073
    
    [GRAPHIC] [TIFF OMITTED] T5993A.074
    
    [GRAPHIC] [TIFF OMITTED] T5993A.075
    
    [GRAPHIC] [TIFF OMITTED] T5993A.076
    
    [GRAPHIC] [TIFF OMITTED] T5993A.077
    
    [GRAPHIC] [TIFF OMITTED] T5993A.078
    
    [GRAPHIC] [TIFF OMITTED] T5993A.079
    
    [GRAPHIC] [TIFF OMITTED] T5993A.080
    
    [GRAPHIC] [TIFF OMITTED] T5993A.081
    
    [GRAPHIC] [TIFF OMITTED] T5993A.082
    
    [GRAPHIC] [TIFF OMITTED] T5993A.083
    
    [GRAPHIC] [TIFF OMITTED] T5993A.084
    
    [GRAPHIC] [TIFF OMITTED] T5993A.085
    
    [GRAPHIC] [TIFF OMITTED] T5993A.086
    
    [GRAPHIC] [TIFF OMITTED] T5993A.087
    
    [GRAPHIC] [TIFF OMITTED] T5993A.088
    
    [GRAPHIC] [TIFF OMITTED] T5993A.089
    
    [GRAPHIC] [TIFF OMITTED] T5993A.090
    
    [GRAPHIC] [TIFF OMITTED] T5993A.091
    
    [GRAPHIC] [TIFF OMITTED] T5993A.092
    
    [GRAPHIC] [TIFF OMITTED] T5993A.093
    

                                 <F-dash>
                  Statement of American Indian Affairs

    The Association on American Indian Affairs is an 85 year old Indian 
advocacy organization located in South Dakota and Maryland and governed 
by an all-Native American Board of Directors. We have been involved 
with Indian child welfare issues for decades and played a key role in 
the enactment of the Indian Child Welfare Act of 1978. We have not only 
developed policy and been involved in legal proceedings, but also 
worked with tribes to negotiate tribal-State partnerships to better 
serve Indian children and have provided training to State employees and 
officials about Indian child welfare. We have also had a long standing 
interest in the issue of adequate funding for tribal child welfare 
programs, having testified before this subcommittee about this issue as 
far back as 1990.
    We applaud Chairman McDermott for his introduction of H.R. 5466, 
the Invest in KIDS Act. There are many portions of the legislation that 
would make vital improvements to the child welfare system. Obviously, 
the perspective that we have to offer involves the impact of this Act 
upon Indian children. That will be the focus of this statement.
Tribal Access to Title IV-E
    First and foremost, we urge enactment of the portion of the Invest 
in KIDS Act that would make tribes eligible for direct funding under 
Title IV-E. As you know, tribes are not eligible for direct funding 
from the Title IV-E foster care/adoption assistance entitlement program 
because of an oversight when the law was enacted. Currently, tribes 
maintain their child welfare programs through a patchwork of funding--
some BIA money, funding through Title IV-B, tribal resources which are 
often limited, and occasionally IV-E funds (or even more rarely, State 
funds) where there is an agreement between a tribe and the State. Many 
of these funding sources are discretionary and tribes are uncertain 
from year to year whether they will have enough funding.
    The lack of access to Title IV-E, the largest Federal child welfare 
program, greatly impacts the ability of tribes to adequately serve 
Indian children living in Indian country under tribal government 
jurisdiction--jurisdiction which is usually exclusive. In this regard, 
it is important to reemphasize that tribal governments are distinct 
from State governments and tribal nations exercise their own inherent 
sovereignty. Many children in tribal communities live below the poverty 
level and rates of abuse and neglect can be significant, but whether 
these children benefit from Title IV-E depends entirely upon whether a 
tribal-State agreement (which is a totally voluntary arrangement 
between the two governments) is in place. It is tragic that we have a 
Federal entitlement program to assist abused and neglected children who 
must be removed from their homes, but have not extended that 
entitlement to children under tribal jurisdiction.
    We would note that tribal access to Title IV-E will also benefit 
Indian children and families involved with State or county systems as 
those children and families would more often be able to access to 
tribal services and resources, in addition to those provided by the 
State or county. We are pleased that at the hearing, five of the 
witnesses most from non-Indian organizations interested in child 
welfare--specifically endorsed the tribal funding provision as an 
important part of this legislation.
    We were also greatly encouraged by the remarks of Representative 
Weller at the hearing where he indicated that the tribal provisions had 
bi-partisan support and stated that he believed that those provisions 
could be enacted this year. We want to thank Chairman McDermott and 
Rep. Weller for their support of tribal funding, as well as Rep. 
Pomeroy who is a member of the full Committee and who has introduced 
H.R. 4688 which provides for direct tribal funding under Title IV-E. 
Finally, we would also like to thank Rep. Camp of this subcommittee, 
who with Rep. Weller is a co-sponsor of H.R. 4688, and who has 
introduced Title IV-E tribal funding legislation in earlier Congresses.
    Although there are differences between H.R. 4688 and H.R. 5466, at 
their core both bills are the same--they provide for direct tribal 
administration of the Title IV-E program. We believe that the two bills 
can be easily reconciled and would be happy to work with the 
Subcommittee to achieve that goal if this would be helpful.
Kinship Guardianship
    The kinship guardianship proposal would be of value to Indian 
children and families. In almost all Indian cultures and communities, a 
child is thought of as belonging not only to his or her parents, but to 
his grandparents, uncles, aunts and other members of his extended 
family. Where there is a clan system, that can also be an important 
source of identity. Moreover, a child also has a broader sense of 
belonging to the child's tribe and his or her culture as well.
    This is reflected in many tribal codes. Tribes frequently recognize 
the rights of extended family, grandparents and traditional custodians 
to participate in judicial and informal proceedings and continued 
visitation with such individuals is frequently mandated by tribal 
courts or codes even where parental rights have been terminated. 
Extended family is defined in many codes to include a large number of 
people beyond those typically included in non-Indian definitions--
people such as clan and band members, individuals who traditionally 
assist with parenting, any person viewed by the family as a relative, 
first cousins of parents (defined as aunts and uncles), step-family and 
godparents. Concepts such as grandparents may include brothers and 
sisters of the child's lineal grandparents.
    Maintaining a child's non-parental connections, unless they are 
demonstrably harmful to a child, promotes a child's well-being and 
sense of permanency in the larger sense. Thus, including kinship care 
within the Title IV-E system would be a positive development for Indian 
children and families.
Other Tribal provisions
    Finally, we applaud the allocation for tribes in the Child Welfare 
Service Quality Improvement Grant Program and the inclusion of tribes 
as eligible for Family Connection Grants. We would note only that 
tribes need to have full access to Title IV-E to take full advantage of 
these programs.
    Thank you for the opportunity to submit this testimony for the 
record and for your support of direct funding to Indian tribes under 
Title IV-E.

                                 <F-dash>
                       Statement of Ann Harrmann

    On behalf of the Coalition for Family & Children's Services in 
Iowa, I thank you for the opportunity to provide information to improve 
the child welfare system. We are very supportive of the Invest in Kids 
bill.
    The Coalition is an alliance of 30 agencies that provide most of 
the direct treatment services to abused and troubled children in Iowa. 
Coalition agencies provide services across Iowa.
    We applaud the Invest in KIDS Act. Its provisions will greatly 
enhance the child welfare system and improve the lives of abused and 
neglected children.
    We feel that the Federal and State child welfare system as 
currently structured and funded is adding to harm of children who have 
already been hurt. The Federal Government has required States to 
greatly improve outcomes for abused and neglected children, but, at the 
same time, has cut back on Federal resources for these children.

    <bullet>  The child welfare system in Iowa (and many other States) 
is severely under funded. We ask that the Federal Government take the 
lead in allocating sufficient resources to improve the lives of abused 
and neglected children.
    <bullet>  The provision in Title IVE Funding linking eligibility to 
1996 guidelines does not make sense. The formula needs to be changed so 
that eligibility is not tied to AFDC in 1996 and is not tied to a child 
being in out of home care. There is no longer an AFDC program, so this 
provision needs to be revised. The Consumer Price Index has gone up 
about 26 percent since 1996 but the funding formula has remained 
unchanged. Costs do increase for everyone in the child welfare system 
i.e. insurance, heating, gas, housing and staff salaries. Additionally, 
if a child can be served safely at home, these services should be 
considered for Federal payment.
    <bullet>  All abused and neglected children should be eligible for 
help. Please change the Federal funding formula so that all abused 
children are eligible for the services they need to become productive, 
healthy adults. We believe that child welfare services should remain an 
entitlement rather than a block grant. All abused and neglected 
children should receive the services they need to become healthy, 
productive adults.
    <bullet>  The under funding of Child Welfare for so many years has 
meant that public workers have very high, unmanageable caseloads. We 
applaud the effort to reduce these caseloads.
    <bullet>  At the same time, because of the under funding of child 
welfare, private workers are paid salaries that are inadequate and not 
competitive with other similar jobs in other sectors. In Iowa, a social 
worker in a private agency with a BA in social work receives a starting 
wage of $24,936. This means that many people leave the field because 
they can not support themselves or their families. A similar employee 
working in a State job would start at $35,381.
    <bullet>  Because private salaries are so low, it is very difficult 
to recruit high quality staff. Turnover is quite high--the turnover 
rate in private agencies in Iowa for direct care staff is about 50 
percent. Each time a child has a new worker, their chance of achieving 
a permanent family decreases dramatically. We believe private salaries 
need to be dramatically improved. We support the provision for training 
in the Invest in Children Act. We ask that Congress allow the training 
funds be used to train both the public and private child welfare 
workforce.

                                 <F-dash>
      Statement of DePelchin Children's Center, Houston, TX 77007

    DePelchin Children's Center, founded in 1892, is Houston's oldest 
charity. It is accredited by the Council on Accreditation, and serves 
the Houston Gulf Coast region. Our mission centers on enhancing the 
mental health and physical well being of children, focusing on 2 major 
areas: (1) prevention & mental health services, & (2) serving children 
in the Child Protective Services (CPS) system.
    Currently, we have nearly 600 foster children in about 400 
therapeutic, habilitative, and basic foster care homes and 60 CPS 
children in 2 residential treatment centers (RTCs). In 2007, we 
provided foster care to a total of 1063 children, facilitated adoption 
of 100 CPS children, and supplied post adoption support services to 
families who have adopted children from the CPS system. We provide a 
continuum of care focusing on the mental health and safety of children. 
Our programs include:

    <bullet>  Prevention & early intervention (PEI) services, most of 
them pursuant to contracts with the State and Federal Governments; they 
focus on preventing teen pregnancy, truancy, juvenile crime, child 
abuse, and bullying, and several are home-visitation based;
    <bullet>  Therapeutic, habilitative, and basic foster care & 
residential treatment for CPS children;
    <bullet>  Adoption services for CPS children and post-adoption 
support services;
    <bullet>  Transitional living for homeless young mothers to help 
them become self supporting.
    <bullet>  Children's mental health treatment, including psychiatric 
& psychological care & school-based and office-based counseling;
    <bullet>  Child psychiatry residency training with the Baylor 
College of Medicine Menninger Department of Psychiatry, and Baylor 
psychology post-doctoral training;

    DePelchin also has a research and development department. In recent 
years, we have been part of the National Child Traumatic Stress Network 
(NCTSN), a program of the Federal Substance Abuse and Mental Health 
Services Administration (SAMHSA), which is developing trauma informed 
therapies for children who have suffered complex trauma, like those we 
serve. Some of our prevention programs are partially funded by research 
and development grants from the Administration for Children and 
Families (ACF).
Comments on H.R. 5466:
OVERVIEW
    DePelchin Children's Center supports H.R. 5466. Two provisions 
relating to the financing provisions are key to DePelchin as a service 
provider in Texas and to improving outcomes for children and families 
who need child welfare services. Those are:

    <bullet>  changing the method of determining the Federal match for 
foster care from the 1996 AFDC ``look-back:'' provision to instead 
using a measure based upon the State's Medicaid participation;
    <bullet>  encouraging the use of Federal child welfare funds for 
prevention, early intervention, and temporary and permanent kinship 
placements;
    <bullet>  Allowing youth to stay in care until age 21.

    DePelchin strongly supports the provisions of the bill targeting 
the following outcomes:

    <bullet>  Safely reducing the number of children in care, 
especially through prevention and early intervention;
    <bullet>  Safely reducing the lengths of stay in care;
    <bullet>  Increasing the use of kinship care and kinship 
guardianship;
    <bullet>  Authorizing States to retain children in care up to age 
21;
    <bullet>  Providing post-permanency supports; and
    <bullet>  Improving the medical care and educational outcomes of 
foster youth.

    As in many other States, over 80 percent of Texas' children and 
youth in foster care are in the care of community-based and faith-based 
charities such as us. Although DePelchin is a large foster care 
provider, we strongly support policies that reduce the need for foster 
care, other out-of-home placements, and institutional care. Research 
supports the intuitive belief that children are best off with their 
families where those families can be safe and stable. Children need 
safety, stability, and adult mentoring and encouragement if they are to 
become productive adults.

DISCUSSION
    Use of Federal funds for prevention and family preservation: 
DePelchin is currently adapting to cultural groups in Texas a 
successful family preservation program developed at the University of 
Maryland called Family Connections. The development work is largely 
funded with a replication grant from the Federal Administration for 
Children and Families (ACF). DePelchin has also developed trauma-
informed mental health treatments which we utilize in caring for the 
children in our foster homes and residential treatment facilities. Our 
development of this expertise came from our participation in the 
SAMHSA-funded NCTSN. By enacting the policies in H.R. 5466, Congress 
can encourage the use of Federal child welfare funds in a way that 
utilizes and expands upon the knowledge developed in federally funded 
research such as these grant programs.
    Expanded Federal support for kinship placements: Experience, 
especially in Illinois, demonstrates that kinship placements are 
generally more stable and successful than foster care with strangers, 
so long as the kin can meet certain minimum standards. The reasons are 
apparent. The child has continuity of relationships and receives a 
message of caring and connection from relatives that is often lacking 
in foster care. Relatives also often can make sure that the parents are 
taking the necessary steps to achieve a successful reunification. They 
are also more likely to keep the children in their care if 
reunification is not feasible, and to receive them back if 
reunification is unsuccessful.
    Research verifies this evidence. Studies vary, but all show that 
relative care is at least as safe as foster care. Studies also show 
that relative placements are more stable, have much higher rates of 
siblings staying together and children return to their parents more 
quickly.
    Texas has been pursuing expanded use of kinship care for several 
years. From 2004 to 2007, Texas nearly doubled the number of children 
in relative care, from 4516 to 8775, while increasing the number of 
children in foster care by 1260 children. However, financial and 
casework supports of kin caregivers is minimal, and with Federal 
support as proposed in H.R. 5466, more kin with limited and fixed 
incomes could provide care for these children. In 2007, the Texas 
legislature emphasized its support for kinship placements when it 
unanimously enacted SB 723, which requires the State Department of 
Family and Protective Services (DFPS) to monitor and annually report to 
the legislature on the number of kinship placements that could not be 
made solely because the family did not have the financial resources to 
take the children, and the amount of monetary assistance that would be 
needed to enable those placements. H.R. 5466's provisions that kin can 
receive financial assistance equal to foster care if they pass criminal 
background checks and meet basic safety standards should help Texas 
expand the number of children who can be cared for by relatives.
    Subsidized guardianship: For the same reasons that we, and the 
State of Texas, support temporary kin placement, we support the policy 
of providing for subsidized guardianship. The Texas legislature in its 
current budget adopted budget control language (DFPS Rider 31) 
directing DFPS to apply for a Federal waiver allowing Texas to use 
Title IV-E or other Federal funds to help fund subsidized guardianship.
    However, we concur with the National Council for Adoption that 2 
changes should be made in H.R. 5466's subsidized guardianship 
provisions: (a) clarify that the decision that reunification or 
adoption are not feasible should be made by the judge, not caseworkers; 
& (b) to avoid creating a financial incentive to choose subsidized 
guardianship over adoption, provide that the subsidy is to be equal to, 
rather than ``at least equal to'' the State's foster care or adoption 
subsidy payments.
    Family connection grants: The grant program provided for in Section 
445 to develop kinship navigator, family finding, and family group 
decision-making programs has the potential to produce new ways to 
safely and effectively expand kinship placements. Implementation of 
Family Group Decision Making in Texas is a primary reason our State has 
recently been able to expand kinship placements.
    Federal funding for post permanency supports: DePelchin Children's 
Center has been providing post-adoption support services for adopted 
CPS children and their adoptive families for decades. We provide these 
services under contract with the State, funded largely by State funds. 
The funding has not increased in nearly 2 decades, despite cost of 
living increases and significant increases in adoptions. Post-adoption 
support services include support groups, therapy, residential 
treatment, and respite care, among others. They are provided to 
families to preserve the adoptions of special needs children, so the 
child and family do not become overwhelmed and relinquish the child. 
These programs yield a major benefit for a very small investment. We 
encourage the sponsor and subcommittee to clarify this bill to 
authorize use of Title IV-E funds for these services. We suggest this 
funding also be available for services to children in subsidized 
guardianship, since these children are likely to have many of the same 
problems.
    Services up to age 21: Texas currently provides Medicaid 
eligibility for aging out foster youth up to age 21, and in limited 
cases up to age 23. It also provides youth the opportunity to re-enter 
care for certain purposes related to pursuing education. As Congressman 
Danny Davis pointed out in his testimony, a recent comprehensive study 
by the Chapin Hall Center for Children found that youth who remain in 
care up to age 21 are more likely to enter college, complete college, 
and delay pregnancy. * We are encouraged that this bill would recognize 
that in today's society, few persons are able to be independent prior 
to age 21. If our own children are not, how can the children who do not 
have a permanent family be?
    Improving health care and education: In addition to increased 
kinship care, the State of Texas has been pursuing a number of other 
policies that H.R. 5466 would help the State to expand. Effective April 
1, 2008, the State is implementing a medical home, electronic medical 
passports and managed health care for foster children and youth. It is 
also pursuing educational passports. The provisions of the bill 
requiring educational stability and funding of education related 
transportation costs can be critical to children having educational 
stability, especially in a large State like Texas.
    Training funds: H.R. 5466 provides that Federal training funds may 
be used to train employees of both public and private agencies that 
care for children. We commend this policy, especially since over 80 
percent of the children in foster care in Texas are in the care of 
private charities. Currently, our employees cannot attend trainings for 
CPS employees that are funded with Federal monies, even though they are 
serving the same children. Allowing the use of these funds for all the 
public and private agencies caring for CPS children is efficient and 
likely to result in improved continuity and quality of care.

CONCLUSION
    H.R. 5466 makes major strides in improving Federal financial 
participation in the child welfare system. The bill reflects the growth 
in knowledge and best practices that have occurred in the last several 
decades. We strongly encourage this subcommittee and the full Ways and 
Means Committee to approve this legislation, with minor changes 
suggested by us and the other witnesses. The bill should help produce 
much better results for children and families with the same investment. 
Thank you for considering our input.

                                 <F-dash>
                      Statement of Gladys Carrion

    Your attention to child welfare issues is greatly appreciated by 
New York State's Office of Children and Family Services (OCFS). Your 
recent introduction of H.R. 5466, the ``Invest in KIDS Act,'' further 
articulates the growing concern Congress has for improving outcomes for 
our nation's most vulnerable children and their families. The bill 
concurs with many of OCFS' priorities. I applaud your diligence and 
effort on behalf of children and families. I am very happy to submit my 
testimony for the record and lend my support to these efforts.

I. NEED FOR INCREASED FEDERAL FINANCIAL PARTICIPATION (FFP) TO SUPPORT 
        CHILD WELFARE
    First, it is important that we examine the current method of 
regulating and funding child welfare services. The individuality of 
States should be recognized in this process. The demographic, cultural 
and societal issues that bring children and families into a State's 
child welfare system cannot be addressed using the same broad brush 
nationwide. New York, for example, is one of the large industrialized 
States that provides services in a ``State supervised/locally 
administered'' fashion. New York is one of thirteen States that operate 
in this manner, meaning that child welfare services, among many others, 
are delivered at the county level with the State in a supervisory 
oversight role. Support is needed from the Federal Government in 
recognizing differences among the needs of States and offering 
flexibility to provide the best possible services for children and 
families in the manner that effectively serves vulnerable populations. 
It is equally important that the States get a firm commitment from the 
Federal Government that they will share the responsibilities involved 
in supporting children and their families.
    Income Eligibility Determinations: It is imperative that Congress 
eliminate the outdated ``look back'' provision that ties eligibility 
under Title IV-E of the Social Security Act (SSA) for federally 
reimbursed foster care and adoption subsidies to the income levels for 
the former Aid to Families with Dependent Children (AFDC) program that 
were in effect as of July 16, 1996. To tie FFP for children removed 
from their homes to eligibility standards that are more than a decade 
old and from a program that no longer exists, calls into question the 
fundamental commitment at the Federal level to providing basic services 
that protect children. There should be no limitations on the Federal 
reimbursement of Title IV-E expenditures. This would eliminate the 
burdensome case-specific IV-E eligibility determination currently 
required and free up time for caseworkers to spend on providing 
services to families to promote the return home of their children.
    Regulatory Reform--I would be remiss if I did not offer the 
strongest possible opposition to recent rulemaking activities by the 
Administration for Children and Families (ACF). Although I touch on the 
Adoption and Foster Care Reporting System (AFCARS) and State Automated 
Child Welfare Information System (SACWIS) rules later in this 
testimony, I wish to add the recent drastic measures that negate 
Targeted Case Management (TCM) in the Medicaid Program as well. It is 
well documented that children who require out-of-home placement in 
foster care have significantly higher physical and mental health 
related needs. The services provided through TCM are not in the States' 
Medicaid State Plans or the States' foster care system services. When 
TCM can be applied to services for foster children treated at the 
community-based level, these children receive these services at a much 
lesser cost than in an institutionalized setting. It is OCFS' belief 
that the recent Medicaid final rule goes beyond what Congress intended 
in the Deficit Reduction Act (DRA) and should never be applied to 
children in foster care. It is especially important to New York that 
the Interim Final Rules not be applied to the approved Home and 
Community Based Medicaid Services waiver programs (H&CBW). Just last 
year, New York received approval from CMS for a new H&CBW program to 
prevent the hospitalization and institutionalization of children in 
foster care. Only in its third month of operation, you can understand 
our concern that the approved program model not be compromised.
    Subsidized Kinship Guardianship: The number of children living with 
relative caregivers has increased sharply in the past decade. 
Currently, almost one-third of all children in foster care live with 
relatives, and in many cases, with grandparents. The trauma of 
placement in unfamiliar settings can often be avoided through kinship 
relative caregiver placements. The essential connections to families 
for those children who cannot be safely reunified with their biological 
parents are vital to the children's emotional growth. However, many 
grandparents need assistance in providing the proper care for their 
grandchildren. AARP states that the rise of grandparents caring for 
their children's children is dramatic. Grandparents often have limited 
resources to adequately cope with the financial burden of childrearing. 
Several States operate waivers that use Title IV-E funding to subsidize 
kinship guardianship. The waiver process was helpful in providing 
States with the flexibility to test this model. Given more than a 
decade of success with these demonstration projects, and the 
unavailability of additional waiver authority, we ask that Congress 
amend Title IV-E as described in H.R. 5466 to provide all States the 
option of seeking Title IV-E reimbursement for subsidized kinship 
guardianship payments to relatives who are willing to assume permanent 
guardianship of foster children so as to provide greater permanency and 
stability to these children and their families. This should include the 
payment of non-recurring expenses within limitations and FFP with those 
associated costs.
    Limitations on Administrative Costs--The Deficit Reduction Act 
(DRA) limits Title IV-E reimbursement for administrative costs on 
behalf of children who are living with relatives who have been approved 
on an emergency basis but not finally approved as foster parents. This 
is inconsistent with the provisions in Title IV-E regulatory language 
that relatives should be granted a priority in foster care placements 
and that case management activities be provided for all foster children 
regardless of whether they are receiving Title IV-E funds or not. 
Casework, planning, and supervision activities are funded by 
administrative costs. To disparage these activities by stripping away 
funding is to belittle the work that front line caseworkers and their 
supervisors do every day with needy populations.
    Title IV-B, Subpart 2--This minimally-funded stream that could 
greatly improve outcomes for children by avoiding costly out-of-home 
placements has been overlooked for far too long. Funding for this 
program, which supports important services for families involved in the 
child welfare system that prevent or reduce the need for foster care, 
should be increased. Instead, the current appropriations would reduce 
the discretionary funding for this program by $15 million. In addition, 
ACF's current regulations require a specified portion of these funds be 
spent on each of the four eligible categories States should be provided 
greater flexibility to spend these capped child welfare prevention 
dollars in the manner that best suits each State's needs.
    Title IV-E Eligibility and Federal Child and Family Services 
Reviews--The case samples for the Title IV-E eligibility reviews should 
better reflect the number of children in the State that receive Title 
IV-E funding. Congress also should consider permitting a State that is 
the subject of a fiscal penalty (disallowance) as a result of a primary 
or secondary Title IV-E foster care eligibility review or a Child and 
Family Services Review to reinvest the penalty dollars to correct 
deficiencies and to support the State's other efforts and initiatives 
to improve its child welfare system.
    While no State passed the first round of CFSR reviews, ACF still 
insists on maintaining an artificially high and unachievable compliance 
threshold. For States to more effectively improve child welfare 
outcomes, as intended by the CFSR process, funding is needed for the 
CFSR process and, most importantly, for the implementation of Program 
Improvement Plans. New York, like many States, has worked hard to 
achieve efficiencies with limited new resources since the first CFSR. 
However, many of the enhancements needed to truly improve outcomes are 
structural in nature and require additional resources, including 
additional front line staff to care for children, and caseworker staff 
for reducing caseload size, increase the frequency of casework contacts 
with families, and reduce staff turnover.
    Block Granting of Child and Family Services--Although the White 
House has called for legislation that would create a ``flexible funding 
stream'' for child welfare services, it is with great trepidation that 
I view block granting at the Federal level. The Social Services Block 
Grant is an example of how block grants can go wrong. In 1981, Federal 
matching funds for social services and funding for social service staff 
training were combined into a block grant to States. Most Federal 
requirements were removed. This new block grant became the ``Social 
Services Block Grant,'' Title XX of the Social Security Act.
    Despite the fact that SSBG had been cut in 1996 and had contributed 
significant amounts to welfare reform's budget savings, and despite the 
entitlement nature of SSBG, it still became subject to the annual 
decisions of appropriators. Legislation in 1999 reduced SSBG funding to 
$1.7 billion in 2001 and beyond.\1\ The White House has since tried to 
reduce this block grant further without Congressional action, violating 
the Budget Impoundment Act of 1974.
---------------------------------------------------------------------------
    \1\ Child Welfare League of America
---------------------------------------------------------------------------
    Given that history of a block grant's vulnerability to offset other 
programmatic areas, I fear for child welfare services should they go 
the route of other human services block grants. In this day of PAYGO 
rules, this drives up the stakes much higher.
    Education of Foster Children--H.R. 5466 makes provision for 
educational needs of foster children. Although New York supports this 
provision, we want to ensure that the bill provides for equal 
participation in these incurred costs between the Federal and State 
stakeholders. H.R. 5466 could be enhanced by providing clarity on the 
quantifying criteria of ``close proximity'' when referring to 
children's school assignments in relationship to their out-of-home 
placements. It should also be expected that Title IV-E costs could rise 
with increased travel expenses to keep children in their originating 
schools.
    McKinney-Vento Homeless Prevention Act Reauthorization--
Reauthorization legislation should include broader language in the 
definitions section of the Act to include runaway youth, youth 
returning to the community after release from rehabilitative services, 
youth who are at risk of becoming homeless, and families with foster 
children that are at risk of becoming homeless.

II. SUPPORT FOR FRONT LINE WORKERS AND FAMILIES
    Training--We urge Congress to provide enhanced reimbursement for 
Title IV-E training for all individuals involved in meeting the Title 
IV-E requirements and simplify the claiming requirements. OCFS approves 
of this provision as stated in H.R. 5466. Currently, Title IV-E 
reimbursement is available for 75 percent of the training costs for 
public child welfare staff and short-term training for private 
voluntary agency staff and foster parents that provide direct services 
to children. However, only 50 percent is reimbursed for longer term 
training of private voluntary agency staff and foster parents that 
provide direct services to the children. Furthermore, Title IV-E 
reimbursement is not available for other groups that are critical to 
the provision of child welfare services and the States' compliance with 
Title IV-E, such as law guardians, family court judges, county 
attorneys, and probation officers. Finally, there are restraints that 
hamper efficient fiscal administration of the training program for the 
States' and training contractors, including the strict Departmental 
Appeals Board (DAB) 1666 interpretation of contractors' indirect costs, 
the requirement to cost-allocate and track both ``training'' and 
``administrative'' costs, and the requirement to cost-allocate and 
track ``direct'' and ``non-direct'' voluntary agency staff training.
    Adam Walsh Act Prescriptive Language Fix--New York applauds your 
efforts to allow for flexibility in criminal background checks as 
stated in H.R. 5466. States should have the flexibility to opt-out of 
the Federal history criminal background check requirements and maintain 
the systems they had in place that protect children from predators 
without eliminating the possibility of placement with family members. 
This should apply to all relative caregiver placements whether they are 
subsidized or not.
    SACWIS and AFCARS--Congress or ACF should clarify under SACWIS that 
a ``single statewide system'' refers only to the infrastructure for 
reporting by localities and their contract agencies to the State and 
Federal Government. ``State-wideness'' is not impaired if a locality 
adopts differing user interfaces, so long as the reporting continues to 
operate through the single statewide system. The current lack of 
flexibility on the part of ACF could impact the SACWIS compliance in 
State supervised, locally administered States because there is 
variation in the needs of individual counties. In addition, rule making 
activities such as the unfunded AFCARS Notice of Proposed Rulemaking 
(NPRM) and the Chafee National Youth in Transition Database (CNYIT), 
add significant additional fiscal and technological burdens that could 
stall or halt SACWIS development in many States. The fiscal sanctions 
connected with these new rules would further hinder development and 
impact services to vulnerable children. The fiscal penalties that may 
be assessed against States that do not attain the required 
participation rates for the new AFCARS collection requirements should 
be at a minimum, considered for appropriation to the States to support 
the significant changes that need to be made to States' computer 
systems.
    While we fully support collection of data about the longer-term 
outcomes for youth leaving foster care, additional Federal funds are 
needed to support this new Chafee requirements. Otherwise, States will 
be faced with reducing the amount of Chafee dollars spent on services 
to youth in order to finance the new data collection initiatives. It is 
important to track the progress of children and youth through the 
States' foster care systems and to have the right tools to do so. That 
said, serious attention must be given to the excessive, new AFCARS data 
requirements and the negative effect they will have on the time 
caseworkers can spend with families. In 2006, a study of caseworker 
workload was conducted in New York State by Walter R. McDonald and 
Associates. Among the findings of the study was that on average, 
caseworkers spend less than one hour per month in face-to-face contact 
with each family on their caseload. The mandatory collection of new 
AFCARS data elements from caseworkers will further reduce caseworker 
availability to families. We need support from our Federal partners in 
reducing the time caseworkers must spend at the computer so we can 
increase the time they can spend with children and families. We urge 
that these requirements be revised to meet the test of whether they are 
essential to promoting the safety, permanency and well-being of the 
children and youth in foster care rather than whether they might 
advance research or outcome measurement objectives.
    Furthermore, the States should be supported financially to offer 
incentives to former foster children to participate in the required 
CNYIT data collection.

III. PROMISING PRACTICES OUTLINED IN H.R. 5466 AND POSSIBLE 
        IMPROVEMENTS THIS LEGISLATION
    H.R. 5466 shows a lot of promise especially with the provisions 
that provide fiscal incentives to improve the quality of child welfare 
services. Caseworker practice is paramount to good outcomes for 
children. OCFS is supportive of this provision.
    As previously mentioned, OCFS agrees with the bill's provisions 
that support kinship placement payments, separate criminal history 
requirements for relative foster parents, and the deletion of required 
criminal history checks on direct placements.
    OCFS is also pleased with the provision to expand eligible training 
populations and supports this provision with Federal fiscal 
participation.
    Giving States the option of keeping older youth in foster care up 
until age 21 allows the States to develop creative initiatives that 
support older youth's independence, and education lessening their risk 
of dependency on public assistance. It is also consistent with the 
emerging research about adolescent brain development and the need for 
young people to be better supported in their transition to adulthood. 
Federal participation for this provision is greatly appreciated and 
long overdue.
    Absent in H.R. 5466 is mention of the CFSR and its drain on States' 
resources. All States must participate in the CFSR and in the first 
round, all States failed their reviews. At that point all States 
provided ACF with their Program Improvement Plans and reported 
periodically on benchmark achievements. This is all done without any 
FFP. New York State is now involved with the second round of CFSR. We 
are expending additional resources for the Statewide Assessment, the 
upcoming on-site case review, and the resulting Program Improvement 
Plan. This was, and still is, an unfunded mandate. Consideration should 
be given to increasing Federal funding for these efforts and not 
further penalizing States and the vulnerable children and families they 
serve.
    Federal participation for supportive, front-end services has been 
minimal. H.R. 5466 could be greatly enhanced if it would provide for 
improved Federal Medical Assistance Payment (FMAP) and flexibility in 
providing children and families with necessary services that keep 
children out of costly, out-of-home placements.
    Although Chafee funding is available for youth aging out of foster 
care, this funding is minimal and does not cover the myriad of supports 
needed by this population. The legislation could also offer enhanced 
funding for older youths' needs such as support for transportation and 
education costs in the FMAP.
    In addition, I am concerned with some of the provisions in H.R. 
5466 that would reduce the percentage of Federal reimbursement for the 
de-linking of foster care payments and adoption assistance payments 
from AFDC as it could serve as a disincentive to adoption Perhaps a 
method of fiscal incentives for improving outcomes and performance 
would better serve children and families? We must invest in the future 
of our nation by investing in our children.
    H.R. 5466 is a good start in addressing complicated child welfare 
needs. I thank you for your time and efforts and look forward to 
working with you and your staff as your legislation progresses through 
the Congress. I am delighted to offer further insight on these and 
other issues affecting children and families and remain at your 
disposal for these discussions.

                                 <F-dash>
              Statement of National Council on Disablility

    The National Council on Disability (NCD) would like to thank the 
Subcommittee for this opportunity to provide written testimony in 
support of the need for improving the child welfare system in the 
United States, and to share information from NCD's most recently 
released report, Youth with Disabilities in the Foster Care System: 
Barriers to Success and Proposed Policy Solutions.\1\
---------------------------------------------------------------------------
    \1\ Released February 26, 2008. To access the full report, please 
go to http://www.ncd.gov/newsroom/publications/2008/FosterCareSystem--
Report.html.
---------------------------------------------------------------------------
Introduction
    NCD is an independent Federal agency, composed of 15 members 
appointed by the President and confirmed by the Senate. NCD's purpose 
is to promote policies and practices that guarantee equal opportunity 
for all individuals with disabilities, regardless of the nature or 
severity of the disability, and to empower individuals with 
disabilities to achieve economic self-sufficiency, independent living, 
and integration into all aspects of society.
    In announcing this hearing, the Honorable Chairman McDermott 
rightly stated, ``We have no greater responsibility than ensuring the 
well-being of American's most vulnerable children . . .'' \2\
---------------------------------------------------------------------------
    \2\ News Advisory, Committee on Ways and Means, Jim McDermott 
Announces a Hearing on Improving the Child Welfare System (February 20, 
2008).
---------------------------------------------------------------------------
    The National Council on Disability would like to bring your 
attention to the children who are the most at risk, and the most 
vulnerable--youth in the foster care system who have disabilities.
    The goal for our country's youth is to live healthy, happy lives 
and to become self-sufficient, contributing members of society as 
adults. However, there are subsets of youth who cannot reach these 
goals with ease. These youth need additional supports to assist them in 
their journey toward a healthy adulthood, as they are more vulnerable 
than the ``average'' youth and thus are more apt to fall through the 
cracks during their journey. Youth development researchers have 
determined that some specific youth populations are more vulnerable 
than others. One exceptionally challenged group in particular is older 
youth (specifically, preteen through young adult) with disabilities who 
are involved in the foster care system.
    NCD's foster youth report focuses on policy proposals designed to 
strengthen the child welfare system and improve the outcomes of 
children in care. Given the huge prevalence of youth with disabilities 
in the foster care system, foster care is clearly a disability issue--
and NCD has found that no one,at the various levels of government, is 
accountable for youth with disabilities in foster care. We recommend 
that governmental entities identify an agency to help coordinate 
service delivery to youth with disabilities in foster care, to hold 
others accountable, and to be held accountable for improving outcomes 
for youth.

NCD Recommendations
    NCD hopes that the following recommendations provide policymakers, 
primarily at the Federal and State levels, with information about youth 
with disabilities in foster care, so that policymakers can begin to 
understand the characteristics of this population; the challenges they 
face; how they fare with regard to safety, permanency, self-
determination and self-sufficiency, enhanced quality of life, and 
community integration; and how the complex array of existing programs 
and services could be better designed to improve these outcomes.
    1) It is imperative to designate a systems-level leader to ensure 
that all systems are working together for the good of each young person 
and that each system keeps their collective eye on the ball--ensuring 
long-term positive outcomes for youth and that each are held 
accountable for the overall positive development of the young person. 
NCD recommends that the dependency court system act as this systems-
level leader.
    2) NCD recommends that States and communities be provided with 
increased flexibility so programs and services can be most effectively 
structured to meet the needs of youth with disabilities in foster care. 
More flexibility awarded to State child welfare agencies can lead to 
more help where it is needed for preventative services, alternative 
care models, transition services, and school-based mental health 
programs, among many other appropriate services for youth with 
disabilities in foster care. Allowing a percentage of funds from one 
program to be shifted to meet the purposes of another is one possible 
approach; allowing waivers and block granting of funds is another.
    3) Increased Federal support is needed for the Departments of 
Health and Human Services, Education, Justice, and Labor for research 
and demonstrations to identify effective policies and practices that 
lead to positive outcomes for youth with disabilities in foster care. 
High-quality research and program evaluations should be supported at 
the Federal level to demonstrate which programs and policies are truly 
effective for youth with disabilities in foster care.
    4) State child welfare agencies should increase their efforts to 
identify and recruit adults who are willing to foster or adopt the 
highest-need youth, including youth with disabilities, to reduce the 
high numbers of these youth left in the system for long periods. 
Training programs for foster parents should include a focus on working 
with youth with disabilities and should provide ongoing support to help 
these adults best support these youth.
    5) The U.S. Department of Education and State education agencies 
need to provide additional services to high school students with 
disabilities in foster care when needed, such as school-based mental 
health services and counseling, with the goal of helping them attain 
higher graduation rates. In addition, students with disabilities should 
always be educated in the ``least restrictive environment'' possible. 
Finally, these education agencies should increase access to and success 
in postsecondary learning opportunities by removing the monetary and 
nonmonetary barriers that stand in the way of youth with disabilities 
in foster care.
    6) State child welfare agencies should enhance the transitional 
supports that are available for these youth to improve their life 
outcomes. They should also extend the availability of transition 
services to youth with disabilities through age 24 when necessary to 
enable them to lead healthy, self-sufficient lives.
    7) The Federal Youth Development Council, authorized by the Federal 
Youth Coordination Act (FYCA), needs to be funded. This council is 
charged with developing an interagency plan to implement Federal youth 
policy more strategically for disadvantaged youth, such as youth with 
disabilities in foster care. Federal support of FYCA and its council 
would greatly facilitate a stronger Federal role in serving these 
youth, as well as more cross-systems collaboration efforts involving 
the many systems that interact with these youth.
    8) Efforts should be made to increase collaboration among the 
education, juvenile justice, child welfare, labor, dependency court, 
health, and mental health systems so that youth with disabilities in 
foster care can achieve greater well-being in their adolescence and 
into adulthood. State dependency court systems can serve as leaders in 
many of these collaboration efforts, and cross-system accountability 
measures should be developed.
    9) A common youth development approach across multiple systems to 
improve outcomes for all youth should be required of all States. The 
youth development approach is broad enough to be applicable to multiple 
youth-serving programs. Research indicates that this approach is 
successful in helping a full range of youth, including youth with 
disabilities, achieve self-sufficiency and self-determination, as well 
as gaining educational, employment, and developmental skills.
    10) Multiple Federal and State agencies can and should encourage 
and support cross-training of professionals who work with youth with 
disabilities in foster care so that all service providers have an 
understanding of both the foster care system and all types of 
disabilities. The cross-training should include adults working in 
schools, child welfare agencies, health and mental health agencies, 
youth development programs, and many more. This measure will help these 
adults better address young people's needs in a timely manner.
    11) Federal agencies that require data collection and reporting, 
particularly the departments of Education and Health and Human 
Services, must better ensure that information is being collected and 
recorded at the local level in a consistent and timely manner so that 
youth with disabilities in all programs are tracked accurately. 
Additionally, youth with disabilities in foster care could be assessed 
more quickly and accurately if all data systems tracked both disability 
and foster care statuses and if child welfare agencies were tasked with 
reporting on the well-being of youth with disabilities. Resources and 
technical assistance should be provided to help States enhance their 
data collection and reporting systems.
    12) Accountability systems must always be headed by a leading body 
that is well connected to all of the systems around it. In the case of 
coordinating systems that interact with youth with disabilities in 
foster care, some experts see the natural systems-level leader of these 
efforts as the dependency courts and, more specifically, the highest 
State court, often the State's supreme court.\3\ Judges are in the 
unique position of being able to ``rise up above the fray'' and see the 
broad picture of what needs to happen to make things better for the 
dependent youth. Judges are also in a position to use Federal law--in 
the form of the Adoption and Safe Families Act (ASFA)--to help them 
work more collaboratively with the child welfare system.\4\ This 
leadership should be jointly managed with executive office to make it 
even stronger.
---------------------------------------------------------------------------
    \3\ Sue Badeau, Executive Director, Philadelphia Children's 
Commission, Remarks at the American Youth Policy Forum Advisory 
Meeting, Washington, DC (March 14, 2007); Telephone Interview with 
Cathy Lowe, Program Manager, National Council of Juvenile and Family 
Court Judges (March 22, 2007); Telephone Interview with Judge Patricia 
Escher, Trial Judge, Division 13, Arizona Superior Court, Pima County 
(April 24, 2007).
    \4\ Telephone Interview with Judge Patricia Escher, Trial Judge, 
Division 13, Arizona Superior Court, Pima County (April 24, 2007).
---------------------------------------------------------------------------
    13) To complete the accountability structure, the courts must have, 
in addition to their jurisdiction over the child welfare system, 
similar control over the health and mental health systems.\5\ 
Historically, dependency court judges have not had leverage over these 
systems.\6\ Aligning this accountability through Federal law would 
further ensure that foster youth, and especially those who have 
disabilities, receive the services they need in the timeliest manner 
possible. One Superior Court judge stipulated that judges are indeed 
responsible for child well-being, despite not being direct service 
providers, and that they can demonstrate their responsibility by using 
their authority to ensure that ``the agencies that are [directly] 
responsible for child well-being fulfill that responsibility.'' \7\ 
However, no system can or should be solely responsible for ensuring the 
well-being of foster youth; every system must do its part.\8\ This 
point of view further illustrates the importance of joint leadership 
with the executive office in order to strengthen the role of the courts 
in ensuring child well-being.
---------------------------------------------------------------------------
    \5\ Id.
    \6\ See the Pew Commission on Children in Foster Care's child 
welfare system timeline for more information. Kasia O'Neill Murray and 
Sarah Gesiriech, A Brief Legislative History of the Child Welfare 
System, Pew Commission on Children in Foster Care, available at http://
pewfostercare.org/research/docs/Legislative.pdf (viewed on January 5, 
2007).
    \7\ Telephone Interview with Judge Patricia Escher, Trial Judge, 
Division 13, Arizona Superior Court, Pima County (April 24, 2007).
    \8\ Id.
---------------------------------------------------------------------------
Conclusion
    NCD's report is groundbreaking in that it deals with a 
comprehensive view of services and programs affecting youth with 
disabilities in foster care. Many reports look at one aspect of the 
challenges these youth face--we focused on multiple challenges so as to 
create an understanding of the need for a comprehensive approach.
    Youth with disabilities who are also in the foster care system are 
one of the most vulnerable populations in the United States. Much more 
can be done to guarantee that they are provided the complete support, 
encouragement, and assistance they need--and deserve--to ensure their 
safety, permanency, and well-being.
    We commend the Subcommittee for shining a light on the immense need 
to improve the child welfare system.

                                 <F-dash>
              Statement of National Governors Association

    The National Governors Association respectfully submits its current 
Child Welfare policy (HHS-14. Child Welfare Services) for inclusion in 
the official hearing record on Improving the Child Welfare System. NGA 
appreciates the opportunity to weigh in on the challenges confronting 
our child welfare programs, and the direction needed to ensure the 
safety and well-being of all children who come into contact with the 
Child Welfare system.
14.1 Preamble
    The nation's Governors believe that, whenever possible, children 
are best cared for by their families in a safe and stable environment. 
Further, Governors support the goals of safety, permanency, and well-
being for all children who come into contact with the child welfare 
system, and are committed to accountability to promote positive 
outcomes for children and families.
    Throughout the nation, States and territories have made significant 
progress in shifting towards a child welfare system based on outcomes 
and accountability. States and territories are currently working to 
develop and implement new, innovative approaches to addressing the 
issues of safety, permanency, and well-being for children. All 50 
States and Puerto Rico have completed their initial Child and Family 
Service Review (CFSR), and have implemented program improvement plans 
to increase their performance.
    Governors are proud of the dramatic increases in the number of 
adoptions from the public child welfare system over the past few years 
and of the reforms they are implementing to address the CFSR outcomes. 
The Federal method of rewarding this progress, however, actually 
creates a disincentive to those States that had high rates of adoptions 
from the public child welfare sector during the baseline year. Despite 
this progress, Governors believe that changes to the current system of 
child welfare financing could help to further improve States' ability 
to provide critical child welfare services to families and to meet the 
required outcomes. A strong federal-State partnership is needed for the 
entire range of child welfare services--from prevention and protective 
services to family services, foster care, independent living services 
(generally ages 18-25), and adoption assistance. While maintaining the 
Title IV-E entitlement, Governors believe States should be given 
greater flexibility in the administration of child welfare programs and 
in deciding how Title IV-E dollars are spent.

14.2 Current Program Challenges and Recommendations
    Greater flexibility in the child welfare system would allow States 
and territories to develop a more coordinated approach to serving 
children and families, to more effectively direct existing resources 
where they are most needed, to more appropriately address family 
situations on a case-by-case basis, and to reach desired outcomes. The 
financing structure and current challenges of the child welfare system 
have become increasingly complex, and these new complexities call for 
reform.
    Governors applaud recent efforts by Congress and the Administration 
to explore options for greater funding and administrative flexibility 
for State child welfare systems, and urge continued work in this 
direction while maintaining the Title IV-E entitlement and the 
protections for children contained in Federal law. Any change in the 
financing structure of the child welfare system should be developed in 
consultation with States. In addition, while Governors are committed to 
improvement in the child welfare system, change in the Federal 
financing of the system should not come at the expense of other 
valuable human services programs that are also crucial to families in 
need.

14.2.1 Flexibility in the Use of Title IV-E Funds
    Challenges. While the Adoption and Safe Families Act of 1997 (ASFA) 
created a number of new mandates on States and territories, and set 
high expectations regarding outcomes, no additional Federal funds were 
provided to meet these requirements. Greater flexibility could help 
States and territories maintain compliance with ASFA requirements and 
continue achievement of the ASFA outcomes of safety, permanency, and 
well-being.
    The current child welfare financing structure does not support the 
desired outcomes and goals of the child welfare system. Specifically, 
the majority of Federal funding for child welfare programs is targeted 
towards out-of-home care, with a much smaller portion of Federal funds 
focused on services that protect child safety, prevent the need for 
out-of-home placement, promote family stability or reunification when 
appropriate, and promote adoption.
    Recommendations. While preserving the Title IV-E entitlement, 
Congress should consider expanding the allowable use of Title IV-E 
funds beyond room and board payments so that States and territories 
could more appropriately tailor services to the needs of specific 
families. For example, additional options for use of funds could 
include prevention services, substance abuse treatment, post-adoption 
services, educational assistance for child welfare staff, post 
guardianship services, services to young adults who age out of foster 
care (generally ages 18-25), and emergency funding to help keep 
families together. In addition, Congress should restore the 
reimbursement of administrative costs for activities related to 
placements of IV-E eligible children with relatives who are unable to 
be licensed as foster parents.
    With a majority of the foster care and adoption placements done 
through contracts with private and nonprofit agencies, Governors 
believe that States should be eligible to utilize Title IV-E funds for 
the purpose of training contract workers and be reimbursed at the same 
rate as their State agency workers, with private and nonprofit agencies 
providing the required matching funds.

14.2.2 Flexibility in Addressing Substance Abuse, Domestic Violence, 
        and Mental Health Issues
    Challenges. The majority of children who enter the child welfare 
system have families with alcohol and drug problems. States and 
territories also face the growing concern of increasing numbers of 
children from families with domestic violence and mental health issues.
    Recommendations. Given the increasing number of children entering 
the child welfare system from families with substance abuse, domestic 
violence, and mental health issues, Governors believe Congress and the 
Administration should explore options within existing programs to 
increase State flexibility in order to address these issues.

14.2.3 Title IV-E Reimbursement, Income Eligibility, and Geographic 
        Location
    Challenges. The Federal Government should have a commitment to all 
children in foster care and adoption regardless of a family's income 
and regardless of the participating jurisdiction in which the child 
lives. Because of the link between Title IV-E and the former Aid to 
Families with Dependent Children (AFDC) rules, many children are not 
eligible for Federal foster care assistance. Further, basing 
eligibility on the outdated ``look back'' date of July 16, 1996, poses 
a heavy administrative burden on States and has the unintended 
consequence of causing fewer children to be eligible for Federal foster 
care assistance. In addition, funding for foster care services in the 
territories is subject to an arbitrary funding cap. States, local 
governments, and territories are committed, nonetheless, to providing 
fundamental protection services to all children, meaning that, in many 
cases, States, local governments, and territories are primarily 
responsible for funding services.
    Recommendations. Congress, in consultation with States, should 
explore options to eliminate the outdated ``look back'' provision that 
ties AFDC eligibility to eligibility for federally reimbursed foster 
care or subsidized adoption under Title IV-E, and should review the 
impact of Title IV-E funding caps in territories on access to vital 
services. While recognizing that this could be a costly endeavor, 
Governors believe that ideally all children in care, including 
abandoned infants, and regardless of family income or jurisdiction, 
should be treated equally. At a minimum, the Title IV-E income 
eligibility level should be adjusted for inflation to address the 
current problem of fewer children being eligible for foster care each 
year because eligibility is based on the AFDC income level as of July 
16, 1996.

14.2.4 Title IV-E Waiver Authority
    Challenges. The recent congressional decision to allow the waiver 
structure for Title IV-E to expire places a severe strain on States to 
provide services that promote child well-being and family permanency, 
such as assisted guardianship, tribal administration, and post-adoption 
services. In order to most effectively address the needs of children 
and families, State innovation should be encouraged rather than 
prohibited.
    Recommendations. Governors strongly urge Congress to reauthorize 
Title IV-E waiver authority. The waiver process should be viewed as an 
opportunity to provide States with greater flexibility to achieve broad 
system change to better serve children and families, not as just an 
opportunity to test and evaluate new ideas. Governors are supportive of 
increased waiver authority within the child welfare system.

14.3 Collaboration with Other Health and Human Service Programs and the 
        Courts
    Given the increasingly interconnected nature of human service 
programs, States and territories rely on other Federal funding streams 
to assist in providing coordinated services to families. These include 
Title XX/Social Services Block Grant (SSBG) and Temporary Assistance 
for Needy Families (TANF), especially in the areas of kinship care and 
family preservation; and Medicaid, which is often used for targeted 
case management. Despite these growing demands, funds for Title XX/SSBG 
have been significantly reduced over the past few years--directly 
impacting child welfare programs in many States. In addition, the 
transfer from TANF to Title XX should be as flexible as possible with 
at least the maintenance of the 10 percent transfer amount.
    Increasingly, States' abilities to use Medicaid funding to 
implement targeted case management for children in the child welfare 
system have been restricted. Governors encourage the Administration to 
make it easier for States to use Medicaid funding to implement targeted 
case management for children in the child welfare system. The Federal 
CFSR has identified a need for the States and Federal Government to 
focus on improving physical and mental health outcomes for children in 
the child welfare system. Governors believe that targeted case 
management under Medicaid is a viable resource that the Administration 
should encourage States to use to achieve these outcomes, rather than 
discouraging its use.
    Governors also recognize that it is not possible for States to be 
in compliance with the new outcomes and timelines as set forth in ASFA 
without adequate resources for, and cooperation and collaboration with, 
the courts. Congress and the Administration should, to the extent 
possible, encourage such collaboration.

14.4 Federal Reimbursement of Kinship Care and Guardianship
    Governors believe that in many cases there are a number of viable 
options for children in need of care, including kinship care. While 
kinship care and other guardianship arrangements are currently 
reimbursable under TANF, Governors believe that Congress should 
consider amending Title IV-E to provide States the option of seeking 
further Federal reimbursement for children who would otherwise be in 
subsidized Federal foster care. Such assistance would provide greater 
permanency and stability to children and families. The Federal 
Government should also authorize State child protection agencies to run 
national criminal history background checks to ensure that children are 
not being placed in the home of someone with a history of violent 
crimes or sexual offenses.

14.5 Title IV-B Funding
    Funding for front-end and preventive services, such as those funded 
through Title IV-B, have remained stagnant, with only small increases 
at best. Even when accessing Title IV-B funds, the mechanism is very 
prescriptive and discourages innovative practice. Governors encourage 
increased Federal support for preventive services through Title IV-B 
funding.

14.6 Reinvestment Program for Disallowance
    States are subject to a fiscal penalty (disallowance) if, upon 
completion of a primary or secondary Title IV-E foster care eligibility 
review or a CFSR, they are found to not be in substantial compliance 
with Federal regulations and requirements. When States are assessed 
these disallowances, they must return the Federal funds that have 
already been received to provide foster care to abused and neglected 
children, eliminating the opportunity for States to use the funds to 
correct the deficiencies found in the reviews and improve the program. 
Governors support a reinvestment program that would permit States to 
dedicate penalty dollars to correct the deficiencies, which would also 
support States' other efforts and initiatives to improve their child 
welfare system.

14.7 Court Involvement and Title IV-E Eligibility
    Governors support allowing a voluntary relinquishment of parental 
rights, also known as surrender of custody and consent for adoption, 
without court involvement to be an acceptable method by which a State 
receives placement and care responsibility for a child, and through 
which a child can be determined Title IV-E eligible.
    There are occasions when a parent is actively responsible and 
appropriately planning for his or her child's future by executing such 
a document. In order for a child in these circumstances to currently 
become Title IV-E eligible, there would have to be court action with 
the requisite judicial determinations concerning best interests of the 
child and actions taken by the State agency to prevent placement of the 
child.

14.8 Family Placement and Title IV-E
    Eligibility Governors encourage and support relative placements. 
Governors encourage the Federal Administration for Children and 
Families to approve Title IV-E State plan amendments that permit a 
child to be determined Title IV-E eligible based upon the home from 
which he or she is removed or in the home of some other specified 
relative with whom he or she lived at some point during the six months 
prior to the child's removal. Many family members step forward to help 
care for a child when parents cannot. This can occur several months or 
more prior to involvement by State child welfare agencies. For these 
situations, it is possible that a child will be found ineligible for 
Title IV-E foster care because family members struggled for an extended 
period of time prior to seeking financial assistance or placement in 
foster care from the State child welfare agency.

                                 <all>

</pre></body></html>
